<html>
<title> - NOMINATIONS TO THE EXECUTIVE OFFICE OF THE PRESIDENT AND THE DEPARTMENT OF COMMERCE</title>
<body><pre>[Senate Hearing 111-408]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-408

                           NOMINATIONS TO THE
                   EXECUTIVE OFFICE OF THE PRESIDENT
                     AND THE DEPARTMENT OF COMMERCE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 12, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation









                  U.S. GOVERNMENT PRINTING OFFICE
51-471 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel











                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 12, 2009................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Hutchison...................................    41
Statement of Senator Isakson.....................................    45
Statement of Senator Nelson......................................    46
Statement of Senator Martinez....................................    48
Statement of Senator Begich......................................    50
Statement of Senator Snowe.......................................    52
Statement of Senator Klobuchar...................................    55
Statement of Senator Vitter......................................    57
Statement of Senator Cantwell....................................    60
Statement of Senator Warner......................................    62

                               Witnesses

Dr. John P. Holdren, Director-Designate, Office of Science and 
  Technology Policy, Executive Office of the President...........     1
    Prepared statement...........................................     4
    Biographical information.....................................     6
Statement of Senator Wyden.......................................    22
Dr. Jane Lubchenco, Undersecretary-Designate of Commerce for 
  Oceans and Atmosphere, U.S. Department of Commerce.............    23
    Prepared statement...........................................    25
    Biographical information.....................................    27

                                Appendix

Hon. John F. Kerry, U.S. Senator from Massachusetts, prepared 
  statement......................................................    71
Hon. Barbara Boxer, U.S. Senator from California, prepared 
  statement......................................................    71
Response to written questions submitted to Dr. Jane Lubchenco by:
    Hon. John D. Rockefeller IV..................................    72
    Hon. Mark Begich.............................................    74
    Hon. Barbara Boxer...........................................    76
    Hon. Maria Cantwell..........................................    77
    Hon. Daniel K. Inouye........................................    78
    Hon. John F. Kerry...........................................    81
    Hon. Kay Bailey Hutchison....................................    82
    Hon. Olympia J. Snowe........................................    82
    Hon. Johnny Isakson..........................................    86
    Hon. David Vitter............................................    87
Response to written questions submitted to Dr. John Holdren by:
    Hon. John D. Rockefeller IV..................................    90
    Hon. Barbara Boxer...........................................    94
    Hon. Maria Cantwell..........................................    95
    Hon. John F. Kerry...........................................    97
    Hon. Mark Warner.............................................    99
    Hon. David Vitter............................................    99

 
                           NOMINATIONS TO THE
                   EXECUTIVE OFFICE OF THE PRESIDENT
                     AND THE DEPARTMENT OF COMMERCE

                              ----------                              


                      THURSDAY, FEBRUARY 12, 2009

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:20 a.m., in 
room SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. Let us have our witnesses come.
    Now, we are doing something a little different today, and 
that is that we are going to do two witnesses at once. This is 
not to diminish, obviously, either one of them, because that is 
an impossibility just by their nature, but it is simply so that 
we can cross-question if we wish and because it saves time and 
because we want to get their nominations moving as fast as 
possible.
    Members should also be aware that on February 26 we will 
have hopefully, if the paperwork is done--and it should be--our 
Secretary of Commerce before us on February 26. So mark that 
down and please be sure to be here for that.
    Dr. Holdren, you are in the White House, and so why don't 
you make your opening statement?

          STATEMENT OF DR. JOHN P. HOLDREN, DIRECTOR-

      DESIGNATE, OFFICE OF SCIENCE AND TECHNOLOGY POLICY,

               EXECUTIVE OFFICE OF THE PRESIDENT

    Dr. Holdren. Thank you very much, Mr. Chairman, Senator 
Hutchison, Members of the Committee. It is an honor and a 
privilege to appear before you as President Obama's nominee for 
Director of the Office of Science and Technology Policy. That 
office has two broad areas of responsibility, and if confirmed 
by the Senate, I will give my enthusiastic attention to both of 
those.
    One of them is policy for science and technology, meaning 
policies for strengthening the research and development 
enterprise in the public and private sectors, for science and 
technology education and training, and for fostering the 
conditions under which advances in science and technology can 
be translated into economic, environmental, and security 
benefits for society at large.
    The other side of the office's responsibilities are science 
and technology for policy, which means ensuring that insights 
from science and engineering are available to our elected 
leaders as they shape economic policy, defense policy, health 
policy, environmental policy, and so on.
    OSTP has the challenge of covering both of those broad and 
demanding domains in the White House, in interaction with other 
Executive Branch agencies, and in interaction with the 
Congress, with a modest staff and budget. And that means we 
need to recruit very high caliber people both for the 
professional staff and for the volunteer but senior advisors on 
the President's Council of Advisors on Science and Technology, 
and it means that we have to use that in-house talent to reach 
out to and draw on the advice of the wider science and 
engineering communities.
    I would like now, if I may, to offer a few brief thoughts 
about the major challenges facing our country at the 
intersection of science and technology with the economy, the 
environment, and with national security, and about how the work 
of OSTP relates to those challenges.
    American investments in science and engineering have driven 
much of the economic growth that our country has enjoyed for 
the past half century, by most accounts 50 to 85 percent of it. 
Two-thirds of our productivity gains in the recent decades are 
directly attributable to scientific and technological advances, 
and in today's time of economic crisis, we have to resist the 
temptation to reduce our investments in these foundations of 
our prosperity.
    In this connection, I want to give special mention to the 
importance of R&D in our space program. Maintaining and 
expanding our capabilities in space is sometimes regarded as a 
luxury that we should do less of in the face of more pressing 
earthbound concerns. I think that would be false economy. Space 
is crucial to our national defense. It is crucial to civil as 
well as military communications and geopositioning. It is 
crucial to weather forecasting and storm monitoring, crucial to 
observation and scientific study of the condition of our home 
planet's land, vegetation, oceans, and atmosphere, and it is 
crucial to scientific study and exploration looking outward. As 
with the rest of our fundamental and applied research 
enterprise, investments in space are a bargain.
    In concert with helping to nurture the R&D enterprise in 
general, OSTP has an important function in promoting the 
translation of the results of R&D into new products and 
services that benefit Americans through widespread application. 
This country has long demonstrated a high capacity for turning 
novel ideas into new businesses and improved services. 
Fostering this capacity for translating science and technology 
into widespread benefit is going to be crucial in rebuilding 
our economy, as well as in addressing our most pressing 
challenges in energy, environment, health, and national 
security.
    Development of new technologies and providing incentives 
for their widespread adoption is going to be particularly 
crucial at the demanding intersection of energy, national 
security, and climate change. Providing the affordable and 
reliable energy that our economic well-being requires, while 
also addressing the dangers of global climate change and over-
dependence on imported oil, are challenges demanding the utmost 
in collaboration among the relative Executive Branch agencies, 
the Congress, and the private sector.
    Information technology has been a key driver of our 
productivity growth in recent decades, and it has fundamentally 
changed the way people worldwide communicate and work. But we 
have just seen the beginning of what can be achieved. 
Information technology has vast potential to improve health 
care, to increase energy efficiency, to monitor climate and 
other environmental conditions, and to manage the immense 
amounts of data from scientific efforts from the Human Genome 
Project to the Large Hadron Collider.
    Better use of existing and new information technologies is 
also going to be a key ingredient to improving K-12, college, 
and university education in this country and not just to 
produce the future cohorts of scientists, engineers, and 
mathematicians that we are going to need. It is also going to 
be key in upgrading the country's entire workforce and 
providing Americans with the tools they need to participate 
successfully in our democracy in an era where science, 
technology, and information are becoming ever more important.
    I want to mention finally the crucial roles that science 
and technology play in our country's capacity to deal with 
threats to our security both at home and abroad. Those include 
the need to address complex new challenges (asymmetric 
conflicts, urban operations, cyber threats, potential terrorist 
access to weapons of mass destruction), as well as all the 
familiar but continuously changing challenges (nuclear and 
biological weapons, ballistic missile and missile defense 
technology, scientific intelligence gathering, among others). 
The superb research done in the Defense Advance Research 
Projects Agency and other parts of the defense research 
establishment has contributed to United States security for 
generations, and I regard it as a continuing obligation of OSTP 
to help see that this continues.
    OSTP's role in the security domain has an international 
cooperation dimension as well and appropriately so, given the 
existence of many security problems that can more readily be 
addressed through multilateral agreements and cooperation 
rather than unilateral action. Nuclear nonproliferation is a 
prime example, but arms control agreements and mechanisms more 
broadly continue to be an important element of our national 
security portfolio. Science and technology are essential 
elements of improving our capacity to verify existing arms 
control agreements, as well as to help decide what additional 
ones are in our national interest.
    In conclusion, while our country clearly faces immense 
challenges in the economic, environmental, health, and security 
domains, among others, it is equally clear that science and 
technology can be key ingredients in turning those challenges 
into opportunities. But the pace of the advances we need for 
these purposes cannot be taken for granted. How quickly or 
slowly we get them is a substantial part a matter of policy. 
The Office of Science and Technology Policy can play a crucial 
role, in cooperation with the other Executive Branch agencies 
and the Congress, in making it possible for us to reap these 
rewards sooner rather than later.
    If the Senate confirms me for the position of Director of 
OSTP, I would hope to work particularly closely with the 
members of this Committee, which has long been a source of 
bipartisan support for the efforts needed to maintain America's 
leadership across the frontiers of science, engineering, and 
innovation.
    I thank you for your attention. I will be pleased to try to 
answer any questions you have.
    [The prepared statement and biographical information of Dr. 
Holdren follows:]

 Prepared Statement of Dr. John P. Holdren, Director-Designate, Office 
  of Science and Technology Policy, Executive Office of the President
    It is a singular honor and privilege to appear before this 
Committee as President Obama's nominee for Director of the Office of 
Science and Technology Policy (OSTP) within the Executive Office of the 
President. I contemplate the opportunity of serving in this capacity, 
if confirmed by the U.S. Senate, with a mixture of pride and humility.
    I am proud to have been nominated by President Obama to work with 
him and the Congress to sustain and strengthen our world-leading 
science and engineering enterprises, which are so crucial to our 
economic prosperity, our security. and the quality of our environment, 
and to ensure the science and technology advice our policy-makers need 
is always the best it can be.
    But I am also humbled by the magnitude of these tasks, as well as 
by the responsibility to live up to the standard set by the 
extraordinary line of distinguished scientists who have served in 
similar roles under Republican and Democratic Presidents since MIT's 
Vannevar Bush served as President Roosevelt's science and technology 
advisor in World War II.
    Science and technology policy consists of two major strands: policy 
for science and technology--namely, the policies related to 
strengthening the research and development enterprise in the public and 
private sectors, to science and technology education and training, and 
to fostering the conditions under which advances in science and 
technology are translated into economic, security, and environmental 
benefits for society at large; and science and technology for policy--
meaning the use of insights from science and engineering in the 
formation of those parts of economic policy, defense policy, space 
policy, health policy, environmental policy, agricultural policy, and 
so on, where such insights are needed to help shape sensible policies.
    OSTP has the great challenge of covering this wide and critically 
important terrain in the White House, and in interaction with other 
Executive Branch agencies and the Congress, with a modest staff and 
budget. This requires recruiting very high-caliber people both for the 
professional staff and for the volunteer but very senior advisors on 
the President's Council of Advisors on Science and Technology (PCAST), 
and using the connectivity of the staff and PCAST to draw on the advice 
and analysis of the best of the rest of the science and engineering 
communities. Making all of this work well is a task that, if confirmed, 
I would give great attention.
    Besides efficiency in the use of the available human resources, a 
further key challenge for OSTP is carrying out its responsibility to 
ensure the science and technology advice the President and Congress 
receives, whether from inside or outside the government, is as 
objective and accurate as the state of the relevant fields permits, 
regardless of the political implications. If confirmed, I will consider 
this one of my highest obligations, which would extend to working with 
the Federal agencies that generate and process scientific and 
technological information to be sure the best technical judgments of 
the scientists and engineers working there are never censored or 
distorted for ideological reasons.
    I would like to briefly offer some thoughts about major challenges 
facing our country at the intersection between science and technology 
and the economy, the environment, and national security, and how the 
work of OSTP relates to addressing these challenges.
    American investments in science and engineering have driven most of 
the innovations that underpin our economy today. A wide variety of 
studies conclude that between 50 and 85 percent of the growth of the 
U.S. economy over the past half-century--and two-thirds of our 
productivity gains in recent decades--are directly attributable to 
scientific and technological advances. In today's time of economic 
crisis, we must resist the temptation to reduce our investments in 
these foundations of our prosperity.
    U.S. scientific leadership requires both creating an environment 
that encourages private investment in research and development while 
maintaining strong and balanced Federal research programs that support 
the promising areas of R&D that are too far from obvious application, 
too uncertain in outcome, too costly, or too related to public as 
opposed to private goods to attract private funding.
    In this connection, I want to give special mention to the 
importance of R&D in our space program. Maintaining and expanding our 
capabilities in space is sometimes regarded as a ``luxury'' we should 
do less of in the face of more pressing earthbound concerns. But that 
would be false economy. Space is crucial to our national defense; to 
civil as well as military communications and geo-positioning; to 
weather forecasting and storm monitoring; to observation and scientific 
study of the condition of our home planet's land, vegetation, oceans, 
and atmosphere; and to scientific study and exploration looking 
``outward'' that is increasing our understanding of the physical 
universe and our place in it.
    I also want to note the importance of the sustainability and 
predictability of the Federal investment in science and engineering. 
The ``boom and bust'' cycles that have characterized much Federal 
support in these domains over the past forty years are inefficient and 
disruptive of scientific progress.
    In concert with helping to nurture the R&D enterprise in general, 
OSTP has an important function in promoting the translation of the 
results of R&D into new products and services that benefit Americans 
through widespread application. This country has long demonstrated a 
high capacity for turning novel ideas into new businesses and improved 
services in domains ranging from medical diagnostics, to instant access 
to information, to entertainment. Fostering this capacity for 
translating science and technology into widespread benefit will be 
crucial in rebuilding our economy as well in addressing our most 
pressing challenges in energy, environment, health, and national 
security.
    Development of new technologies and providing incentives for their 
widespread adoption will be particularly crucial at the demanding 
intersection of energy, national security, and climate change. 
Providing the affordable and reliable energy that our economic well-
being requires while addressing the dangers of global climate change 
and over-dependence on oil from politically fragile regions are 
challenges demanding the utmost in collaboration among the relevant 
Executive Branch agencies, the Congress, and the private sector.
    While climate change is the most demanding of all environmental 
challenges in terms of what will be required of science and technology 
in order to bring it under control, there are many other environmental 
problems we dare not neglect: air quality, water quality, toxic 
substances in our soil and foods, the condition of the forests on our 
territory and the oceans on our borders, and biodiversity, to mention 
some of the most important.
    I know this Committee is well aware that bringing science and 
engineering to bear on solving these problems and thereby improving the 
environmental component of human well-being can also be a boost to the 
economy, not a drag, by virtue of the jobs and investment associated 
with these efforts.
    Information technology has been a key driver of our productivity 
growth in recent decades and has fundamentally changed the way people 
worldwide communicate and work. But we have just seen the beginning of 
what can be achieved. Information technology has vast potential to 
improve health care, increase energy efficiency, monitor climate and 
other environmental conditions, and manage the immense amounts of data 
from scientific efforts from the Human Genome Project to the Large 
Hadron Collider.
    Additionally, we can and should use existing information 
technologies--and the better ones yet to come--to bring the U.S. 
Government into the 21st century by streamlining internal operations, 
cutting costs, increasing information security, and making Federal 
agencies more responsive to inputs from outside the government.
    Better use of the existing and new information technologies will 
also be a key ingredient in the improvement of K-12, college, and 
university education in this country, not only to produce the future 
cohorts of scientists, engineers, and mathematicians we will need, but 
also to upgrade the country's entire workforce and provide Americans 
with the tools they need to participate successfully in our democracy 
in a milieu where science, technology, and information are becoming 
ever more important.
    Last, but certainly not least, I want to mention the crucial roles 
that science and technology play in our country's capacity to deal with 
threats to our security both at home and abroad. These include the need 
to address complex new challenges--asymmetric conflicts, urban 
operations, peacekeeping missions, cyber threats, and potential 
terrorist access to weapons of mass destruction--as well as all of the 
familiar but continuously changing challenges such as those associated 
with nuclear and biological weapons, ballistic-missile and missile-
defense technology, and scientific intelligence gathering. The superb 
research done in the Defense Advance Research Projects Agency and other 
parts of the defense research establishment has contributed to U.S. 
security for generations, and I regard it is a continuing obligation of 
OSTP to help see that this continues.
    The ``national security'' and ``international affairs'' aspects of 
OSTP's role in the security domain are, of course, tightly intertwined, 
not least because there are many security problems that either can only 
be solved or are most easily solved through multilateral agreements and 
cooperation rather than unilateral action. Nuclear nonproliferation is 
a prime example, but arms-control agreements and mechanisms more 
broadly continue to be an important element of our national-security 
portfolio. Science and technology are essential elements of improving 
our capacity to verify existing arms-control agreements, as well as to 
help decide what additional ones are in our national interest, and OSTP 
has a role to play in that.
    Another aspect of OSTP's responsibilities in the global arena 
relates to international research partnerships in science and in the 
technologies needed to address challenges that can only be surmounted 
by multilateral collaborations, such as climate change, oil-import 
vulnerabilities, and the condition of the world's oceans. The cost and 
complexity of cutting-edge accelerators, telescopes, and certain 
experimental energy technologies (such as the ITER fusion experiment) 
are good reason in themselves for sharing the costs and risks 
internationally. I have been involved in international cooperation on 
fusion and other energy technologies since 1971, and if confirmed by 
the Senate I will be most eager to put the insights derived from that 
experience to good use in OSTP.
    In conclusion, while our country clearly faces immense challenges 
in the economic, environmental, health, and security domains, among 
others, it is equally clear that science and technology can be key 
ingredients in turning those challenges into opportunities. It is 
likewise true that in science itself we are on the threshold of 
remarkable new discoveries about the universe, about how our own planet 
and its living systems work, and about how we learn, think, and 
remember. And we are on the verge of huge advances in computing and 
other information systems, in biotech, in nanotech, in greentech, and 
in the intersection of these domains.
    But the pace of these advances is not automatic. How quickly or 
slowly we get them is in substantial part a matter of policy. The 
Office of Science and Technology Policy in the Executive Office of the 
President can play a crucial role, in cooperation with the other 
Executive Branch agencies and the Congress, in making it possible for 
us to reap these rewards sooner rather than later.
    If the Senate confirms me for the position of Director of the 
Office of Science and Technology Policy, I would hope to work 
particularly closely with the members of this Committee, which has long 
been a source of steady, bipartisan support for the efforts needed to 
maintain America's leadership across on the frontiers of science, 
engineering, and innovation.
    I will be pleased to try to answer any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        John Paul Holdren (John P. Holdren, John Holdren).
    2. Position to which nominated: Director, Office of Science and 
Technology Policy, Executive Office of the President.
    3. Date of Nomination: January 20, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office 1: Belfer Center for Science and International Affairs, 
        John F. Kennedy School of Government, Harvard University, 79 
        JFK Street, Cambridge, MA 02138.

        Office 2: Department of Earth and Planetary Sciences, Harvard 
        University, 20 Oxford Street, Cambridge, MA 02138.

        Office 3: The Woods Hole Research Center, 149 Woods Hole Road, 
        Falmouth, MA 02540.

    5. Date and Place of Birth: March 1, 1944; Sewickley, PA (Allegheny 
County).
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Cheryl E. Holdren, self-employed biologist/author and 
        volunteer for various community organizations in Falmouth, MA. 
        She works from a home office at 11 Old Colony Place, Falmouth, 
        MA 02540.

        Children: John Craig Holdren, age 42; Jill Virginia Holdren, 
        age 40.

    7. List all college and graduate degrees. Provide year and school 
attended.

        SB, Aeronautics and Astronautics, 1965, MIT.

        SM, Aeronautics and Astronautics, 1966, MIT.

        PhD, Aeronautics and Astronautics/Theoretical Plasma Physics, 
        1970, Stanford.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

    Lockheed Missiles and Space Company, Palo Alto, CA.

        Associate Engineer, Performance Analysis, summer 1965.

        Senior Associate Engineer, Re-Entry Aerodynamics, summer 1966.

        Consultant, Re-Entry Physics, 9/66-6/67.

    Stanford University

        Research Assistant, Institute for Plasma Research, 7/69-6/70.

    Lawrence Livermore National Laboratory

        Physicist, Theory Group, Magnetic Fusion Energy Division, 7/70-
        6/73 (on leave 1/72-6/73).

        Consultant to the Magnetic Fusion Energy Division and the Laser 
        Division, 6/74-10/94).

    California Institute of Technology, Pasadena, CA.

        Senior Research Fellow, Division of Humanities and Social 
        Sciences and Environmental Quality Laboratory, 1/72-6/73.

    University of California, Berkeley

        Assistant Professor of Energy and Resources, 7/73-6/75.

        Associate Professor of Energy and Resources, 7/75-6/78.

        Professor of Energy and Resources, 7/78-6/96 (and Class of 1935 
        Professor of Energy, 8/92-6/96).

        Management: Vice Chair of the Energy and Resources Group, 1983-
        96, and Acting Chair, 1982-83 and Fall 1990. The Energy and 
        Resources Group was/is a campus-wide, interdisciplinary, 
        graduate-degree-granting program of teaching and research, with 
        46 full-time equivalent faculty, 50-100 affiliated faculty 
        (salaries paid by other campus units), 3-4 administrative 
        staff, and 50-60 graduate students, and a budget in the range 
        of $3-5 million per year.

    Harvard University

        Teresa and John Heinz Professor of Environmental Policy, John 
        F. Kennedy School of Government , and Professor of 
        Environmental Science and Public Policy, Department of Earth 
        and Planetary Science, Faculty of Arts and Sciences, 7/76-
        present (half time 7/05-present).

        Management: Director and Faculty Chair, Program on Science, 
        Technology, and Public Policy (STPP), Belfer Center for Science 
        and International Affairs, John F. Kennedy School of 
        Government, 7/76-present. STPP comprises research efforts 
        engaging 4-6 faculty members and senior researchers, 3-6 
        administrative staff, and 10-20 research fellows and research 
        associates, with a budget of $3-5 million per year.

    The Woods Hole Research Center

        Management: President and Director of the Center, half--time 7/
        05-present. The Center is an independent, nonprofit, 
        nonpartisan research and education organization focused on 
        interactions of the land, soil, vegetation, water, and climate 
        of the planet and the relation of these factors to human well-
        being. The center employs 50 scientists, policy analysts, and 
        support staff and has a budget that has ranged in my tenure 
        from $5.5 million to $8.5 million per year.

    The John D. and Catherine T. MacArthur Foundation

        Management: Member of the Board of Directors, concurrently with 
        the above positions, 1991-2005. The Board oversees the 
        operation of a charitable foundation with assets in the range 
        of $4-5 billion and annual outlays in the range of $200-250 
        million. I chaired the Board committee overseeing the 
        Foundation's Program on Peace and International Cooperation 
        (circa $20 million per year) 1994-96, served on the Budget 
        Committee 2000-2005, and chaired the Institutional Policy 
        Committee 2002-2005.

    9. Attach a copy of your resume. Up-to-date CV and separate 
complete publications list are attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.
    I have been an informal advisor, in consequence of my roles in the 
National Academy of Sciences Committee on International Security and 
Arms Control, the National Commission on Energy Policy, the American 
Association for the Advancement of Science, and the Aspen Institute, 
and in connection with government-agency grants to my research and 
policy-analysis projects at Harvard and the Woods Hole Research Center 
(for details of all of which see item 11, below), to the following:

        U.S. Department of State.

        U.S. Department of Defense.

        U.S. Department of Energy.

        National Nuclear Security Administration.

        Central Intelligence Agency.

        U.S. Environmental Protection Agency.

        Senate Committee on Energy.

        numerous individual Members of Congress.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Harvard University (professors are considered ``officers''; see 
        entry under item 8, above).

        John D. and Catherine T. MacArthur Foundation (trustee; see 
        entry under item 8, above).

        Woods Hole Research Center (the position of President, which 
        I've held since June 2005--see entry under item 8, above--
        entails membership on the Board of Trustees, of which I was 
        also a member in the period 19942004, serving as Vice Chair).

        Tsinghua University (Beijing, China; Guest Professor, a non-
        resident three-year appointment entailing 1-2 lectures per 
        year; began 5/08).

        American Association for the Advancement of Science (AAAS)

                President-elect, 2/05-2/06.

                President, 2/06-2/07.

                Chair of the Board, 2/07-2/08.

                Member of the Board, 2/05-2/08.

                (A number of projects and offices of the AAAS provide 
                advice to Congress and Executive Branch agencies when 
                requested)

        National Commission on Energy Policy

                Co-Chair, 2002-present.

                (The National Commission on Energy Policy is an 
                independent, foundation-funded, nonprofit, bipartisan 
                organization that develops consensus recommendations on 
                U.S. energy policy and provides them, along with 
                supporting analyses, to relevant committees of the U.S. 
                Congress, Executive Branch agencies, and the public. 
                The other two Co-Chairs, since the Commission's 
                inception, have been John Rowe, CEO of the Exelon 
                Corporation, and William Reilly, EPA Administrator 
                under President George H. W. Bush.)

        United Nations Foundation

                Consultant on climate-change and energy issues, 11/03-
                5/07 (This work also entailed advising the Commission 
                on Sustainable Development of the United Nations, the 
                U.N. Secretary General, and the President of the 
                General Assembly).
        National Academy of Sciences

                Chair, Committee on International Security and Arms 
                Control, 19942004 (The chairmanship of this standing 
                committee is considered an ``officer'' position in the 
                NAS.)

        MIT Press

                Chair of the Editorial Advisory Board of the journal 
                Innovations: Technology, Governance, Globalization, 
                2004-present.

        U.S. Civilian Research and Development Foundation

                Member, Council of Advisors, 2001-present.

        China-U.S. Center for Sustainable Development

                Member, Board of Councilors, 2002-present.

        Princeton University Carbon Management Initiative

                Member, Advisory Board, 2002-2007.

        Climate Central

                Member, Board of the Board, 2008-present (Climate 
                Central is a 501.3.c based in Princeton, NJ and led by 
                distinguished climate scientist Berrien Moore and 
                Weather Channel climatologist Heidi Cullen, focused on 
                developing objective and balanced content on climate 
                change for the electronic media).

        Aspen Institute

                Participant in a number of Aspen Institute 
                Congressional Seminars and Congressional Breakfasts.

    In addition, I have served during the past 5 years as an informal 
advisor, in connection with grants by the indicated entities to my 
research and policy-analysis projects at Harvard and the Woods Hole 
Research Center, to the following:

        BP

        Shell USA

        Goldman Sachs Center for Environmental Markets

        Doris Duke Charitable Foundation

        The Winslow Foundation

        The Heinz Family Philanthropies

        The William and Flora Hewlett Foundation

        The David and Lucille Packard Foundation

        The John D. and Catherine T. MacArthur Foundation

        The Rockefeller Foundation

        The Rockefeller Brothers Fund

        The Energy Foundation

        The Nuclear Threat Initiative

    I have also served in the last 5 years as an occasional informal 
advisor (unpaid and in the absence of grants to my projects) to the 
following:

        The Rockefeller Foundation

        The Clinton Global Initiative

        The Carnegie Corporation of New York

        Google.org

        The Open Society Institute

        Sigma Xi, The Scientific Honorary Society

        The Nand and Jeet Khemka Foundation

        The World Economic Forum

    12.Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    Besides entities listed above under items 8 and 11, none of which 
restricts membership, I have been a member during the past 10 years of 
the following other organizations (also all non-restrictive on the 
indicated grounds):

        National Academy of Sciences, 1991-present.

        National Academy of Engineering, 2000-present.

        American Academy of Arts and Sciences, 1983-present.

        Council on Foreign Relations, 1996-present.

        California Academy of Sciences, 1985-present.

        American Association for the Advancement of Science, 1971-
        present (offices held listed under item 11).

        The American Physical Society, 1970-present.

        Sigma Xi, The Scientific Honorary Society, 1966-present.

        The MIT Alumni Association, 1965-present.

        The Stanford Alumni Association, 1970-present.

        Pugwash Conferences on Science and World Affairs, 1973-present.

        Chair of the U.S. Pugwash Committee, 1983-95.

        Member of the International Pugwash Council, 1982-97.

        Chair of the Executive Committee of the International Pugwash 
        Council, 1987-97.

        Federation of American Scientists, 1974?-present.

        Union of Concerned Scientists, 1980?-present.

        Sierra Club, 1966?-present.

        Environmental Defense Fund, 1980?-present.

        Natural Resources Defense Council, 1980?-present.

        Quissett Yacht Club, 2004-present.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    No, nothing in this category.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.
    Our political contributions have been modest and we have not kept 
good records of them. To the best of my recollection, those in the last 
10 years have been as follows:

        My wife and I made contributions totaling $2,000 to the 
        Presidential campaign of President-elect Barack Obama in 2008.

        We contributed (I believe) $1,000 to the Presidential campaign 
        of Senator John Kerry in 2004.

        We contributed (I believe) $1,000 to the Presidential campaign 
        of Vice President Gore in 2000.

        We contributed (I believe) $500 to one or more of Senator John 
        Kerry's re-election campaigns.

        We contributed (I believe) $500 to one or two of Congressman 
        Rush Holt's election campaigns.

    I provided modest amounts of advice on climate-change and energy 
issues to both the Clinton and Obama Presidential campaigns during the 
primaries, and subsequently to the Obama campaign during the general 
election. I was designated a surrogate for Senator Obama on energy and 
climate-change issues during the general election but never performed 
in this role.
    I was a member of Scientists and Engineers for Kerry during the 
2004 Presidential campaign and gave a number of speeches in this role 
in Pennsylvania, Ohio, and New Mexico.
    I was a member of Scientists and Engineers for Gore during the 2000 
Presidential campaign and participated in some conference-call meetings 
on strategy for mobilizing support for Vice President Gore in the 
science and engineering communities.
    I have held no other offices or rendered any other services for 
state or national political parties or action committees in this 
period.
    15.List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.
    In inverse chronological order:

        John H. Chafee Memorial Lecture, National Council for Science 
        and the Environment, 2008.

        Robert Fletcher Award of the Thayer School of Engineering, 
        Dartmouth College, 2007.

        President, American Association for the Advancement of Science, 
        2006-07.

        Jerome Wiesner Lecture, University of Michigan, 2002.

        Honorary Sc.D., Clark University, 2002.

        Joseph Rotblat Lecturer, Annual Student Pugwash Conference, 
        2002.

        National Associate of the U.S. National Academies (award ``for 
        exceptional service''), 2001.

        John Heinz Prize in Public Policy, 2001.

        Member of the National Academy of Engineering (elected 2000).

        Tyler Prize for Environmental Achievement, 2000.

        Sidney Drell Lecturer, Stanford University, 2000.

        Kaul Foundation Award for Excellence in Science and 
        Environmental Policy, 1999.

        Fusion Leadership Award for 1998, Fusion Power Associates.

        Honorary D.Eng., Colorado School of Mines, 1997.

        Council on Foreign Relations (elected 1996).

        Nobel Peace Prize acceptance lecture on behalf of the Pugwash 
        Conferences on Science & World Affairs, 1995.

        Forum Award of the American Physical Society, 1995.

        Volvo Environment Prize, 1993.

        Member of the National Academy of Sciences (elected 1991).

        Fellow of the American Physical Society (elected 1988).

        Fellow of the American Association for the Advancement of 
        Science (elected 1987).

        Fellow of the California Academy of Sciences (elected 1985).

        Fellow of the American Academy of Arts and Sciences (elected 
        1983).

        Kistiakowsky Visiting Scholar for the American Academy of Arts 
        and Sciences, 1983-84.

        MacArthur Foundation Prize Fellowship, 1981-86.

        Federation of American Scientists Public Service Award for 
        1979.

        Gustaysen Memorial Lecturer, University of Chicago, 1978.

        Honorary Sc.D., University of Puget Sound, 1975.

        Distinguished Teaching Award of the University of California, 
        Berkeley, 1975.

        NSF Predoctoral Fellowship, Stanford University, 1967-69.

        NSF Graduate Fellowship, MIT, 1965-66.

        Lockheed Undergraduate Scholarship, MIT, 1961-65.

    16.Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    A complete publication list (395 items) is attached.<SUP>*</SUP>
---------------------------------------------------------------------------
    \*\ This information is retained in the Committee files.
---------------------------------------------------------------------------
    With respect to speeches, I have been giving 20 to 50 speeches per 
year on topics of energy, environment, climate change, nuclear arms 
control and nonproliferation, and science and technology policy since 
the early 1970s. Reconstructing anything even close to a complete list 
would not be possible. In place of that I am attaching (a) a list of 
speeches given in the past few years and (b) two files of URLs where 
PowerPoint, video, or audio from some of the recent speeches can be 
accessed online.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        John P. Holdren, ``Observations on Technology Assessment'', in 
        Technology Assessment, Hearings before the Subcommittee on 
        Science, Research, and Development, House Committee on Science 
        and Astronautics, U.S. Government Printing Office, 1970, pp. 
        604-615.

        John P. Holdren, ``Adequacy of lithium supplies as a fusion 
        energy source'', in Controlled Thermonuclear Research, Hearings 
        before the Subcommittee on Research, Development and Radiation 
        of the Joint Committee on Atomic Energy, Part 2, 10-11 November 
        1971, pp. 656-662.

        John P. Holdren, ``Research on Electric Energy--Who Should Do 
        It?'', Hearings on Amendment 364 to S. 1684, before the 
        Committee on Commerce, U.S. Senate, March 16, 1972, 8 pp.; and 
        Jerome Weingart and John P. Holdren, ``A Summary of the Case 
        for Federal Coordination of Research and Development on 
        Electricity'', Committee on Commerce, U.S. Senate, March 16, 
        1972, 8 pp.

        John P. Holdren, ``Population and Environment--Are We In 
        Trouble'', Hearings of the Subcommittee on Population Growth, 
        House Republican Task Force on Population Growth & Ecology, Apr 
        26, 1972, 18 pp.

        John P. Holdren, ``Observations on the Energy Dilemma'', in 
        Energy Research and Development, Hearings before the 
        Subcommittee on Science, Research and Development, House 
        Committee on Science and Astronautics, U.S. Government Printing 
        Office, 1972, pp. 516-517.

        John P. Holdren, ``Some Observations on Raw Materials and 
        Limits to Growth'', Testimony before the Subcommittee on 
        Science and Technology, Committee on Commerce, U.S. Senate, at 
        Hearings in San Francisco, June 17, 1973, 8 pp. [Also presented 
        in revised form as testimony before the California Assembly 
        Committee on Energy and Diminishing Materials, Los Angeles, 
        December 18, 1974.]

        John P. Holdren, ``Zero-Infinity Dilemmas in Nuclear Power'', 
        in Reactor Safety Study (Rasmussen Report), Oversight Hearing 
        before the Subcommittee on Energy and the Environment, 
        Committee on Interior and Insular Affairs, U.S. House of 
        Representatives, Serial 94-61, Government Printing Office, 
        Washington, D.C., pp. 357-364. (Adapted from an invited lecture 
        at the 1976 Annual Meeting of the American Association for the 
        Advancement of Science, Boston, 21 February 1976, 8 pp.

        John P. Holdren, ``Energy Costs as Potential Limits to 
        Growth'', in Middle- and Long-Term Energy Policies and 
        Alternatives, Supplemental Hearing with Appendix, Subcommittee 
        on Energy and Power of the Committee on Interstate and Foreign 
        Commerce, U.S. House of Representatives, December 16, 1976, 
        Serial 94-157, Government Printing Office; Washington, D.C., 
        pp. 203-214.)

        John P. Holdren, ``Energy and Global Change'', Testimony before 
        the Committee on Science, Technology, and Space of the U.S. 
        House of Representatives, Washington, DC, 17 July 1991, 7 pp.

        John P. Holdren, ``Some Observations on the Energy Future'', 
        Testimony before the Subcommittee on Energy, Committee on 
        Science, Space, and Technology, U.S. House of Representatives, 
        21 April 1994, 8 pp.

        John P. Holdren, ``The Threat from Surplus Nuclear-Bomb 
        Materials'', Invited testimony before the Subcommittee on 
        Europe, Senate Foreign Relations Committee, and the Permanent 
        Subcommittee on Investigations, Senate Committee on 
        Governmental Affairs, U.S. Congress, 23 August 1995, 6 pp.

        John P. Holdren, ``U.S. Vulnerability to Oil-Price Shocks and 
        Supply Constrictions . . . And How To Reduce It'', Invited 
        Testimony at Oversight Hearings before the Senate Committee on 
        Governmental Affairs on Recent Oil-Price Increases, 24 March 
        2000.

        John P. Holdren, ``Improving U.S. Energy Security And Reducing 
        Greenhouse-gas Emissions: What Role For Nuclear Energy?'', 
        Invited Testimony for the Subcommittee on Energy and 
        Environment, Committee on Science, U.S. House of 
        Representatives, 25 July 2000.

        John P. Holdren, ``Energy Efficiency and Renewable Energy in 
        the U.S. Energy Future'', Invited Testimony before for the 
        Committee on Science U.S. House of Representatives on ``The 
        Nation's Energy Future: Role of Renewable Energy And Energy 
        Efficiency'', 28 February 2001.

        John P. Holdren, ``Federal Energy R&D for the Challenges of the 
        21st Century: The 1997 PCAST Report and Its Relevance to S. 
        597'', Invited Testimony before the Committee on Energy and 
        Natural Resources, U.S. Senate, 18 July 2001.

        John P. Holdren, ``Some Comments On S. 1008: Amendments To The 
        Energy Policy Act of 1992 to Develop the United States Climate 
        Change Response Strategy'', John P. Holdren, Statement for the 
        Record, Hearings before the Senate Committee on Governmental 
        Affairs, 18 July 2001:

        John P. Holdren, ``Beyond the Moscow Treaty'', invited 
        testimony for the Committee on Foreign Relations, U.S. Senate, 
        12 September 2002, 12 pp.

        John P. Holdren, ``Expanding Coal Use While Protecting the 
        Climate'', Statement for Panel I of the Clean Coal Conference, 
        Senate Committee on Energy and Natural Resources, 10 March 
        2005.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    The Office of Science and Technology Policy (OSTP) in the Executive 
Office of the President has the responsibility to provide independent 
advice to the President and Vice President on the science and 
technology (S&T) aspects of all of the policy issues with which they 
are concerned, including national and homeland security, energy, 
environment, health, transportation, information infrastructure, 
agriculture, and the roles of science and technology in the economy, as 
well as issues of the S&T workforce and S&T education and training. 
OSTP also provides input, in coordination with the Office of Management 
and Budget, on the S&T content of the President's annual budget request 
to the Congress and carries out a variety of other functions relating 
to the two-way communications about S&T matters between the Executive 
Office of the President and the Congress; among the relevant Executive 
Branch departments, agencies, and offices; and among S&T offices and 
ministries around the world.
    Assets I would bring to the role of OSTP Director in leading these 
diverse and complex efforts include:

  <bullet> unusually broad interdisciplinary training and experience 
        across multiple scientific and engineering fields and 
        substantive focuses (aerospace engineering, space science, 
        plasma physics, nuclear weapons, energy technology, climate-
        change science, technology assessment), plus extensive working 
        collaborations with biologists, economists, and political 
        scientists on the interactions of physical, biological, and 
        socioeconomic dimensions of national and global challenges;

  <bullet> substantial experience working in and with many of the 
        relevant sectors (universities, national laboratories, 
        corporations, foundations and other NGO's, state and national 
        government, and a wide variety of international S&T agencies 
        and organizations);

  <bullet> close interactions on S&T issues with Members of Congress on 
        both sides of the aisle (dating back to my first Congressional 
        testimony before the Honorable George Brown, long-time Chair of 
        the House Committee of Science, in 1970) and extending to work 
        with Senators Nunn, Lugar, and Domenici in the 1990s and 2000s 
        on nuclear threat reduction in Russia and with Senators 
        Domenici and Bingaman over the past few years on national 
        energy legislation;

  <bullet> extensive experience in advising Executive Branch 
        departments and agencies on S&T matters through, e.g., my 
        membership on and chairmanship of many National Academies 
        committees over the years (advising the State Department, 
        Defense Department, Energy Department, and National Nuclear 
        Security Administration, among others), my service on the first 
        Energy Research Advisory Board to the Secretary of Energy 
        (1978-1979) and on subsequent advisory committees to the DOE on 
        fusion energy through 1994;

  <bullet> my experience on President Clinton's Committee of Advisors 
        on Science and Technology, lodged administratively in OSTP, 
        from its inception in 1994 until the transition of 2001 (during 
        which time I led PCAST studies requested by the President on 
        protecting nuclear-weapon materials against terrorists and 
        proliferators, the U.S. fusion energy research program, U.S. 
        Federal energy R&D for the challenges of the 21st century, and 
        the Federal role in international cooperation on energy-
        technology innovation, as well as serving as U.S. co-chair of a 
        bilateral U.S.-Russian commission on plutonium management 
        reporting to Presidents Clinton and Yeltsin);

  <bullet> my experience building bipartisan consensus on energy and 
        climate-change issues through my co-chairmanship of the 
        National Commission on Energy Policy; and

  <bullet> long and systematic study of the S&T advisory apparatus of 
        the Federal Government, beginning with participation in the 
        hearings and deliberations that led to establishment of the 
        Congressional Office of Technology Assessment in 1972 and 
        including teaching and research leadership on Federal science 
        and technology policy in my role as Director and Faculty Chair 
        of the program on Science, Technology, and Public Policy at 
        Harvard's Kennedy School of Government from 1996.

    In the last connection, I want to add that I've had the great 
privilege of being mentored by and/or working closely with five 
previous Presidential science advisors--George Kistiakowsky 
(Eisenhower), Jerome Wiesner (Kennedy, Johnson), Frank Press (Carter), 
Jack Gibbons (Clinton I), and Neal Lane (Clinton II). I worked very 
closely with both Dr. Gibbons and Dr. Lane, and with all of their OSTP 
Associate Directors, during the two Clinton terms. And I am well 
acquainted with the current OSTP Director, Honorable John H. Marburger, 
having spent time with him discussing science and technology policy 
issues before and during his term.
    I want to serve in this position because I believe our country 
faces both immense challenges and immense opportunities across a range 
of important issues where the wise use of insights from science and 
applications of technology are going to be crucial in determining the 
outcomes, and because I believe the OSTP Director can potentially play 
an important role in helping the administration and the Congress get 
the outcomes we need.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Proper management and accounting controls are essential in any 
governmental organization, as well as in any corporation or nonprofit. 
The fact that OSTP is a relatively small operation, with about 65 staff 
and an annual budget of about $6 million, does not alter that reality 
in any way. And, of course, the Director has the primary responsibility 
for ensuring that proper management and accounting controls are in 
place and for overseeing their implementation.
    I currently manage an operation of similar size (50 staff, annual 
budget of about $8.5 million) in my role as President and Director of 
the Woods Hole Research Center (since June 2005 and member of the Board 
since 1994). The Center's books are subject to the professional annual 
audits required of any such organization, as well as to annual audits 
by the Federal Government because of the grants and contracts we hold 
from Federal agencies. Those audits have been spotless during my 
tenure, as they were during the tenure of my predecessor. (I am only 
the second Director the Center has had since its founding in 1985.)
    I have also managed similar sized academic operations at both 
Harvard and the University of California, Berkeley: As a Trustee of the 
MacArthur Foundation for 14 years, long-time member of the Budget 
Committee of that Board, and Chair of its Institutional Policy 
Committee in 2002-5, I have had shared responsibility for overseeing 
the finances and management of a much larger organization.
    20.What do you believe to be the top three challenges facing the 
department/agency, and why?

        1. In a way, the biggest challenging facing OSTP is and always 
        has been how to meet its very diverse and substantial 
        responsibilities with the small staff and budget at its 
        disposal. This challenge translates into the need to recruit 
        extremely talented, organized, and dedicated staff members--
        starting with the Associate Directors but extending right down 
        through the administrative staff--who will be both ingenious 
        and hard-working in order to get it all done.

        2. Another (and related) top challenge is to develop the needed 
        working relationships--with the President and Vice President, 
        with the OMB and NSC and NEC, with the other S&T-rich Executive 
        Branch departments and agencies, and with the Congress--without 
        which there is no hope of OSTP doing the job that is needed 
        from it. Meeting this challenge is a matter of investing the 
        effort to create and nurture those relationships (an effort 
        that must start with but cannot be limited to the OSTP 
        Director), which means a lot of listening, not just talking.

        3. The challenges of process that I mentioned first are large, 
        but not larger than the challenges of substance faced by OSTP 
        in formulating advice--augmenting that of the other relevant 
        departments, agencies and offices and recognizing the 
        prerogatives of the Congress--about S&T and the economy, S&T 
        and national and homeland security, S&T for national and global 
        public health, the role of S&T in addressing the energy/
        climate-change/oil-dependence challenge, and more. Distilling 
        all this down to one challenge (as required by the question's 
        request for a total of only three) motivates me to put it as 
        follows. Our society's well-being rests equally on three 
        pillars: economic conditions and processes (jobs, income, 
        wealth, trade . . .), socio-political conditions and processes 
        (national and homeland security, personal safety, justice, 
        equity, access to and quality of health care and education . . 
        .), and environmental conditions and processes (clean air and 
        water, functioning nutrient cycles, a stable and favorable 
        climate . . .). All three pillars are essential, just as a 
        three-legged stool collapses if any single leg fails. The 
        challenge facing OSTP and all other organs of government that 
        deal with science and technology is to help figure out how 
        government, business, academia, and foundations and other NGO's 
        can more effectively collaborate in developing and applying 
        science and technology in ways that strengthen all three legs 
        simultaneously.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I receive a circa 50%-time salary from Harvard University in 
connection with my professorship in the John F. Kennedy School of 
government.
    I receive a circa 50%-time salary from the Woods Hole Research 
Center in connection with my position as President and Director there.
    This balance shifts to approximately 70%-30% in favor of the Woods 
Hole Research Center in the summer and semesters when I am carrying a 
reduced teaching load.
    I am vested in the retirement plans at both Harvard and the Woods 
Hole Research Center. I am also vested in the retirement plan at the 
University of California, Berkeley, where I was on the faculty from 
1993 to 1996, and in the TIAA-CREF retirement program in connection 
with earlier service at the Lawrence Livermore Laboratory and the 
California Institute of Technology.
    I have no deferred compensation arrangements with any of the 
institutions where I have been employed, and I have no other continuing 
business or financial dealings of any kind.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    If confirmed by the U.S. Senate, I will take a public-service leave 
of absence from Harvard University, effective immediately upon 
confirmation. There is no expectation on Harvard's part or mine that I 
would be carrying on any activity or practice at or for Harvard during 
the period of my service with the government.
    If confirmed by the Senate, I will resign my position at the Woods 
Hole Research Center, effective immediately upon confirmation. There is 
no expectation on the Center's part or mine that I would carry on any 
activity or practice at or for the Woods Hole Research after 
confirmation to my government position.
    I would also resign, effectively immediately upon confirmation, 
from all boards and other advisory positions in which I currently 
serve, and I would undertake no other commitments of this type during 
the period of my service in government.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Executive Office of the 
President's designated agency ethics official to identify potential 
conflicts of interest. Any potential conflicts of interest will be 
resolved in accordance with the terms of an ethics agreement that I 
have entered into with the EOP's designated agency ethics official.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    In 1999, in my capacity as a member of President Clinton's 
Committee of Advisors on Science and Technology, I chaired a PCAST 
study, at the President's request, of the Federal role in international 
cooperation on energy-technology innovation. The President's intent was 
for this study's arguments and recommendations to influence the 
relevant portions of his FY2001 budget request to the Congress, and it 
was also his stated hope that these arguments and recommendations would 
influence the Congress to approve the relevant items in his request. At 
his direction, following completion of the report, I met with relevant 
agency heads and then with some of the Members of Congress most 
concerned with these matters to explain the recommendations.
    From 2000 to 2002, I served as the Chair of a National Academy of 
Sciences Committee conducting a study originally requested from the 
Academy by President Clinton on the topic of technical issues relating 
to ratification of the Comprehensive Nuclear Test Ban Treaty. This 
followed the Senate's vote in 1999 not to consent to ratification of 
the indicated treaty. The President's stated intent in requesting the 
study, which was ultimately delivered to the Bush administration and to 
the Senate Foreign Relations Committee in 2002, was to assemble 
authoritative information and analysis on the main technical issues 
that had been advanced in the Senate debate as question marks about the 
wisdom of ratifying the treaty. The intent was clearly to contribute to 
the knowledge base for a yea or nay vote on ratification of the treaty 
if and when it was re-submitted to the Senate.
    From 1996 to the present I have been one of the principal 
investigators of a project in the Belfer Center for Science and 
International Affairs at the Kennedy School of Government called 
``Managing the Atom'' and focusing, in part, on the adequacy of the 
programs of the U.S. Government and other governments to keep nuclear 
weapons and nuclearweapon-useable materials out of the hands of 
terrorists and proliferant states. Reports over the years from this 
project, which has been supported mainly by the Nuclear Threat 
Initiative (Co-Chaired by Senator Sam Nunn and Ted Turner and led by 
former Undersecretary of Energy Charles Curtis), have made 
recommendations on opportunities, priorities, and budgets for the U.S. 
government's efforts in this domain. These recommendations, some 
authored and all approved by me, were intended to influence budget 
requests and appropriations and were regularly briefed to relevant 
Executive Branch officials and Members of Congress to try to achieve 
this.
    From 2002 to the present, I have served as one of three Co-Chairs 
of the independent, foundation-funded, bipartisan National Commission 
on Energy Policy, which consists of prominent experts on energy 
technology, policy, and regulation from academia, business, labor, and 
NGO's, as well as individuals with high-level state and Federal 
Government experience in the energy domain, and which is devoted to 
developing consensus recommendations on U.S. energy policy that might 
command bipartisan support in the U.S. Congress. Our December 2004 and 
April 2007 recommendations (all unanimous) have been briefed to 
Executive Branch officials and relevant Members of Congress in the hope 
of constructively influencing U.S. energy policy.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Office of Science and 
Technology Policy's designated agency ethics official to identify 
potential conflicts of interest. Any potential conflicts of interest 
will be resolved in accordance with the terms of an ethics agreement 
that I have entered into with the Office of Science and Technology 
Policy's designated agency ethics official.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: I believe that my answers to this 
questionnaire have disclosed everything of relevance.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                       resume of john p. holdren
Employment

    Woods Hole Research Center

        President and Director (6/05-)

    Harvard University

        John F. Kennedy School of Government:

                Teresa and John Heinz Professor of Environmental Policy 
                and Director, Program in Science, Technology, and 
                Public Policy, Belfer Center for Science and 
                International Affairs (7/96-).

        Faculty of Arts and Sciences, Department of Earth and Planetary 
        Sciences:

                Professor of Environmental Science and Public Policy 
                (7/96-).

        Faculty of Arts and Sciences, Environmental Science and Public 
        Policy Major:

                Member of the Board of Tutors (9/96-9/07).

    University of California, Berkeley

        Professor of Energy and Resources Emeritus (7/96-).

        Class of 1935 Professor of Energy (8/91-6/96).

        Professor of Energy and Resources (7/78-6/96).

                Chair of Graduate Advisors, Energy and Resources Group 
                (1988-96).

                Vice Chair, Energy and Resources Group (1983-96, on 
                leave 1987-88).

                Acting Chair, Energy and Resources Group (1982-83, Fall 
                1990).

        Associate Professor of Energy and Resources (7/75-6/78).

        Assistant Professor of Energy and Resources (7/73-6/75).

    California Institute of Technology

        Senior Research Fellow, Division of Humanities & Social 
        Sciences and Environmental Quality Laboratory (1/72-9/73).

    Lawrence Livermore National Laboratory

        Physicist, Theory Group, Magnetic Fusion Energy Division (7/70-
        6/73, on leave 1/72-6/73).

    Stanford University

        Research Assistant, Institute for Plasma Research (7/69-6/70).

    Lockheed Missiles and Space Company, Sunnyvale, California

        Consultant in Re-Entry Physics (9/66-6/67).

        Associate Engineer, Senior, Re-Entry Aerodynamics (Summer 
        1966).

        Associate Engineer, Performance Analysis (Summer 1965).
Recent Concurrent and Visiting Appointments

        Tsinghua University: Guest Professor (3/08-).

        Woods Hole Research Center: Woods Hole, Massachusetts: Visiting 
        Scholar (1/92-7/92, 5/93-5/94); Distinguished Visiting 
        Scientist (5/94-), Vice Chair of the Board of Trustees (5/94-).

        Lawrence Livermore National Laboratory: Faculty Consultant, 
        Magnetic Fusion Energy (subsequently Energy) Division (11/73-); 
        Visiting Physicist, Theory Group, Magnetic Fusion Energy 
        Division (Fall 1986); Faculty Consultant, Laser & Environmental 
        Directorate (7/94-).
Education
    Ph.D. (6/70), Stanford University, Department of Aeronautics & 
Astronautics and Institute for Plasma Research (Dissertation: 
``Collisionless Stability of an Inhomogeneous, Confined, Planar 
Plasma'').

    S.M. (6/66), Massachusetts Institute of Technology, Department of 
Aeronautics and Astronautics (Dissertation: ``Landau Damping of Plasma 
Oscillations in a Uniform External Magnetic Field'').

    S.B. (6/65), Massachusetts Institute of Technology, Department of 
Aeronautics and Astronautics.
Publications
Co-authored books and book-length reports (inverse chronological order)

        Confronting Climate Change: Avoiding the Unmanageable and 
        Managing the Unavoidable, Scientific Expert Group on Climate 
        Change & Sustainable Development (Coordinating Lead Authors R 
        Bierbaum, J Holdren, M MacCracken, R Moss, & P Raven), Report 
        to the U.N. Commission on Sustainable Development, United 
        Nations Foundation and Sigma Xi, February 2007, 144 pp.

        Monitoring Nuclear Weapons and Nuclear-Explosive Materials: An 
        Assessment of Methods and Capabilities, Committee on 
        International Security and Arms Control (John P. Holdren, 
        Committee Chair, William F. Burns, Study Co-Chair, Steven 
        Fetter, Study Co-Chair, Spurgeon M. Keeny, Study Editor-in-
        Chief, and 12 others), National Academy of Sciences (National 
        Academy Press, Washington, DC), April 2005, 264 pp.

        Ending the Energy Stalemate: A Bipartisan Strategy to Meet 
        America's Energy Challenges, National Commission on Energy 
        Policy (John P. Holdren, Co-Chair, William K. Reilly, Co-Chair, 
        John W. Rowe, Co-Chair, Philip R. Sharp, Congressional Chair, 
        Jason Grumet, Executive Director, and 12 others (NCEP, 
        Washington DC), December 2004, 128 pp.

        Controlling Nuclear Warheads and Materials: A Report Card and 
        Action Plan, Matthew Bunn, Anthony Wier, and John P. Holdren, 
        Project on Managing the Atom, Belfer Center for Science and 
        International Affairs, Kennedy School of Government, Harvard 
        University, for the Nuclear Threat Initiative (NTI, Washington, 
        DC), March 2003, 231 pp.

        Technical Issues Related to the Comprehensive Test Ban Treaty, 
        Committee on Technical Issues Related to Ratification of the 
        Comprehensive Test Ban Treaty (John P. Holdren, Chair, and 10 
        others), National Academy of Sciences (National Academy Press, 
        Washington, DC), June 2002, 84 pp.

        Securing Nuclear Weapons and Materials: Seven Steps for 
        Immediate Action, Matthew Bunn, John P. Holdren, and Anthony 
        Wier, Project on Managing the Atom, Belfer Center for Science 
        and International Affairs, Kennedy School of Government, 
        Harvard University, and the Nuclear Threat Initiative, May 
        2002, 78 pp.

        Interim Storage of Spent Nuclear Fuel, Matthew Bunn, John P. 
        Holdren, Allison Macfarlane, Susan E. Pickett, Atsuyuki Suzuki, 
        Tatsujiro Suzuki, and Jennifer Weeks, Harvard University 
        Project on Managing the Atom and University of Tokyo Project on 
        Sociotechnics of Nuclear Energy, June 2001, 124 pp.

        Powerful Partnerships: The Federal Role in International 
        Cooperation on Energy Innovation, Panel on International 
        Cooperation in Energy Research, Development, Demonstration, and 
        Deployment (John P. Holdren, Chair, Samuel F. Baldwin, Study 
        Executive Director, and 13 others), President's Committee of 
        Advisors on Science and Technology (Executive Office of the 
        President of the United States, Washington, DC), 1999, circa 
        300 pp.

        Federal Energy Research and Development for the Challenges of 
        the Twenty-First Century, Energy Research and Development Panel 
        (John P. Holdren, Chair, Samuel F. Baldwin, Study Executive 
        Director, and 20 others), President's Committee of Advisors on 
        Science and Technology (Executive Office of the President of 
        the United States, Washington, DC), 1997, circa 250 pp.

        The Future of U.S. Nuclear Weapons Policy, Committee on 
        International Security and Arms Control (John P. Holdren, 
        Chair, William F. Burns, Study Chair, Jo L. Husbands, Staff 
        Director, and 14 others), National Academy of Sciences 
        (National Academy Press, Washington, DC), 1997, 100 pp.

        Reactor-Related Options for the Disposition of Excess Weapons 
        Plutonium, Panel on Reactor-Related Options (John P. Holdren, 
        Chair, Matthew Bunn, Study Executive Director, and 6 others), 
        Committee on International Security and Arms Control, National 
        Academy of Sciences (National Academy Press, Washington, DC), 
        1995, 418 pp.

        Management and Disposition of Excess Weapons Plutonium, 
        Committee on International Security and Arms Control (John P. 
        Holdren, Chair, Wolfgang K.H. Panofsky, Study Chair, Matthew 
        Bunn, Study Executive Director, and 17 others), National 
        Academy of Sciences (National Academy Press, Washington, DC), 
        1994, 275 pp.

        Report of the Senior Advisory Committee to the Department of 
        Energy on Environmental, Safety, and Economic Aspects of 
        Magnetic Fusion Energy, John P. Holdren, Chair, and 9 others, 
        Lawrence Livermore National Laboratory UCRL-53766 (National 
        Technical Information Service, Springfield, VA), 1989, 345 pp.

        Energy in Transition 1985-2010, Committee on Nuclear and 
        Alternative Energy Systems (Harvey Brooks and Edward Ginzton, 
        Co-Chairs, and 14 others), National Research Council (W.H. 
        Freeman, San Francisco), 1980, 677.pp.

        Ecoscience: Population, Resources, Environment, Paul R. 
        Ehrlich, Anne H. Ehrlich, and John P. Holdren (W.H. Freeman, 
        San Francisco), 1977, 1051 pp.

        Fusion and Fast Breeder Reactors, W. Haefele, J. Holdren, G. 
        Kessler, and G. Kulcinski, with contributions by A. 
        Belostotsky, R. Grigoriants, D. Kurbatov, G. Shatalov, M. 
        Styrikovich, and N. Vasiliev (International Institute for 
        Applied Systems Analysis, Vienna, 1977), 506 pp.

        Human Ecology: Problems and Solutions, Paul R. Ehrlich, Anne H. 
        Ehrlich, and John P. Holdren (W.H. Freeman, San Francisco), 
        1973, 304 pp. German edition: Humanokologie (Springer Verlag, 
        Berlin/Heidelberg), 1975, 234 pp.

        Energy: A Crisis in Power, John Holdren and Phil Herrera
    [separately authored halves of the book] (Sierra Club Books, New 
York), .1971, 252 pp. Japanese edition, Blue Backs, Tokyo, 1977.
Books co-edited

        Conversion of Military R&D Judith Reppy, Vsevolod Avduyevsky, 
        John Holdren, and Joseph Rotblat, eds. (MacMillan) 1998, 296 
        pp; Building Global Security Through Cooperation, J. Rotblat 
        and J. P. Holdren, eds. (Springer-Verlag), 1990, 301 pp; The 
        Cassandra Conference: Resources and the Human Predicament, P. 
        R. Ehrlich and J. P. Holdren, eds. (Texas A&M University 
        Press), 1988, 330 pp; Strategic Defences and the Future of the 
        Arms Race, John P. Holdren and Joseph Rotblat, eds. 
        (MacMillan), 1987, 286 pp; Earth and the Human Future, Kirk R. 
        Smith, Fereidun Fesharaki, & John P. Holdren, eds. (Westview), 
        1986, 258 pp; Population: Perspective 1973, Harrison Brown, 
        John Holdren, Alan Sweezy, and Barbara West, eds. (Freeman-
        Cooper), 1974, 284 pp; Man and the Ecosphere, Paul R. Ehrlich, 
        John P. Holdren, and Richard W. Holm, eds. (W.H. Freeman), 
        1971, 307 pp; Global Ecology, John P. Holdren & Paul R. 
        Ehrlich, eds. (Harcourt), 1971, 292 pp;
Other publications (full listing provided separately)

        Some 350 other professional and popular publications on plasma 
        physics, energy technology and policy, population-resource-
        environment interactions, global environmental change, and 
        international security and arms control, including 27 chapters 
        in books edited by others; 51 articles in refereed journals 
        (e.g., Science, Plasma Physics, Fusion Technology, Nuclear 
        Technology, Energy, Annual Review of Energy and the 
        Environment, Bulletin of Atomic Scientists, Environment, Energy 
        Policy); 50 research reports; 30 magazine articles (in, e.g., 
        Saturday Review, Scientific American, Technology Review, Issues 
        in Science and Technology); and 23 pieces of Congressional 
        testimony.
Honors (inverse chronological order)

        John H. Chafee Memorial Lecture, National Council for Science 
        and the Environment, 2008.

        Robert Fletcher Award of the Thayer School of Engineering, 
        Dartmouth College, 2007.

        President, American Association for the Advancement of Science, 
        2006-7.

        Jerome Wiesner Lecture, University of Michigan, 2002.

        Honorary Sc.D., Clark University, 2002.

        Joseph Rotblat Lecturer, Annual Student Pugwash Conference, 
        2002.

        National Associate of the U.S. National Academies (award ``for 
        exceptional service''), 2001.

        John Heinz Prize in Public Policy, 2001.

        Member of the National Academy of Engineering (elected 2000).

        Tyler Prize for Environmental Achievement, 2000.

        Sidney Drell Lecturer, Stanford University, 2000.

        Kaul Foundation Award for Excellence in Science and 
        Environmental Policy, 1999.

        Fusion Leadership Award for 1998, Fusion Power Associates, 
        Washington, D.C.

        Honorary D.Eng., Colorado School of Mines, 1997.

        Council on Foreign Relations (elected 1996).

        Nobel Peace Prize acceptance lecture for the Pugwash 
        Conferences on Science & World Affairs, 1995.

        Forum Award of the American Physical Society, 1995.

        Volvo Environment Prize, 1993.

        Member of the National Academy of Sciences (elected 1991).

        Fellow of the American Physical Society (elected 1988).

        Fellow of the American Association for the Advancement of 
        Science (elected 1987).

        Fellow of the California Academy of Sciences (elected 1985).

        Fellow of the American Academy of Arts and Sciences (elected 
        1983).

        Kistiakowsky Visiting Scholar for the American Academy of Arts 
        and Sciences, 1983-84.

        MacArthur Foundation Prize Fellowship, 1981-86.

        Federation of American Scientists Public Service Award for 
        1979.

        Gustavsen Memorial Lecturer, University of Chicago, 1978.

        Honorary Sc.D., University of Puget Sound, 1975.

        Distinguished Teaching Award of the University of California, 
        Berkeley, 1975.
Committees and Boards

    UN Foundation/Sigma Xi Scientific Expert Group on Climate Change 
and Sustainable Development (reporting to the U.N. Secretary-General 
and Commission on Sustainable Development, Coordinating Lead Author, 
2004-2007).

    National Commission on Energy Policy (an independent, bi-partisan, 
multi-sectoral group providing advice to the Congress and the 
Administration, Co-Chair, 2002-).

    President's Committee of Advisors on Science and Technology, 
Executive Office of the President of the United States (1994-2001).

        Chair, Panel on Nuclear Materials Protection, Control, and 
        Accounting, 1994-95.

        Chair, Panel on Research on Magnetic Fusion Energy, 1995.

        U.S. Chair, U.S.-Russian Scientific Commission on the 
        Disposition of Surplus Plutonium, 1996-98.

        Chair, Panel on U.S. Federal Energy R&D for the Challenges of 
        the 21st Century, 1997.

        Chair, Panel on International Cooperation in Energy Research, 
        Development, Demonstration, and Deployment, 1998-99).

    National Academy of Sciences/National Academy of Engineering

        Roundtable on Scientific Communication and National Security, 
        The National Academies (Member, 2003-2006).

        Joint Working Group of the U.S. National Academies and the 
        Russian Academy of Sciences on U.S.-Russian Cooperation on 
        Nuclear Non-Proliferation (U.S. Chair, 2002-2005).

        Committee on Technical Issues Related to Ratification of the 
        Comprehensive Test-Ban Treaty (Chair, 2000-2002).

        Committee on U.S.-India Cooperation on Energy (Chair 1999-
        2004).

        Committee on Balancing Scientific Openness and National 
        Security Controls at the National Weapons Laboratories (Member, 
        1998-1999).

        Committee on U.S.-China Cooperation on Energy (Ex-Officio 
        Member, 1998-2000).

        Advisory Board, ISSUES IN SCIENCE AND TECHNOLOGY (1996-).

        Committee on International Security and Arms Control (1992-; 
        Chair 1993-; Chair of the Panel on Reactor-Related Options for 
        Disposition of Weapon Plutonium, 1992-95; U.S. Co-Chair of the 
        Working Group of U.S.-China Cooperation on Energy and 
        Security,1995-97; Chair of the Panel to Review the Spent-Fuel 
        Standard for Disposition of Excess Weapons Plutonium, 1999-).

        Panel on Human Impacts on Ecosystems (Chair), Board on Biology 
        and Commission on Behaviorial and Social Sciences and Education 
        (1991).

        Committee on Nuclear & Alternative Energy Systems (1975-9).

        Committee to Survey the Literature of Nuclear Risks (1975-9).

        International Environmental Programs Committee (1970-5).

        Panel on Environment & Growth, Committee on Research Applied to 
        National Needs (1973).

    American Association for the Advancement of Science

        Advisory Committee on International Science, 2004-6.

        Board of Directors of the AAAS, 2005-8.

        President-Elect of the AAAS, 2005-6.

        President of the AAAS, 2006-7.

        Chairman of the Board, 2007-8.

    American Academy of Arts and Sciences

        Committee on International Security Studies (1982-99, Vice 
        Chair 1983-99).

        U.S. Pugwash Committee (Chair 1983-91, Co-Chair 1992-95).

    U.S. Department of Energy Committees

        Fusion Energy Advisory Committee (1991-4).

        U.S. National Review Committee for the International 
        Thermonuclear Engineering Reactor Conceptual Design Activity 
        (1991).

        Senior Committee on Environmental, Safety, and Economic Aspects 
        of Magnetic Fusion Energy (Chair 1985-89).

        Energy Research Advisory Board (1978-9).

    Pugwash Conferences on Science and World Affairs

        Member of the International Council (1982-97).

        Member of the Executive Committee of the Council (1982-97, 
        Chair 1987-97).

    MacArthur Foundation

        Member of the Board of Directors (1991-2005; Chair of the Board 
        Committee for the Program on Peace and International 
        Cooperation, 1994-96; Budget Committee, 2000-2005; Chair of the 
        Committee on Institutional Policy, 2002-2005).

        Advisory Panel to the International Security Program (1984-8).

    Federation of American Scientists (Council Member, 1974-78, 1979-
86; Treasurer, 1979-80; Vice Chairman, 1980-84; Chairman, 1984-86).
Editorial Boards

        Innovations: Technology, Governance, Globalization (2005-), 
        Issues in Science and Technology (2000-), International Journal 
        of Global Energy Issues (1989-); Science and Global Security 
        (1987-); Environmental Conservation (1984-2000); Bulletin of 
        the Atomic Scientists (1984-86, Advisory Council 1979-81); Soft 
        Energy Notes (1979-82); Resources and Energy (1978-90); Annual 
        Review of Energy (1975-82).
Other

        Executive Committee, Fusion Division, American Nuclear Society 
        (1987-1991); Advisory Council, Aldo Leopold Leadership Program 
        (1995-2001); Jury for the 2000 Blasker Energy Prize; U.S.-China 
        Advisory Council for Sustainable Development (2000-), 
        International Climate Change Task Force (2004-5), Board of 
        Directors, U.S. Civilian Research and Development Foundation 
        (2001-), Board of Councilors, Chiina-U.S. Center for 
        Sustainable Development (2002-), Board of Directors, Climate 
        Central (2008-).
Harvard Teaching (FAS = Faculty of Arts and Sciences, KSG = Kennedy 
        School of Government)

        Junior Seminar in Environmental Science and Public Policy (FAS 
        1997, 99, 01, 03); Energy Systems (KSG 1996, 97, 98, 99, 00, 
        01, 03, 05, 06, 07, 08); Interdisciplinary Science and 
        Technology Assessments for Policy (KSG 1997, 98, 99, 00, 01, 
        02, 04, 05); Introduction to Environmental and Resource Science 
        for Policy (KSG 00, 01, 03, 04, 05, 06, 08); Introduction to 
        Science and Technology Policy (KSG 97, 01, 03, 04, 05, 06).
UC Berkeley Teaching

        Energy and Society (1973-95); Critical Issues in Energy 
        Technology (1973-1978); Quantitative Aspects of Global 
        Environmental Problems (1973-2006); Professional Methods for 
        Interdisciplinary Careers (19802004); graduate seminars on 
        diverse topics (1976-2006).
Personal

        Born 1 March 1944, Sewickley, Pennsylvania; married Cheryl Lea 
        Edgar (now Dr. Cheryl E. Holdren) February 1966; children John 
        Craig (b. 1966) and Jill Virginia (b. 1968); grandchildren 
        Alexis Ukiah Han Holdren (b. 1991), Laurel Makaira Holdren (b. 
        2000), Tor Ilan Holdren Hoick (b. 2001), Kalea Tazlena Hoick 
        Holdren (b. 2005), step-grandchild Maya Banks (b. 1992).

    The Chairman. Thank you. We decided that we would actually 
have both witnesses give testimony back to back, and then that 
would encourage us to cross-question them and have all kinds of 
fun.
    To introduce Dr. Lubchenco is Senator Ron Wyden, who is 
from the State of Oregon. So please proceed.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Mr. Chairman, thank you very much. As an 
alum of this Committee, I know how much you value good science. 
I have worked with many of you over the years in this very 
committee room, spent a number of years I think on the perch 
right next to Senator Nelson. So we appreciate the good work 
that you all do to promote particularly sensible science and 
scientific integrity.
    And Dr. Jane Lubchenco's career has essentially been built 
around those kinds of principles. She is a star on our faculty 
at Oregon State University. But when you look at her 
extraordinary track record, I think it is fair to say she is 
the bionic woman of good science.
    [Laughter.]
    Senator Wyden. She has managed to do just about everything, 
winning respect in every quarter.
    For example, she has already served as scientific advisor 
to two different administrations. She served President Clinton, 
for example, for two terms on the National Science Board, and 
she was part of the National Academy of Sciences in a climate 
change report to President George Herbert Walker Bush. So I 
think all of us who have toiled on this climate change issue 
understand it is not exactly for the faint-hearted. You are 
going to have to be bipartisan, and Dr. Lubchenco has already 
shown with her previous service and the respect she won in two 
different administrations that she is a very up to that.
    At Oregon State, Dr. Lubchenco has had the opportunity to 
confront many of the issues that NOAA is going to face on a 
daily basis. She studied marine ecosystems around the globe. 
She has worked to bring her conclusions home, again advising 
policymakers of both political parties.
    She was a recipient of the 2002 Heinz Award for the 
environment. I note Senator Kerry's long history on these 
issues. And here is what the Heinz Award said in recognizing 
her. ``She has shown that while science should be excellent, 
pure, and dispassionate, scientists should not sacrifice a 
right and must not ignore the responsibility to communicate 
their knowledge about how the earth is changing or to say what 
they believe will be the likely consequences of different 
policy options.''
    So we have in Dr. Lubchenco somebody who has been driven by 
the effort to dispassionately find the facts. Her scientific 
contributions are recognized worldwide. She has been named one 
of the most highly cited ecologists in the world, and as I 
mentioned, for her great record, she has repeatedly been 
recognized.
    Let me close by saying, Mr. Chairman and colleagues, we so 
value Dr. Lubchenco in Oregon. We would not give her up under 
normal circumstances. She is such a valuable asset and has won 
so much respect from scientists across the philosophical 
spectrum and policymakers that we would not give her up unless 
there were a chance to come to the aid of our country at a 
critical time. Everyone in this room understands that if we are 
going to make enduring changes in climate change, they are 
going to have to be bipartisan. They are going to have to be 
driven by good science and finding the facts. That is what Dr. 
Lubchenco's career has been all about, and it is why I come 
before you today to give her a recommendation this morning and 
look forward to her serving in this critical position.
    Thank you very much, Mr. Chairman and colleagues.
    The Chairman. Thank you, Senator Wyden, very much.
    Dr. Lubchenco, I look forward to your testimony which is 
just redolent with enthusiasm and promise.

        STATEMENT OF DR. JANE LUBCHENCO, UNDERSECRETARY-

        DESIGNATE OF COMMERCE FOR OCEANS AND ATMOSPHERE,

                  U.S. DEPARTMENT OF COMMERCE

    Dr. Lubchenco. Thank you, Mr. Chairman, Senator Hutchison, 
distinguished members of the Committee. It is a deep honor for 
me to be here today.
    Senator Wyden, I greatly appreciate your very kind remarks, 
and I value the time that you took to come here today. I know 
it is a very, very busy day.
    I am here with the love and support of a wonderful family, 
and I wish to thank my 91-year-old mother, a pediatrician, my 
late father, a surgeon and Army captain for enabling their six 
daughters to pursue their dreams while instilling in each of us 
a strong sense of values, family, love, and heritage. I am 
grateful to my sisters too for teaching me the merits of 
compromise and balance. I am very pleased that my husband Bruce 
and my son Duncan are able to be here today, and I am grateful 
to them for their continuing love and encouragement. And my 
thanks to my wonderful staff and colleagues in Oregon and 
around the country for their overwhelming support.
    I first became enamored with the oceans during a college 
class in Woods Hole, Massachusetts. To a Colorado native, life 
in the sea seemed exotic and endlessly fascinating. Little did 
I realize then that life in the oceans is also essential to 
human well-being and prosperity along the coasts, as well as 
inland.
    I have been a professor of marine biology at Oregon State 
University since 1977. I lead a large team of scientists 
studying the marine ecosystems off the coasts of Washington, 
Oregon, and California. We focus on understanding how the 
ecosystem is changing and how society might recover and sustain 
the jobs, recreational opportunities, healthy seafood, and wild 
beauty that all depend upon healthy ocean ecosystems. I have 
spent my entire career focused on connections, the connections 
between land, sea, and air and the connections between people 
and ecosystems.
    I would bring to NOAA a firm belief that science should 
inform, not dictate decisionmaking, a deep respect for multiple 
points of view, a wealth of experience leading complex projects 
and organizations. And I believe that these experiences have 
prepared me well to serve the Nation by leading NOAA.
    NOAA is, indeed, the crown jewel of the Commerce 
Department. It is an indispensable partner with the private 
sector in creating jobs along the coasts and inland. NOAA helps 
protect lives and property in times of natural disaster. It is 
a trusted steward of a bounty of marine and coastal resources, 
and it is the premier Government agency for applied science.
    Working with you and using the best available science as 
our guide, here is what I think we could do. We can add 
hundreds of millions of new dollars to the economy by bringing 
back fisheries, both commercial and recreational. We can 
improve fishing and farming, lower insurance rates, and make 
air travel safer by improving weather forecasting. We can spur 
the creation of new industries, for example, by improving 
climate forecasting to enable better decisions about 
infrastructure, public safety, and consumer needs. And we can 
protect and recover the bays, beaches, rivers, and oceans that 
amaze, inspire, and connect us all.
    My vision for NOAA is strongly colored by the experiences I 
had traveling around the country with the Pew Oceans Commission 
doing public hearings in many coastal communities. The 
consistent theme that we heard from CEOs to fishermen's wives, 
from farmers to coastal residents was the same: an intimate 
connection between people and oceans. 50 percent of Americans 
live on the coast. Most of the rest love to visit clean beaches 
and eat healthy seafood. Indeed, 60 percent of the country's 
GDP comes from coastal communities.
    Now our country must rise to a new challenge, dealing with 
the impacts of a changing climate. I have heard firsthand from 
business leaders and elected officials about the urgent need 
for better information about likely local impacts of climate 
change. From concern about droughts and sea level rise to 
changes in the chemistry of the ocean, there is a real hunger 
for more and better information.
    If confirmed, I will work to create a National Climate 
Service similar to the National Weather Service within NOAA. 
NOAA is the best agency in the Government to synthesize the 
scientific data on climate change and create products and 
services that can be used by the public to guide important 
decisions such as where to build a road or a wind turbine. This 
idea has been studied by the agency, by the National Academy of 
Sciences, and by this committee. It is an idea whose time has 
come, and I would like to make it happen.
    Being the Administrator of NOAA is a big job. Some of the 
challenges I know well: ending overfishing, anticipating the 
consequences of climate change, preparing for natural disasters 
in a time when resources are tight, restoring ecosystems on 
which we depend for food, water, livelihoods and other 
challenges I am just learning. Getting the satellite program 
back on track is chief among them.
    If confirmed, I would work hard with Members of this 
Committee and the Senate and the House in realizing the great 
potential inherent in NOAA. Together, we can provide America 
the best climate change science, restore her oceans' vitality, 
and recharge our economy, putting us on a path to 
sustainability.
    Again, thank you very much for your courtesy, Mr. Chairman 
and members of this committee. I look forward to your 
questions.
    [The prepared statement and biographical information of Dr. 
Lubchenco follows:]

 Prepared Statement of Dr. Jane Lubchenco, Undersecretary-Designate of 
    Commerce for Oceans and Atmosphere, U.S. Department of Commerce
    Mr. Chairman, Senator Hutchison, and distinguished members of the 
Committee, I am honored to appear before you as President Obama's 
nominee for Undersecretary of Commerce for Oceans and Atmosphere and 
Administrator of the National Oceanic and Atmospheric Administration. I 
am grateful for the courtesy shown to me by the Members of this 
Committee with whom I have visited over the past several weeks, and I 
am eager to continue and deepen our dialogue.
    I come before you today with the love and support of a wonderful 
family. I wish to thank my 91-year old mother, a pediatrician, and my 
late father, a surgeon and Army Captain, for encouraging and enabling 
their six daughters to pursue their dreams while instilling in each of 
us a deep sense of values, family, love and heritage. I thank my 
sisters for teaching me the merits of compromise, humility and balance. 
I'm pleased that my husband Bruce and son Duncan are able to be here 
today and I'm grateful to them for their continuing encouragement and 
love. And I wish to thank my staff and colleagues in Oregon and around 
the country for all of their support.
    I was fortunate to grow up in Colorado where I developed a deep 
appreciation for the land--hunting and fishing with my father, hiking 
and camping with family and friends. I also grew to understand the 
pervasive importance of weather, especially from family stories about 
the extended droughts in South Carolina in the late 20's that triggered 
my paternal grandparents' move to Colorado.
    I first became enamored with the oceans during a college class in 
Woods Hole, Massachusetts. To a Colorado native, the life in the sea 
seemed exotic and endlessly fascinating. Little did I realize then that 
life in the oceans is also essential to human prosperity and well-
being--both along the coasts and inland. My exposure to the oceans was 
love at first sight and my life's work was set in motion.
    I am currently a professor of marine biology and zoology at Oregon 
State University, where I have taught since 1977. I lead a large 
interdisciplinary team of scientists studying the large marine 
ecosystem off the coasts of Washington, Oregon and California. We focus 
on understanding how the ecosystem is changing and how society might 
recover and sustain the jobs, recreational opportunities, healthy 
seafood and wild beauty that all depend upon healthy ocean ecosystems. 
Indeed, I have spent my entire career focused on the connections 
between the land, sea and air and between people and the land and 
ocean.
    Throughout my teaching, leadership of large organizations, and 
participation in public service, I have emphasized the important role 
of clear scientific input in decisionmaking. I have stressed my belief 
that science should inform, not dictate, decision-making.
    I have gained a wealth of experience in leading large, complex 
projects and organizations and serving on Boards of Directors for major 
foundations and organizations. These projects, organizations and boards 
include the American Association for the Advance of Science, the 
International Council for Science, the Partnership for 
Interdisciplinary Studies of Coastal Oceans, the National Science 
Board, the David and Lucile Packard Foundation, the Monterey Bay 
Aquarium, the Environmental Defense Fund and Oregon Governor 
Kulongoski's Advisory Group on Global Warming. I believe that these 
experiences have prepared me well to serve the Nation by leading NOAA.
    My students have always been an inspiration. Young minds are adept 
at challenging one's thinking and introducing novel ideas. If I was 
talking with them right now about NOAA, and why I'm so excited to have 
the honor of being nominated to lead the agency, I'd say this.
    NOAA is the crown jewel of the Commerce Department. It is an 
indispensible partner with the private sector in creating jobs and 
growth all along our coasts. It is also the trusted steward of a bounty 
of marine resources that belong to all Americans. It helps to protect 
lives and property in times of natural disaster. And it is the premier 
government agency for applied science.
    I tell my students that science is more than just fascinating 
knowledge, it is also useful knowledge. I believe passionately that 
science should inform our decisions. I can think of no better place to 
use my knowledge and experience than at NOAA. Working with you, and 
using the best available science as our guide, here is what I think we 
can do.

  <bullet> We can add hundreds of millions of new dollars to the 
        economy by bringing back fisheries--both commercial and 
        recreational.

  <bullet> We can improve farming, lower insurance rates, and make air 
        travel safer by improving weather forecasting.

  <bullet> We can spur the creation of new industries. Improved climate 
        forecasting, for example, can serve as the backbone of new 
        enterprises helping businessmen and public servants alike make 
        better decisions about infrastructure, public safety, consumer 
        needs and product research and development.

  <bullet> We can protect and recover bays, beaches, rivers and oceans 
        that amaze, inspire and connect us all.

    My love of oceans, scientific knowledge and ability to find common 
ground among diverse perspectives led to my service on the Pew Oceans 
Commission and the Joint Ocean Commission Initiative. I have spent a 
good deal of time thinking about the future of NOAA and its work. My 
vision for NOAA is strongly colored by the experience of traveling 
around the country doing public hearings with the Commission. We 
listened to people from all walks of life--on the coasts and in the 
heartland. The consistent theme from CEOs to fishermen's wives, from 
farmers to coastal residents was the same: There is an intimate 
connection between Americans and our coasts and oceans. Fifty percent 
of us live in coastal areas; most of the rest love to visit beaches and 
eat seafood. Sixty percent of the country's GDP is generated in coastal 
communities. NOAA and Congress have the job of protecting the oceans 
and Great Lakes. But it is not just protecting nature for its own sake. 
Jobs and a healthy environment go hand-in-hand--in the ocean as well as 
on the land.
    Now our country must rise to a new challenge--dealing with the 
impacts of the changing climate. In my work on the Ocean Commissions, I 
heard firsthand from businesses and state and local governments about 
the need for better information and predictions about the impacts of 
climate change in communities all across this country. From concern 
about droughts and sea level rise to changes in the chemistry of the 
ocean, there is a real hunger for more and better information. If 
confirmed, I will work to create a National Climate Service, which 
would be similar to the National Weather Service, within NOAA. NOAA is 
the best agency in the government to synthesize the scientific data on 
climate change and create products and services that can be used by the 
public to guide important decisions such as where to build a road or 
wind turbines. This idea has been studied by the agency, the National 
Academy of Sciences, and by members of this Committee. It is an idea 
whose time has come, and I would like to make it happen.
    Being the Administrator of NOAA is a big job. Some of the 
challenges I know well from my work: Ending overfishing; anticipating 
the consequences of climate change; preparing for natural disasters in 
a time when resources are tight; restoring ecosystems on which we 
depend for food, water and livelihoods.
    Other challenges I'm just learning. Getting the satellite program 
back on track is chief among them. I look forward to working with you 
to strengthen NOAA as a partner with business in creating economic 
growth and as a trusted steward of America's oceans, Great Lakes and 
coasts.
    I have great admiration for the legions of dedicated scientists and 
other talented professionals at NOAA. I know that this Committee and 
the Congress has been very supportive of NOAA and its work. I relish 
the opportunity to lead the team. I pledge to bring transparency, 
fairness, integrity and accountability to the job, using a consultative 
and collaborative approach. If confirmed, I will work hard with the 
Members of this Committee, the Senate, and the House in realizing the 
great potential inherent in NOAA. Together we can provide America the 
best climate change science, restore her ocean's vitality and recharge 
our economy, putting us on a path to sustainability.
    Again, thank you very much for your courtesy, Mr. Chairman and 
Members of this Committee.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Jane Lubchenco.

        Jane Ann Lubchenco.

        Jane Lubchenco Menge.

    2. Position to which nominated: Administrator, National Oceanic and 
Atmospheric Administration (NOAA).
    3. Date of Nomination: January 20, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Department of Zoology, Oregon State University, 3029 
        Cordley Hall, Corvallis, OR 97331-2914.

    5. Date and Place of Birth: December 4, 1947; Denver, Colorado.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Bruce Menge (Husband), Wayne and Gladys Valley Professor of 
        Marine Biology, and Distinguished Professor of Zoology, Oregon 
        State University; Duncan Nicholas Lubchenco Menge (son) (27).

    7. List all college and graduate degrees.. Provide year and school 
attended.

        B.A. 1969, Colorado College (Biology; Ford Foundation 
        Independent Study Program).

        M.S. 1971, University of Washington (Zoology).

        Ph.D. 1975, Harvard University (Ecology).

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.
    All of my employment is related to the position for which I am 
nominated.

        Assistant Professor, Harvard University, 1975-77.

        Assistant Professor 1977-1982, Associate Professor 1982-88, 
        Oregon State University (OSU).

        Research Associate, Smithsonian Institution, 1978-1984.

        Professor 1988-; Chair, Department of Zoology 1989-92; 
        Distinguished Professor 1993-, OSU.

        Wayne and Gladys Valley Professor of Marine Biology 1995-
        Present, OSU.

        Visiting Professor: University of the West Indies, Kingston, 
        Jamaica, 1976; Smithsonian Tropical Research Institute, Panama, 
        1975-1984; Universidad Catolica, Santiago, Chile, 1986; 
        Institute of Oceanography, Academica Sinica, Qingdao, P.R. 
        China, 1987; University of Canterbury, Christchurch, New 
        Zealand, 1994-95, 1999-2000, 2002-2003.

        National Science Board, member 1996-2000, 2000-2006, twice 
        nominated by President William Jefferson Clinton and twice 
        confirmed by the U.S. Senate.

    9. Attach a copy of your resume.<SUP>*</SUP>
---------------------------------------------------------------------------
    \*\ This document is retained in Committee files.
---------------------------------------------------------------------------
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        White House Office of Science and Technology Policy, National 
        Science and Technology Council's National Forum on Environment 
        and Natural Resources R&D, Chair, Biodiversity and Ecosystem 
        Dynamics Group, 1994.

        Corvallis City Council, Advisory Commission on Open Space, 
        1995-98.

        National Marine Fisheries Service, Ecosystem Principles 
        Advisory Panel, 1997-2000.

        President's Council of Advisors on Science and Technology 
        (PCAST), Committee on Biodiversity and Ecosystems, 1997-1998.

        Oregon State of the Environment Report, Science Panel, 1998-
        1999.

        Governor of Oregon's Global Warming Advisory Group, Co-Chair, 
        2003-2005.

        Joint Oceans Commission Initiative, Member, 2004 to Present.

        National Science Foundation, Search Committee for Assistant 
        Director for Geosciences, Chair, 2007.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Monterey Bay Aquarium, Trustee, 1995-2007, Program Committee, 
        1995-2007.

        Environmental Defense Fund, Trustee, 1995-2009, Science 
        Advisory Committee, 1995-present; Co-Chair of Oceans Committee, 
        1997-present; Vice-Chair, 2005-present.

        Royal Swedish Academy of Sciences, Beijer Institute for 
        Ecological Economics Director, 1999-2004.

        SeaWeb, 2000-2007, Director.

        David and Lucile Packard Foundation Trustee, 2001-2004, Trustee 
        Emerita 2004-present.

        International Council for Science, 1999-2002, President-Elect; 
        2002-2005, President; 2005-2007, Past President.

        Monterey Bay Aquarium Research Institute, Trustee 2007-present.

        Smithsonian Institution's National Museum of Natural History, 
        Director, 2007-present.

        Aldo Leopold Leadership Program. Founder and Chair 1993-2002; 
        Co-Chair 2003-2006; Senior Advisor and Chair of Board of 
        Advisors, 2006-present.

        Partnership for Interdisciplinary Studies of Coastal Oceans 
        (PISCO). Co-Founder and Lead Principal Investigator of 13 Co-
        PIs. (1999-present).

        Science of Marine Reserves Project of PISCO, Team Leader, 2007-
        present.

        Communication Partnership for Science and the Sea (COMPASS), 
        Co-Founding Principal and Chair (1999-2007).

        International Consortium for Research in Upwelling Marine 
        Biogeographic Areas (ICORUMBA), 1 of 8 PIs, 1992-2007.

        Climate Central, Co-Founder, Vice Chair and Secretary, 2008.

        Aspen Dialogue and Commission on Arctic Climate Change, 
        Commissioner, 2008-2010.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
National Academies/National Research Council Appointments

        NAS, delegate to Class Membership Committee, 1997, 1998; NRC, 
        Ecosystem Panel, 1997-1999; NAS, Robertson Memorial Lecture, 
        Selection Committee, 1998; NAS Committee on Class and Section 
        Structure, 1999-2001; Sub-Committee, Earth, Environment, 
        Agriculture and Resources, 1999-2001; NAS Development 
        Committee, 1999-2002; NAS, Member of Council, 1999-2002; NAS 
        Council Committee on Scientific Programs, 1999-2002; NAS 
        Council Committee on Budget and Internal Affairs, 1999-2002; 
        First Chair of newly created Section of Environmental Sciences 
        and Ecology of NAS, Section 63, 2000-2001; NAS Executive 
        Committee, 2001, 2002; NAS Committee on Sustainability Science, 
        2002-2003; NRC Committee on International Capacity Building for 
        the Protection and Sustainable Use of Oceans and Coasts, 2006-
        2007; NAE Blue Ribbon Task Force on Grand Challenges for 
        Engineering, 2006-2007; Section 63 delegate to Council 
        Membership Committee, 2007-2008; NRC Ocean Studies Board Review 
        Team member, 2007-2008; NRC Committee on Ecological Impacts of 
        Climate Change, 2008; NRC Panel on Advancing the Science of 
        Climate Change of the Committee on America's Climate Choices, 
        2008-2010.
National Science Board Appointments

        Member 1996-2006: The NSB provides advice to the President, 
        Congress and the Nation about science and technology and is the 
        Board of Directors of the National Science Foundation. 
        Committee on Education and Human Resources, 1996-1997; 
        Committee on Programs and Plans, 1997-2006; Task Force on the 
        Environment, Chair, 1998-2000; International Task Force, 2000-
        2002, 2005-2006; Task Force on Science and Engineering 
        Infrastructure, 2001-2003; Committee on Strategy and Budget, 
        2001-2006; Nominating Committee, 2002; Subcommittee on Polar 
        Issues, 2002-2006; Nominating Committee, 2006.
Other Advisory Boards and Panels

        United Nations Environment Programme (UNEP), Scientific and 
        Technical Advisory Panel (STAP), Roster of Experts, 1993-2000; 
        Pew Fellows Program in Conservation and the Environment, 
        Advisory Committee, 1995-98; Corvallis City Council, Advisory 
        Commission on Open Space, 1995-98; Living On Earth, P135 radio 
        show, Scientific Advisory Board, 1997-2000; National Marine 
        Fisheries Service, Ecosystem Principles Advisory Panel, 1997-
        2000; President's Council of Advisors on Science and Technology 
        (PCAST), Committee on Biodiversity and Ecosystems, 1997-1998; 
        Sea Studios Foundation, The Shape of Life production, Advisory 
        Board, 1997-2001; Oregon State of the Environment Report, 
        Science Panel, 1998-1999; Consultative Group on Biological 
        Diversity, Advisor's Forum, 1998; Pacific Ocean Conservation 
        Network, Scientific Advisory Committee, 1997-98; AAAS, 
        Millennium Symposium, AAAS and the American Bar Association, 
        1998-2000; Science and Technology News Network, Advisory Board, 
        1998-present; National Geographic Society's Sustainable Seas 
        Expeditions, Technical Advisory Committee, 1998-2001; World 
        Economic Forum, Davos, Switzerland, 1998-2001, 2004-5; Earth 
        Day 2000 National Council, 1999-2000; Ecotrust Council, 1999-
        present; Forum on Religion and Ecology, Advisory Board, 1999-
        present; International Biodiversity Observation Year, Advisor), 
        Board, 2000-2002. Center for Informal Learning and Schools, 
        collaboration among the Exploratorium, University of California 
        Santa Cruz and Kings College London. 2001-2005; Sea Studios 
        Foundation, Strange Days on Planet Earth production, Advisory 
        Board, 2001-2006; Doris Duke Charitable Foundation, Advisory 
        Committee 2002; Vulcan (Paul Allen's Organization), Advisor, 
        2000-2002; University of Washington, Friday Harbor 
        Laboratories, Ten Year Review Committee, 2002; University of 
        Washington, Department of Biology, Board of Visitors, 20022005; 
        University of Washington, Friday Harbor Laboratories 
        Centennial. Symposium Committee (Chair), 2003-2004; Millennium 
        Ecosystem Assessment (MA), Convening Lead Author, (Synthesis 
        Chapter for Business and Industry) and Lead Author (Millennium 
        Development Goals chapter), 2002-2005; Governor of Oregon's 
        Global Warming Advisory Group, Co-Chair, 2003-2005; The Ocean 
        Foundation, Board of Advisors, 2006-present; Duke University 
        Nicholas Institute for Environmental Policy Solutions, Board of 
        Advisors, 2006-present; Stanford University Woods Institute for 
        the Environment, Board of Advisors, 2006-present; World 
        Commission on Protected Areas, Marine, Senior Advisory Panel, 
        2006-present; Google Ocean Council of Advisors, 2007-present; 
        Sailors for the Sea, Science Advisory Committee, 2008-present; 
        Environmental Law Institute 40th Anniversary Committee, 2008-
        2009; Aldo Leopold Foundation, Advisory Council, 2008-present; 
        The Natural History Network, Advisory Council, 2008-present.
Selection Committees

        Pew Fellows in Marine Conservation 1995-98; Aldo Leopold 
        Leadership Program 1998-2008; David and Lucile Packard 
        Foundation, Interdisciplinary Science Program, 1998-2001; James 
        S. McDonnell Centennial Fellowships, Selection Committee for 
        Global and Complex Systems Fellows, 1997-99; American 
        Association for the Advancement of Science, Science Editor-in-
        Chief, 1999-2000; Ecological Society of America, Nominating 
        Committee, 2001-2002; John B. Oakes Award for Distinguished 
        Environmental Journalism, 1999-2004; Smithsonian Institution 
        Natural History Museum Sant Chair in Marine Science, 2005-2006; 
        AAAS Committee on Nominations, 2007, 2008; Chair of Nominating 
        Committee for National Science Foundation's Head of GEO 
        Directorate, 2007.
International Council for Science (ICSU):

        U.S. Delegate to First World Conference on Science, Budapest, 
        June-July 1999; U.S. National Academy of Sciences Delegate to 
        International Council for Science, XXVI General Assembly, 
        Cairo, 1999; President Elect 1999-2002; ICSU Committee on 
        Scientific Programs and Review, 2000-2002; ICSU Executive Board 
        2002-2007; ICSU XXVII General Assembly, as President-Elect and 
        Chair of Forum on Sustainability Science, Rio de Janeiro, 2002; 
        President 2002-2005; Third World Academy of Sciences 20th 
        Anniversary, delivered Opening Remarks, Beijing PRC; Inter-
        Academy Panel meeting, Mexico City, 2003; U.N. World Summit on 
        the Information Society, address to plenary session, Geneva, 
        Switzerland, 2003; United Nations, Commission on Sustainable 
        Development, testimony to Ministers, New York, 2004; European 
        Science Foundation, plenary address, Strasbourg, France, 2004; 
        Third World Academy of Sciences 15th General Meeting, Trieste, 
        Italy 2004; Keynote Address for Inauguration Ceremony for 
        ICSU's Regional Office for Africa--the first of four Regional 
        Offices in development worldwide, Pretoria, S.A. 2005; Chair of 
        Nominating Committee, 2005; Chair of Executive Board and 
        Strategic Plan for ICSU 2006-2012; Chair of XXVIII General 
        Assembly of ICSU, Shanghai and Suzhou, China, Oct 2005; Past 
        President, 2005-2007; Keynote Speaker for 75th Anniversary 
        Celebration, Paris, 2006; Chair, Press Conference for Global 
        Launch of ICSU's and World Monitoring Organization's 
        International Polar Year, March 2007.
International Committees (separate from ICSU):

        Religion, Science and the Environment I: 95-1995: The Meaning 
        of the Apocalypse in Today's World, member of Steering 
        Committee 1994-1995; Religion, Science and the Environment H: 
        The Black Sea as a Paradigm. Executive Chair of Scientific and 
        Religious Steering Committee, 1996-1998; Religion, Science and 
        the Environment III: The Danube, Scientific and Religious 
        Steering Committee, 1998-2000; UNESCO (United Nations 
        Educational, Scientific, and Cultural Organization), Scientific 
        Advisory Board, 1996-1999; OECD Megascience Forum, Biodiversity 
        Working Group, 1998; Royal Swedish Academy of Sciences Beijer 
        Institute, Asko meetings, Valuing Ecosystem Services, 1998; 
        Evolution and Culture 1999; Inclusive Wealth, 2001; Uncertainty 
        in Science 2002; Millennium Ecosystem Assessment Project, 
        Steering Committee, 1998-2000; U.S. delegate to First World 
        Conference on Science, Budapest, June-July 1999; Global 
        Environmental Change/Open Science Conference, Amsterdam, 2001; 
        Religion, Science and the Environment IV: The Adriatic, 
        Honorary Committee, 2001-2003; NSB Review Team, Antarctic 
        Research Program, 2000; Environmental Defense Marine Protected 
        Area visiting committee, Cuba, 2002; Science in Kruger National 
        Park, Synthesis Team, South Africa, 2002; Religion, Science and 
        the Environment V: The Baltic, Honorary Committee 2002-2003; 
        Inter-Academy Panel, ex officio member, 2002-2005; Millennium 
        Ecosystem Assessment, Convening Lead Author: Private Sector 
        Synthesis Report; Lead Author: Millennium Development Goals 
        Chapter; Religion, Science and the Environment VI: The Caspian 
        Sea, Honorary Committee, 2004-2005; Religion, Science and the 
        Environment VII: The Amazon Basin, Honorary Committee, 2005-
        2006; Steering Committee for International Union of Biological 
        Sciences (IUBS)'s 29th Conference and General Assembly, 2007, 
        Washington, D.C.; World Life Sciences Forum BioVision, Science 
        Chair for Environment for March 2007 Forum, 2006-2007; Third 
        World Academy of Sciences Membership Advisory Committee in 
        Systems Biology, 2007-2009; Religion, Science and the 
        Environment VIII: The Arctic, Honorary Committee, 2007; 
        International Marine Conservation Congress 2009, Steering 
        Committee, 2007-2009; European Project on Ocean Acidification, 
        Reference User Group Member, 2008; Arctic TRANSFORM: 
        Transatlantic Policy Options for Supporting Adaptations in the 
        Marine Arctic, expert working group member, European 
        Commission-funded, EU-US transatlantic dialogue, 2008-9.

    Professional Memberships: (all memberships for at least the last 10 
years: all current unless otherwise indicated)

        American Association for the Advancement of Science.

        Ecological Society of America.

        American Institute of Biological Sciences.

        Phycological Society of America (terminated in 2007).

        British Ecological Society (honorary member for life).

        Western Society of Naturalists.

        Association for Women in Science.

    Memberships during some of the last 10 years, but not presently:

        American Society of Limnology and Oceanography (terminated in 
        2007).

        American Society of Naturalists (terminated in 2007).

    To my knowledge these clubs or organizations do not restrict 
membership on the basis of sex, race, color, religion, national origin, 
age, or handicap.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        Ocean Champions--$500 (2008); $2,000 (2007); $2000 (2005); 
        $1,000 (2004).

        Steve Novick, Democratic primary race for Senate, Oregon--$500 
        (2007); 
        $500 (2008).

        Oregon League of Conservation Voters--$500 (2005).

        Democratic National Committee--$500 (2004).

    I have not held any offices in a political party.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.
    Honorary Societies (year elected, leadership responsibilities):

        American Academy of Arts and Sciences, 1993; National Academy 
        of Sciences, 1996; elected to Council 1999-2002; Executive 
        Committee 2001-2002; American Philosophical Society, member 
        1998; European Academy of Sciences, member, 2002; The Royal 
        Society, Foreign Member, 2004; Academy of Sciences for the 
        Developing World (TWAS), Associate Member, 2004; Academia 
        Chilena de Ciencias (Chilean Academy of Sciences), 
        Corresponding Member, 2007.

    Honorary Doctoral Degrees:

        Drexel University, 1992; Colorado College, 1993; Bates College, 
        1997; Unity College, 1998; Southampton College, Long Island 
        University, 1999; Princeton University, 2001; Plymouth State 
        College, 2002; Michigan State University, 2003; Georgetown 
        University, May 2008.

    Other Honors and Awards:

        8 Science Citation Classics or Top 0.25 percent Papers, ISI 
        (Institute for Scientific Information) Current Contents; George 
        Mercer Award, Ecological Society of America, 1979 (co-recipient 
        Bruce A. Menge); Outstanding Teacher Award, OSU Alpha Lambda 
        Delta (freshman honor society), 1986; National Lecturer, 
        Phycological Society of America, 1987-89; American Association 
        for the Advancement of Science Fellow, 1990; Pew Scholar in 
        Conservation and the Environment, Pew Charitable Trusts, 1992-
        1995; Distinguished Professor, Oregon State University, 1993; 
        MacArthur Fellow, John D. and Catherine T. MacArthur 
        Foundation, 1993-1998; Oregon Scientist of the Year, Oregon 
        Academy of Science, 1994; Golden Eagle Award, Council for 
        International Nontheatrical Events (CINE), Washington, D.C. 
        (for National Geographic film Diversity of Life), 1994, co-
        recipients James and Elaine Larison; AWIS Fellow, Association 
        for Women in Science, 1997; Distinguished Service Award, 
        Ecological Society of America, 1997; Honorary Member, Golden 
        Key National Honor Society, 1998; National Conservation Award, 
        Daughters of the American Revolution, 1998; Founder's Education 
        Award, Daughters of the American Revolution, 1998; Sustained 
        Achievement Award, Renewable Natural Resources Foundation, 
        1998; David B. Stone Award, New England Aquarium, 1999; Howard 
        Vollum Award, Reed College, 1999; Honorary Member, British 
        Ecological Society, 2001; Golden Plate Award, The American 
        Academy of Achievement, 2001; Ed Ricketts Memorial Award, 
        Monterey Bay National Marine Sanctuary, 2002; CSSP Leadership 
        Citation, Council for Scientific Society Presidents, 2002; The 
        Heinz Award for the Environment, Heinz Family Foundation, 2002; 
        Outstanding Woman Scientist, 1 of 50 named by Discover 
        Magazine, November, 2002; ISI Highly Cited Researcher in 
        Ecology/Environment, 2002; Distinguished Service Award, Society 
        for Conservation Biology, 2003; Distinguished Alumna Award, 
        College of Arts and Sciences, University of Washington, 2003; 
        Nierenberg Prize for Science in the Public Interest, Scripps 
        Institution of Oceanography, 2003; Distinguished Scientist 
        Award, American Institute of Biological Sciences, 2004; 
        Environmental Law Institute Award, 2004 (the first scientist to 
        receive this honor); Public Understanding of Science and 
        Technology Award, American Association for the Advancement of 
        Science, 2005 (the first woman to receive this award); OSU 
        College of Science Gilfillan Award, 2006; Beijer Fellow, Royal 
        Swedish Academy of Sciences' Beijer Institute of Ecological 
        Economics, 2007-present; The Zayed International Prize for the 
        Environment, for Scientific and Technological Achievements, 
        Dubai, United Arab Emirates, 2008; Edward O. Wilson 
        Biodiversity Technology Pioneer Award, 2009, American Computer 
        Museum.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    Please see the attached list of all publications.<SUP>**</SUP>
---------------------------------------------------------------------------
    \**\ This information is retained in the Committee files.
---------------------------------------------------------------------------
    The fallowing is a list of all invited presentations for the last 3 
years. Earlier years are not listed due to the volume of information, 
but are available should that he deemed useful.
    Invited Presentations (2006-2008)

    2008:

        Arizona State University, School of Life Sciences Seminar and 
        Wrigley Lectures Series, Invited Speaker, ``The Slippery Slope 
        to Slime or A Mutiny for the Bounty? Scientific Knowledge 
        Informing Today's Choices and Tomorrow's Ocean''; Tempe, AZ; 
        California Current Ecosystem-Based Management meeting, Invited 
        Speaker, ``Embracing a New Era''. Santa Cruz. CA; Harvard 
        University, Biodiversity, Ecology and Global Change Seminar 
        Series, Invited Speaker, ``Seas the Day: Science Informing 
        Today's Choices and Tomorrow's Ocean'', Boston, MA; American 
        Association for the Advancement of Science Annual Meeting, 
        Speaker in three symposia ``Finding Sustainability without 
        stability: New Goals for a World in Flux'', ``Local and Global 
        Returns on Marine Reserves: Are the Investments Paying Off?'', 
        and ``Strange Days on Planet Ocean: New Insights on the Effects 
        of Climate Change'', Boston, MA; San Diego Natural History 
        Museum, Invited Speaker, ``Climate Change and the World's 
        Oceans'', San Diego, CA; OSU Society of Women Engineers, 
        Keynote speaker ``Grand Challenges for Engineers'', Corvallis, 
        OR; Port Orford Ocean Resource Team Water Festival 2008, 
        Keynote Speaker, Port Orford, OR; University of British 
        Columbia Fisheries Seminar Series, Invited Speaker, Vancouver, 
        BC, Canada; Aspen Institute, Aspen Environmental Forum, invited 
        speaker, Aspen, Colorado; University of Washington School of 
        Aquatic & Fishery Science Lecture Series, Invited Speaker, 
        ``Oceans, Climate Change and the Pacific Northwest'', Seattle, 
        WA; University of Washington, School of Aquatic and Fishery 
        Science inaugural graduate student-invited speaker, ``Oceans, 
        Climate Change and the Pacific Northwest'' and Forum on 
        Science, Ethics and Policy, Invited Speaker, ``Scientists' New 
        Social Contract with Society: Communicating Climate Science and 
        more'', Seattle, WA; American Museum of Natural History Spring 
        Environmental Lecture and Luncheon, Panelist on climate change 
        and oceans, New York, NY; NOAA-USDA National Stakeholder 
        Meeting on Alternative Feeds for Aquaculture, Keynote Speaker, 
        Silver Spring, MD; Georgetown University, Graduate School 
        Commencement Speaker, Washington, D.C.; Intergovernmental 
        Oceanographic Commission (IOC)/ICES/PICES, Effects of Climate 
        Change on the World's Oceans International Symposium, Plenary 
        Speaker, Gijon, Spain; UNESCO/GLOBEC, Eastern Boundary 
        Upwelling Ecosystem Symposium, Workshop Leader, Canary Islands, 
        Spain; National Geographic, Aspen Institute, and Linblad 
        Expeditions Arctic Expedition for Climate Action, speaker and 
        Commissioner, Svalbard, Norway; Google Science Foo Camp, 
        Invited Participant, Mt. View, CA; Oregon Public Broadcasting 
        (OPB) Salon, Guest Speaker, Newport, OR; Hatfield Marine 
        Science Center Marine Science Media Fellowship Program; World 
        Conservation Congress, 2 Plenary Talks (on the `Value of Marine 
        Reserves', and on the new `Marine Protected Area layer of 
        Google Earth') and 1 concurrent session (on Lessons for the 
        Arctic from Oceans around the world). Barcelona, Spain.

    2007:

        University of California, Santa Cruz Fred Keeley Lecture in 
        Environmental, Keynote Speaker, Santa Cruz, CA; University of 
        California, Santa Cruz Panel on Women in the Environmental 
        Sciences, Panelist, Santa Cruz, CA; American Association for 
        the Advancement of Science Annual Meeting, Speaker in four 
        symposia on ``Human Psychology and the Science of Climate 
        Change'' ``West Coast Oceanic Anomalies'', ``Advocacy in 
        Science and Journalism'' and ``Science and Ethics of 
        Sustainability'', San Francisco, CA; Straub Environmental 
        Lecture, Invited Speaker, ``Environmental Changes and Human 
        Well-Being: Information and Hope'', Salem, OR; BioVision 2007, 
        Speaker and Chair ``Conference on Environment'' and Summarizer 
        for Closing Plenary, Lyon, France,; Joint Ocean Commission 
        Initiative Conference on Regional Ocean Governance, Opening and 
        Closing Remarks, Monterey CA,; IUCN Marine Summit, Invited 
        Speaker, ``Fisheries, MPAs and human well-being'', Washington, 
        D.C.; Cornell University Iscol Lecture, ``Seas the Day: 
        Recovering the Diminishing Bounty of Oceans'', Ithaca, NY; 
        Crafoord Prize Jubilee Celebration, Royal Swedish Academy of 
        Sciences, Invited Speaker, ``Seas the Day: The Slippery Slope 
        to Slime or a Mutiny for the Bounty?'', Lund, Sweden,; Joint 
        meeting of the American Philosophical Society, the American 
        Academy of Arts and Sciences and the National Academy of 
        Sciences, Panel on Energy Choices, ``Energy Choices, Climate 
        Change and Oceans'', Washington, D.C.; International Union of 
        Biological Sciences General Assembly, ``Natural Security: 
        Ecosystems and Human Well-Being'', Washington, D.C.; Gilfillan 
        Lecture, OSU College of Science, Keynote Speaker, ``Recovering 
        the Bounty of the Oceans: Science and Society''; Ecological 
        Society of America symposium ``Ecology: the Integrative 
        Science'', San Jose, CA; Kristine Bonnevie Lecture, Keynote 
        Speaker, ``The Quickening Pace of Environmental Changes in 
        Oceans: Evolutionary, Ecological and Social Implications'', 
        University of Oslo, Norway; Religion, Science and The 
        Environment Symposium VII: The Arctic Ocean, ``Global Changes 
        for Life in Oceans''; Greenland; Fundacion COPEC Meeting 
        ``Global Changes in Ocean Ecosystems and their Implications for 
        Science & Management'', Invited Speaker and panelist, Santiago, 
        Chile; Pontificia Universidad Catolica Seminar, Invited 
        Speaker, Santiago, Chile; Commission Permanente del Pacifico 
        Sur, Course on Management of Marine Protected Areas, Invited 
        Speaker, Valparaiso, Chile; Heceta Head Coastal Conference 
        ``Oregon's Ocean: Resources and Opportunities'', Master of 
        Ceremony, Florence, OR; Linus Pauling and his Era: The 
        Scientist as Public Citizen, Invited Speaker, ``A Scientist's 
        Conscience'', Corvallis OR.

    2006:

        American Association for the Advancement of Science Annual 
        Meeting, Symposium Speaker, ``Scientists, the Public and 
        Policy-Makers in Dialogue: Principles and Applications''; 
        ``Matching Scales: Human-Ecological Interface in the Marine 
        Ecosystem'', St. Louis, MO; Oregon Zoo Wildlife Conservation 
        Lecture Series, Invited Speaker, Portland, OR; American 
        Fisheries Society, Oregon Chapter Annual Meeting, Plenary 
        Speaker, Sun River, OR; Douglas County Global Warming Coalition 
        ``The Latest Science on Global Warming'' Public Lecture, 
        Keynote speaker, Roseburg, OR; City Club of Portland, Invited 
        Speaker, ``Climate Change and its Implications for Oregon''; 
        Portland, OR: American Society of Limnology and Oceanography, 
        keynote address: `Prospects for our Oceans; Sustainability of 
        the Seas', Victoria, BC; The Seminar Group's Global Warming in 
        the Pacific Northwest Conference, Keynote Speaker, `The Science 
        of Global Warming: What's Likely? What's Possible?' Seattle, 
        WA; Italian Ecological Society National Meeting, Plenary 
        Speaker, ``Prospects for the Oceans: Sustainability of the 
        Seas'', Civitavecchia, Italy; Italian Ecological Society 
        National Meeting, Invited Speaker, ``PISCO: Harnessing 
        Interdisciplinary Science to Understand a Large Marine 
        Ecosystem'', Viterbo, Italy; Portland State University, 
        Environmental Sciences and Resources Group, Annual Keynote 
        Speaker, ``The Environment and Human Wellbeing'', Portland, OR; 
        Colorado College, Religion and Public Life Issues in Science 
        Symposium, Invited Speaker, ``Science, Religion, and the 
        Environment'', Colorado Springs, CO; Committee on Data for 
        Science and Technology (CODATA) of the International Council 
        for Science, 40th Anniversary Keynote Speaker, ``Science's Sine 
        Qua Non: Making Scientific Knowledge Understandable, Relevant 
        and Useful'', Beijing, China.

    Service on Editorial Boards:

        American Naturalist, 1978-81; Oecologia, 1985-88; Journal of 
        Phycology, 1987-90; Ecological Applications, 1989-93; The 
        Northwest Environmental Journal, 1991-93; Trends in Ecology & 
        Evolution, 1991-2006; Conservation Ecology, 1995-2001; Issues 
        in Ecology, 1995-2002, 2003-2007; Ecosystems, 1997-99; 
        Environmental Conservation, 1998-99: Advisory Editor, 
        Ecological Studies, Springer-Verlag, 1993-2000; Associate 
        Editor, Encyclopedia of Biodiversity, Academic Press, 1997-
        2000; International Advisory Board, Encyclopedic: of Global 
        Environmental Change, Wiley, 1998-2001; Editor for Special 
        Issue on Marine Reserves, Ecological Applications, 1999-2002; 
        Ad-hoc editor, Proceedings of the National Academy of Sciences, 
        1998-present; Frontiers in Ecology, Advisory Board, 2001-2004; 
        Human-Environment Interactions (U. Michigan book series), 2003-
        present; Faculty of 1000, 1 of 3 Heads of Faculty for Ecology 
        and Evolution, 2003-present; Marine Ecosystems and Management, 
        2007-present.

    Other Appearances Below is a selection of briefings, videos, films, 
televised or nationally published interviews and articles, not 
including local and regional media interviews or profiles or public 
lectures (see next section):

        1995--Briefing: Newt Gingrich, Speaker, U.S. House of 
        Representatives, on biodiversity, for 2 hours, in Atlanta, 27 
        January.

        1996--Film: Keeping the Earth (produced for the Union of 
        Concerned Scientists by New Wrinkle, Inc., in cooperation with 
        the National Religious Partnership for the Environment); 
        interview of J. Lubchenco in film.

        1996--Exhibits and videos: at Hatfield Marine Science Center, 
        Newport, OR, by New England Technology Group; on rocky 
        intertidal research findings, including biodiversity and 
        coastal communities; J. Lubchenco as scientific advisor and 
        interviewee.

        1997-98--Film: ``The Shape of Life'', 6 hour-long PBS series on 
        the relationship between shape and function in living 
        organisms; Scientific Advisory Committee, Sea Studios 
        Foundation.

        1997--Video: of briefing for President William Jefferson 
        Clinton and Vice President Al Gore on climate change, East 
        Room, White House.

        1997--28 Radio and television interviews: public and 
        commercial; local, national and international stations; taped, 
        filmed, and call-in, live; 5 minutes to 1 hour; on climate 
        change and state of the world.

        1997--Profile: Christian Science Monitor's Outstanding 
        Americans, 15 August.

        1997--Briefings: His All Holiness Bartholomew I, Ecumenical 
        Patriarch of the (Christian) Orthodox Church; status of the 
        world's oceans, climate change and biodiversity; 10 days, 
        September.

        1998--Briefing: Newt Gingrich, Speaker of U.S. House of 
        Representatives, on climate change, 2\1/2\ hours, Atlanta, GA, 
        20 April.

        1998--Briefing: President William Jefferson Clinton, First Lady 
        Hillary Rodham Clinton and Vice President Al Gore, on ocean 
        issues, 1 hour, Monterey, CA, 12 June.

        1998--Video: Interviewed (as Chair of Scientific and Religious 
        Steering Committee) in Black Sea-Voyage of Healing, produced by 
        Harvey McKinnon and Peter Davis, Villon Films, Vancouver, BC, 
        55 min. 1999.

        1999--Book Profile: The Door in the Dream: Conversations with 
        Eminent Women in Science, Elga Wasserman, Joseph Henry Press, 
        300 p. (published interview).

        1999--Video: Featured in Generation to Generation: The Story of 
        Climate Change and Oregon, produced by Odyssey Productions for 
        the Oregon Office of Energy, 8 min.

        1999--Popular Article: interview of Lubchenco: by Tont, Sargun 
        A. in GEZI National Geographic Traveler (Turkish), March 2(18): 
        20-24.

        2000--Briefing: Marine Protected Area and Marine Reserves along 
        the West Coast; 2 days, for Academic scientists, government 
        agency and nongovernmental organization staff, Monterey, CA.

        2001--Public Community Forum: ``Marine Biodiversity in Oregon'' 
        for Biodiversity Roundtable, Corvallis, OR; speaker.

        2001--Briefing: ``The Scientific Consensus on Marine Reserves'' 
        to the Oregon Policy Advisory Council, Corvallis, OR; speaker.

        2001--Film: IMAX film Lost Worlds on Biodiversity; advisory 
        committee.

        2001--Film: Empty Oceans, Empty Nets. PBS/Habitat Media, Steve 
        Cowan and Barry Schienberg, producers, televised presentation 
        about ocean fisheries, interviewee.

        2002--Oral Presentation: ``Environment and Human Health'' to 
        the Consultative Group on Biological Diversity, Washington, 
        D.C.

        2002--Briefing: ``The Science or Marine Protected Areas and 
        Marine Reserves'', 2 days, Monterey, CA, for high-level 
        decisionmakers in state and Federal Government agencies, 
        organized by COMPASS.

        2002--Roundtable: between NAS Scientists, and White House and 
        Federal Agency Staff on Sustainability Science.

        2002--Profile: Jane Lubchenco named ``1 of 50 Most Important 
        Women in Science'': Discover Magazine, November, Vol, 23, No. 
        11: 52-57.

        2002--Profile: Interview with Jane Lubchenco. ``Ocean 
        Advocate'' by Monica Michael Willis, Country Living Magazine: 
        July, Vol. 25, No. 7:30.

        2002--Popular Article: Interview with Jane Lubchenco. ``State 
        of the Planet: A Global Report Card'' by Mike Klesius, in 
        National Geographic Magazine: September, pp: 104-115.

        2002--Briefing: ``The Science of Marine Reserves'' for Oregon 
        media. Corvallis, OR.

        2002--Inaugural Guest Lecture: to News Staff, Oregonian 
        Newspaper, Portland, OR.

        2002--Profile: Career World Magazine for students 7-12. 31(3).

        2002--Press Conference: As new President of ICSU, results of 
        scientific input into and follow-up actions to World Summit on 
        Sustainability Development.

        2002--Oral Presentation: ``The Science of Marine Reserves'' to 
        Board of Directors of Conservation International, Seattle, WA.

        2003--Radio Interview: ``Voice of America'' on PISCO new 
        research, 30 minutes.

        2003--Press Briefing: To 30 national and international 
        reporters at the annual AAAS meeting, on new discoveries about 
        coastal oceans.

        2003--Seminar: Norm Thompson Outfitters, on climate change and 
        sustainability.

        2003--Seminar: Nike, Inc., on climate change.

        2003--TV, Radio and Print Interviews: >30 on Pew Oceans 
        Commission report.

        2004--National Press Conference, Pew Oceans Commission Report 
        to the Nation, National Press Club, Washington, D.C., televised 
        nationally.

        2003--National Press Conference, U.S. Capitol, Members of 
        Congress commenting on the Pew Oceans Commission report.

        2003--TV Special: Oregon Field Guide, Oregon Public 
        Broadcasting, features natural history of Oregon's rocky 
        shores.

        2003--Oral Presentation: Capitol Hill Oceans Week, Washington, 
        D.C., for panel on Marine Protected Areas and Marine Reserves.

        2003--Profile: Portland Oregonian, Sunday paper, pages 1, 8, 
        and 9.

        2003--Opening Remarks: Third World Academy of Sciences 20th 
        Anniversary Celebration, Beijing, with the President of the 
        People's Republic of China, Hu Jintao.

        2003--Interview--NPR Radio: The Steve Scher Show, 1 hour, call-
        in; Seattle; with William Ruckelshaus on the Pew Oceans 
        Commission and the U.S. National Oceans Commission reports.

        2003--Interview: KING TV: Seattle, WA, on Puget Sound as a 
        microcosm of global ocean challenges.

        2004--Address to U.N. World Summit on the Information Society: 
        plenary session, Geneva, on the role of science in the 
        information society.

        2004--TV Film: National Geographic's Strange Days on Planet 
        Earth, a 4-part PBS, NGS special feature; partnership between 
        Sea Studios, PBS/National Geographic Society and Vulcan; 
        scientific advisory board; aired on PBS in 2005.

        2004--TV Film: Farming the Seas, PBS/Habitat Media Documentary 
        Film, Steve Cowan producer; interviewee.

        2004--Oral Presentation: Rotary Club of Corvallis, April; 
        sustainability.

        2004--Address to the United Nations Commission on Sustainable 
        Development-12, High Level Ministerial Segment, on the role of 
        science in enhancing sustainable development with particular 
        attention to freshwater, sanitation and human settlements; New 
        York, April.

        2005--Written Evaluation of U.S. Commission on Ocean Policy 
        draft report prepared for the Governor of Oregon, from the 
        Marine Scientific Advisory Panel.

        2004--Environmental Grant-Makers Association, keynote speaker, 
        Kaua'i, Hawai'i.

        2005--Interview: Common Ground: Oregon's Ocean, 30 min film 
        produced by Green Fire Productions on the state of the ocean 
        ecosystem off Oregon and the merits of establishing a network 
        of marine reserves to protect them.

        2005--Interview: National Academies InterViews Project. 
        Distinguished scientists talk about their research, why they 
        became scientists and other aspects of their careers.
        http://www.nationalacademies.org/interviews/people/
        lubchenco.html.

        2005--Testimony: Oregon State Senate Land Use and Environment 
        Committee concerning recommendations from the OR Governor's 
        Advisory Group on Global Warming. March 25.

        2005--Press Briefing: Millennium Ecosystem Assessment, launch 
        of the MA for North American audiences. Washington, D.C.

        2005--Testimony: Portland City Council, on climate change, 
        invited, June 8.

        2005--Interviews: Los Angeles Times, New York Times, National 
        Public Radio, etc. on aquaculture, May and June.

        2005--Interviews on oceans and climate change: Print: GeoTimes; 
        LA Times; New York Times; National Geographic; Broadcast: KPSA, 
        San Francisco; Premier Radio.

        2005--Interview: National Geographic Magazine. Field interviews 
        and photo shoot for June 2006 article on state of the oceans, 
        July 20-23.

        2005--Interviews on science and society: national and 
        international press at the International Council for Science's 
        General Assembly, extensive coverage in China, Asia and 
        international press.

        2005--Radio Broadcast: Eugene City Club talk `The Environment 
        and Human Well-Being', broadcast on Oregon Public Broadcasting 
        Radio.

        2005--Forum on Climate Change: organized for community leaders 
        of mid-Willamette Valley by PISCO and COMPASS.

        2006--Interviews on global warming: Print media: The Astorian, 
        Oregonian; broadcast: KPOJ Radio, KPNW Radio.

        2006--Interviews on aquaculture: Print media: Delicious Living 
        Magazine.

        2006--Interviews on ecosystem services and the Millennium 
        Ecosystem Assessment.

        2006--Interviews on state of the oceans, marine reserves, ocean 
        policy or Oregon's ocean, print: The New Scientist; OSU's Terra 
        magazine; broadcast: OPB's Oregon Territory.

        2006--Booklet: PISCO's Coastal Connections, Volume 5, 
        highlighting new scientific findings from the PISCO team.

        2006--Radio Broadcast: Oregon Public Broadcasting of Portland 
        City Club talk ``Climate Change and its implications for 
        Oregonians.''

        2006--Training: Trained 18 new Aldo Leopold Leadership Fellows 
        to be effective communicators of their scientific information 
        (1 of 2 weeks).

        2006--Interview on Maintaining the Integrity of Science: Print 
        media: The Scientist, October.

        2006--Interviews on the low-oxygen zone off the west coast 
        (Print: New York Times, Oregonian, AP, and others; TV: ABC 
        network news; NBC Portland news; Eugene KVAL news.

        2006--Radio Interview on Oregon Territory, Oregon Public 
        Broadcasting, on Oregon's intertidal zone, climate change, and 
        more. The reporter and producer, Christy George received a 2007 
        Gracie Award from the American Women in Radio and Television 
        for the 20 minute show.

        2007--Testimony to Joint Committee on Emergency Preparedness 
        and Ocean Policy, Oregon Legislature on ``The Science of Marine 
        Reserves'' 6 March.

        2007--Interview by Claudia Dreifus for OnEarth Magazine on 
        climate and oceans.

        2007--Interview for Pink Magazine on changes in oceans.

        2007--Interviews on climate change and oceans for New 
        Scientist.

        2007--TV Interview: OPB TV for 1-hour special show on climate 
        change in Oregon; aired 25 October; rebroadcast 30 October.

        2007--TV and press interviews (El Mercurio, La Tercera) on 
        climate change and Nobel Peace Prize, Santiago Chile.

        2008--Testimony to Oregon Senate Environment Committee, 
        invited, on marine reserves, 16 January.

        2008--Interview: Common Ground 2: Oregon's Ocean Legacy, film 
        produced by Green Fire Productions on the sustainable use of 
        Oregon's ocean.

        2008--Testimony to U.S. House of Representatives--Select 
        Committee on Energy Independence and Global Warming, invited, 
        ``Climate and Oceans; Impacts and Implications''.

        2008--Training: Trained 19 new Aldo Leopold Leadership Fellows 
        to be effective communicators of their scientific information 
        (1 of 2 weeks).

        2008--Interviewed and Quoted in Parade Magazine on ocean 
        health. Chen, Daryl. 2008. ``Can Our Oceans Survive?'' July 27, 
        page 6.

        2008--Interviewed and Quoted in article for Society of Women 
        Engineers Magazine on NAE Grand Challenges Project. Thomas, 
        Charlotte, ``Engineering's Grand Challenges--What's Your 
        Pick?'' SWE Magazine 54(5): 36-44.

        2008--Interviewed and quoted in Scientific American Magazine on 
        Hypoxia research.

        2008--Content provided for new layer of Google Earth on Marine 
        Protected Areas (MPA) and for new MPA portal 
        ProtectPlanetOcean.org; based on PISCO's Science of Marine 
        Reserves booklets.

        2008--Profiled by Associated Press (AP) in their ``Newsmakers'' 
        series.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        1995--Invited testimony to the U.S. Senate Environment and 
        Public Works Committee, on reauthorization of the Endangered 
        Species Act. U.S. Congressional Record. 13 July.

        1997--Invited testimony to the U.S. House of Representatives 
        Subcommittee on Fisheries Conservation, Wildlife and Oceans, on 
        upcoming International Year of the Ocean. U.S. Congressional 
        Record. 30 October.

        1997--Invited Briefing to President William Jefferson Clinton 
        and Vice-President Al Gore on climate change, East Room, White 
        House.

        1998--Invited Briefing to Newt Gingrich, Speaker of U.S. House 
        of Representatives, at his request, on climate change, 2\1/2\ 
        hours, in his Atlanta, GA office, 20 April.

        1998--Invited Briefing to President William Jefferson Clinton, 
        First Lady Hillary Rodham Clinton and Vice President Al Gore, 
        on ocean issues, 1 hour, Monterey, CA, to summarize 
        deliberations of the National Oceans Conference, 12 June.

        1999--Invited Testimony to the U.S. House of Representatives 
        Subcommittee on Fisheries Conservation, Wildlife and Oceans, on 
        the National Marine Sanctuaries Enhancement Act. U.S. 
        Congressional Record.

        2008--Invited Testimony to U.S. House of Representatives--
        Select Committee on Energy Independence and Global Warming, 
        ``Climate and Oceans; Impacts and Implications''. U.S. 
        Congressional Record.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    NOAA is the Nation's premier science agency focusing on exploring, 
understanding, explaining and managing our oceans and atmosphere. My 
scientific career has been spent at exactly this nexus. My research has 
focused on the oceans and on the connections between the land, sea and 
air. Through my teaching and participation in public service, I have 
emphasized the role of clear and current scientific input in decision-
making. I have also always stressed my belief that science should 
inform decision-making. It should not dictate decisions. I have led 
large, complex projects and organizations and served on Boards of 
Directors for major foundations and non-governmental organizations. 
These projects, organizations and boards include the American 
Association for the Advancement of Science, the International Council 
for Science, the Partnership for Interdisciplinary Studies of Coastal 
Oceans, the National Science Board, the David and Lucile Packard 
Foundation, the Monterey Bay Aquarium, and the Environmental Defense 
Fund. I believe that I can utilize my knowledge, skills and experience 
to serve the Nation by leading NOAA.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    As the top executive in NOAA, it will be my responsibility, if 
confirmed, to make sure that the agency has proper management systems 
and accounting controls in place and working, and I take that 
responsibility very seriously. I will personally devote time, resources 
and attention to making sure that the proper internal controls are in 
place and that there is oversight of the ``business'' of NOAA. In my 
more than thirty-year career as a scientist, simultaneously managing 
multiple ongoing research projects, and other scientific, academic, and 
policy endeavors, I have gained a wealth of experience in running an 
enterprise. I understand firsthand how to manage budgets, build a 
management team, maximize human resources, and solve problems to 
deliver tangible results.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe the top three challenges facing NOAA are the satellite 
program, fisheries management, and ensuring that the Nation is prepared 
to deal with the impacts of climate change, including changes in 
weather patterns and disasters. Fixing the satellite program is key to 
NOAA's ability to forecast accurately extreme weather events. The 
current problems must be solved. The cost overruns are a serious drain 
on the NOAA and Federal budgets and they reflect poorly on the agency. 
Ending overfishing by 2011 is required by the newly amended Magnuson-
Stevens Act, and will require making difficult choices involving 
fishing jobs and fishing communities. It will require time, attention 
and an ability to balance competing interests. Climate change is one of 
the greatest challenges facing our nation; NOAA can play a key role in 
helping us to forecast likely changes and adapt to the inevitable 
impacts of climate change that we will face in the years ahead. I look 
forward to working with the Committee on all of these challenges, if I 
am confirmed.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    Oregon Public Employees Retirement System. As an Oregon State 
University (OSU) employee, I have been a participant in the state of 
Oregon's employee pension plan. I will work with OSU, the State of 
Oregon Public Employees Retirement System and the Office of Government 
Ethics to identify the proper steps to recuse myself from any related 
matter, if necessary, for the duration of my government service.
    Variable Annuity Life Insurance Company. I have also been a 
participant in an IRA through this company. Twill work with the Office 
of Government Ethics to identify the proper steps to recuse myself from 
any related matter, if necessary, for the duration of my government 
service.
    SEP IRA. I participate in a SEP IRA. I will work with the Office of 
Government Ethics to identify the proper steps to recuse myself from 
any related matter, if necessary, for the duration of my government 
service.
    Northwestern Mutual Fund Life Insurance. I have universal life 
insurance through this company. I will work with the Office of 
Government Ethics to identify, the proper steps to recuse myself from 
any related matter, if necessary, for the duration of my government 
service.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    Oregon State University (OSU). If confirmed, I will go on leave of 
absence without pay from my faculty position at Oregon State 
University.
    I will continue to participate in the State of Oregon Employees 
Retirement System. No further contributions will be made by Oregon 
State University during my leave of absence.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    I have worked with the Office of Government Ethics to develop an 
agreement on avoiding potential and actual conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    I have worked with the Office of Government Ethics to develop an 
agreement on avoiding potential and actual conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I have never been a registered lobbyist. I believe that it is 
important to provide scientific information to policymakers in order to 
help inform their decisions. For example, I have testified before 
Congress on numerous occasions, briefed the President and Vice 
President, served on The National Science Board and Committees of the 
National Academy of Sciences and the National Academy of Engineering, 
and participated in nongovernmental activities providing input to 
governmental bodies or individuals, such as the Aspen Institute 
Congressional Program. These activities have all been listed in answers 
to earlier questions.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I have worked with the Office of Government Ethics to develop an 
agreement on avoiding potential and actual conflicts of interest. 
Should other issues arise, I will seek the counsel of the Office of 
Government Ethics and where appropriate, would recuse myself from a 
decision or take any other steps necessary to in order to avoid an 
actual or appearance of a conflict of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.
    Our neighborhood association was involved in a water dispute in 
which a subset of households filed suit against the rest of the group. 
My husband and I were named in the group that was sued. It was resolved 
out of court.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: Please see C.1 above.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: I do not know of any.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Thank you very much. Thank you for your 
statement.
    You have talked about the importance of the integrity of 
science, and I mentioned the Johns Hopkins/Isaac Newton 
approach. You follow the truth wherever it is. I am not a 
scientist. If I were trained as a scientist, I think I would 
rigidly and forever believe what you both said.
    It gets difficult in government because there are a lot of 
other points of view. Take climate change. I support that. 
There are a lot of people who produce coal in my State who are 
maybe less enthusiastic about it, but so be it.
    How do you protect the integrity--this is for each of you--
of science? Because science is something which, through your 
work, has led you to a conclusion--perhaps two, but at least, 
let us say, a conclusion: this is a better way to go than this 
way. How do you protect that when you are being buffeted by a 
variety of other interests within government?
    Dr. Lubchenco. Mr. Chairman, if I might begin and I will 
let my colleague continue. I believe very firmly that the role 
of science is to inform our understanding and inform our 
decisions. The science does not tell us what to do. It helps us 
understand what is happening, how things are changing, and what 
the likely consequences of different policy choices might be. 
It is one of a number of factors that I believe should be taken 
into account in making political decisions. Those decisions 
will also include values, economics, politics, and other kinds 
of information. My hope is that the scientific information 
would be available in relevant and understandable ways to help 
inform those decisions but not necessarily to dictate any 
particular outcome. The choices that you make are often social 
decisions that should rely on the science.
    Dr. Holdren. Let me just add to what my colleague has said, 
with which I fully agree. I often say to my students in the 
first lecture in a course I have taught for many years about 
environmental and resource science for policy that the 
scientific facts are never everything in decision-making and 
policymaking, but they are usually something. They are relevant 
in various ways to the policy decisions that are being made. 
And I think it is always important, therefore, to distinguish 
between the best assessment scientists can offer of our current 
understanding of situations that bear on policy versus, on the 
other hand, the range of policy preferences which will 
ultimately enter the debate based on the diverse kinds of 
factors that Dr. Lubchenco has mentioned.
    The America COMPETES Act, signed into law in August 2007, 
actually requires the Director of the Office of Science and 
Technology Policy to develop and issue an overarching set of 
principles to ensure the open communication of data and results 
from Federal scientists and to prevent the intentional or 
unintentional suppression or distortion of such research 
findings. That is actually a big challenge in thinking about 
scientific integrity in the Federal Government. I think getting 
it done is going to require clarifying policies for 
disseminating research results, developing processes for 
appealing those dissemination decisions, and providing training 
to inform, reinforce and update managers, researchers, and the 
public information staffs on those policies. It is a big 
challenge, but we are going to get it right.
    The Chairman. Dr. Holdren, there are many scientists out 
there. Just take climate change. I mean, there are some 
scientists--I mean, there are some sort of bogus papers put out 
and conclusions reached, but there are many scientists who have 
very, very different views about what the irreversible date 
might be, for example, on climate change; or how serious is 
climate change; or what do we have to do to measure its 
seriousness. And there are remarkable differences from 
scientists on that subject. Yet they are all scientists. How do 
you resolve that?
    Dr. Holdren. Well, let me say, first of all, that there has 
always been, always will be diversity of opinion among 
scientists about any complicated issue. Scientists are as 
diverse a group as any other you will find, and people come to 
different conclusions about how to interpret the same data. 
This is routine.
    My position would be that in matters of public policy, 
policymakers should bet with the odds. You look at the range of 
scientific opinion. You look at the center of gravity of that 
scientific opinion. You look at what the bodies that have 
accumulated the most expert knowledge and brought it to bear on 
the question have to say. You can never conclude that any 
particular interpretation in science is final. All science is 
contingent; it could change with new information, new data, new 
observations, new analysis. But if you are making policy, it is 
wise in my judgment to go with the opinion of the bulk of the 
part of the scientific community that has studied that 
particular question.
    In the case of climate change, immense effort has been 
devoted to determining what that center of gravity of 
scientific opinion is. It is available to us in the reports of 
the National Academy of Sciences, in the reports of the 
Intergovernmental Panel on Climate Change, in the reports of 
distinguished bodies all around the world who have focused the 
relevant expertise available to them on this question. And the 
basic conclusions of all of those groups are the same. Climate 
change is real. It is accelerating. It is caused, in 
substantial part, by human activity. It is dangerous and it is 
getting more so.
    There are lots of details on which you can find lots of 
difference of opinion, but the mainstream view is the one I 
have just stated. And if I were a policymaker betting the 
public's welfare on an interpretation of science, I would go 
with the mainstream.
    The Chairman. All right. My time is up. Senator Hutchison, 
the Ranking Member.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman.
    My first question is administrative basically, but I think 
it was said by Senator Wyden--and I think all of us who have 
served on this committee agree that we have been bipartisan and 
we have been very strong for science and technology and 
research. My question to both of you is, will our Committee, 
every member of our Committee, minority as well as majority, be 
able to call your offices for help within your agencies with 
data that we might need? In other words, will you answer 
questions and give the same type of help to every member of our 
Committee?
    Dr. Lubchenco. Absolutely, Senator.
    Dr. Holdren. The same. I have always worked with members on 
both sides of the aisle in both the House and the Senate. I do 
not even ask my potential employees what their political 
affiliation is. I look forward to working with all of you.
    Senator Hutchison. Thank you very much.
    Let me just say a couple of things that are very important 
to me in the experience that I have had on this committee. 
Number one is the great need that was shown in the report, 
``Rising Above the Gathering Storm,'' for more research into 
the basic sciences to stay on top of the fields of the hard 
sciences and, second, the encouragement of teaching and 
recruiting young people to be interested in taking the courses 
in middle and high school so that they will take the courses in 
college, which I think you addressed somewhat.
    But in the National Science Foundation, for instance, the 
social sciences have become I think a fairly large part, 
sometimes taking away from the hard sciences. And I hope that 
we can know where our needs are and our priorities right now, 
and that is to stay on top of the innovation and technological 
advances that have kept our economy strong through the years. 
So that is one area that I would like to discuss.
    Second, my colleague, Senator Nelson, and I have been very 
interested in NASA and space, and the fact that we are going to 
have a gap of 5 or 6 years when Americans will not be able to 
fly into space is not acceptable to us. And I would like to ask 
Dr. Holdren if you are committed in your position in the White 
House to perhaps having the National Space Council revived 
where there is a policy focus on the concerns that we have 
about our space flight gap, as well as the ability to use the 
Space Station for basic research, which was a function of 
Senator Nelson's and my authorization of NASA that we did 
designate a part of the Space Station as a national laboratory 
so that there could be more research influx from outside 
agencies, which has begun to occur. But if we cannot get there, 
it is going to be hard to fulfill those missions.
    Dr. Holdren, will you make NASA and science in space a 
priority, and do you have any thoughts about the National Space 
Council being a part of the White House to look at the overall 
focus of NASA?
    Dr. Holdren. Thank you very much. The short answer to the 
second question is yes. It is a priority, and we have been 
looking at what the best way to resurrect the National Space 
Council in the White House would be. I think that is going to 
happen.
    And there is no question that the gap in our capacity to 
put people in space is a matter of great concern with the 
Shuttle program coming to an end and its successor program not 
yet ready. We are looking at that very carefully, and I would 
look forward to working with you and Senator Nelson and the 
other members of this committee on how we can shrink that gap. 
It is going to be a great challenge, of course, particularly in 
these difficult budget times, but we are committed to figuring 
that problem out because it is very important.
    On your first question about fundamental research, again I 
completely agree that we need to pay very careful attention to 
the adequacy of our support for fundamental research in this 
country. That fundamental research is primarily the 
responsibility of Government simply because when you are 
talking about high-risk, high-pay-off, long-term kinds of 
investigations where the immediate benefits are not so obvious, 
nobody but the Government is going to invest the sums of money 
needed to get that done. And at the same time, it is relatively 
cheap compared to many other things that we do.
    The America COMPETES Act, which really emerged in part from 
the report you mentioned, ``Rising Above the Gathering Storm,'' 
embodied the recommendation of that report that research at the 
NSF, at the National Institute of Standards and Technology, and 
in the DOE Office of Science should be ramped up at a rate that 
would double it in 7 years. And that was authorized in the 
America COMPETES Act. I think it is a good idea. I think we 
will pursue very vigorously every way at our disposal to try to 
see that that happens, although again it will be a huge 
challenge in the current budget environment.
    Senator Hutchison. Let me just say--and I do have a 
question for Dr. Lubchenco--that I would add NASA in there as 
well for the capabilities to use the Space Station and other 
areas of basic scientific research that can be done best in 
space, as you are prioritizing.
    The other issue that I have--for the past two Congresses, I 
have introduced legislation to increase weather modification 
and mitigation research. My original bill was to put it in NOAA 
because I thought that would be the better place for it. I did 
not get anywhere, and it was suggested that perhaps we should 
put it in the White House to be in the science office, the 
OSTP. And it died there as well.
    My question to you is--I really think it should be in NOAA 
with support from OSTP, but here is my question. You talk about 
climate change research. There are today 14 agencies of the 
Federal Government overlooking, overseeing, and promoting 
research into climate change, which clearly means there is no 
focus and no strategy that has really brought us into what I 
think is a cohesive policy.
    But mitigation and modification has really not come to the 
forefront, and with the violence in weather that we see, which 
has certainly hit my State, has hit Senator Martinez and 
Senator Nelson's State very hard--we just saw it in Oklahoma 
last week--I believe it is time for us to step back and say is 
there something that we are doing that is making a difference 
in this violence of weather or is there something we could do 
that would affect it, either pro or con.
    For instance, is there something that could be done to 
lessen the impact of a hurricane when it is still out in the 
far miles of the ocean away from land, or is there something 
that could be done in tornadoes, or is there something that is 
happening when we actually do weather modification in cloud 
seeding in one area that makes an avalanche occur in another 
area?
    I do not know the answers, and I do not know if it is 
positive or negative. But it seems to me that if we are going 
to look at climate change, weather mitigation and/or 
modification should also be something that we try to do 
research on to determine if there is something that can be done 
or if something is done in one place, would it affect another 
place.
    And I would ask both of you to address if you think this is 
worthy, where you think it would most likely reside, and would 
either of you be willing to help work on something that would 
move this priority up in the climate change arena as well.
    Dr. Holdren. Let me take a first crack at that, and then I 
will turn it over to my colleague.
    People have for years been studying the possibilities for 
weather modification, not just rain enhancement, but trying to 
ameliorate the power of the most powerful storms. It is an 
immense challenge because the power of nature manifested in 
these ways is enormous and it is difficult to influence or 
steer it. But I believe that such work needs to continue. It 
would need to continue even if we did not have reason to be 
concerned about human influences on large and powerful storms 
because even before human influences, we all know those storms 
can do tremendous damage.
    So I think it is a worthy area of further research. I think 
it should be expanded, along with many other things that need 
to be expanded in our study of weather and climate.
    You mentioned 14 agencies. We have in the Global Change 
Research Program, authorized in the Global Change Research Act 
of 1990, a framework for integrating the efforts in those 14 
agencies and to making sure that important issues do not fall 
between the chairs and that, at the same time, unnecessary 
duplication is eliminated. I think that Act is in need of 
updating and expansion by the Congress, and there have been 
bills in both the Senate and the House that contain a lot of 
the needed ingredients, and I would very much want to work with 
this committee and others to make sure that that gets done.
    I think that the weather modification issue that you are 
interested in would be something that could well be pursued in 
NOAA. There may be other agencies that are interested in it. 
From OSTP's standpoint, I would certainly want to be involved 
in the coordination that makes sure that the important research 
that needs to be done gets done in the place best suited to do 
it.
    Dr. Lubchenco. Senator, part of your question alluded to 
the importance of weather forecasting, and I would note that 
fully a third of the U.S. GDP is dependent on accurate weather 
forecasting and that our ability to do that is, in fact, the 
product of lots of research in the past and ongoing research to 
make it even better and better.
    I agree with you completely that it is appropriate to go 
beyond simple forecasting and to do the fundamental research 
that is appropriate to help us understand if it is possible 
and, if so, how to modify the impact of some of these weather-
related disasters but also to guide our understanding of 
mitigation and adaptation efforts. I am a strong believer in 
the importance of fundamental research to help do the kinds of 
things that are needed by society.
    As to where it best fits, I cannot give you that answer 
now, but I would be willing to work with you, if I am 
confirmed, and with my colleague, Dr. Holdren, and try to 
figure this out.
    Senator Hutchison. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much to the Ranking Member.
    Senator Isakson will be followed by Senator Nelson, Senator 
Martinez, and Senator Begich. Senator Isakson?

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you very much, Mr. Chairman.
    I have to say of all the nominees by the President for his 
Cabinet or for White House appointments that I have 
interviewed, Dr. Lubchenco is the most engaging and qualified. 
And I had a delightful meeting with her, and I have absolutely 
no questions of her because with all the ones I asked her 
yesterday she was spot-on.
    But Dr. Holdren, who I am sorry I did not get the chance to 
meet with, in your opening statement made a statement that hits 
at the heart of the discussion we had yesterday, Dr. Lubchenco.
    In fact, Dr. Lubchenco and I are going to do a scuba diving 
trip in the spring. We both share that affinity, among other 
things.
    Dr. Holdren, when you were talking about the two strands 
that dictate policy and science and technology, you said the 
following: ``meaning the use of insights from science and 
engineering in the formation of those parts of economic, 
defense, space, health, environmental policy, agricultural 
policy, and so on, where such insights are needed to help shape 
sensible policies.''
    My question yesterday of Dr. Lubchenco was: in the Savannah 
River basin between Georgia and South Carolina, we are in a 
category 4 drought, as are we in the ACT and the ACF. In the 
ACT and the ACF, there is litigation that is dictating water 
flows, but in the Savannah River basin, it is being done by the 
Corps of Engineers outside of litigation.
    Recently the cfs flow was increased by 500 cfs out of Lakes 
Hardwell and Thurmond into the Savannah River in order to raise 
the level so as to protect a sturgeon. And this is not an 
endangered species suit. NOAA was asked to opine as to what the 
release should be and they did, and in reading it, it appeared 
to fit more of an insight than evidence.
    So my question to you is this. Given that water is so 
essential to the life of human beings and so essential to our 
well-being and given that there are many policies 
agriculturally, environmentally, and otherwise, where NOAA or 
scientists are asked to opine to determine what those releases 
are, should that not be best based on scientific evidence 
rather than insight?
    Dr. Holdren. I guess that is a question to me or to both of 
us?
    Senator Isakson. It is kind of a speech. I am sorry about 
that. But it is really important because we are so concerned 
that opinions overtake facts, and the next thing you know you 
are making decisions based on an insight but not really sound 
scientific evidence.
    Dr. Holdren. Well, again I would say the short answer is 
yes. We, of course, would want to base policies where science 
is germane on the best scientific understanding that can be 
brought to bear, and in circumstances where that does not 
happen because of lack of coordination among different 
agencies, because perhaps one has gotten advice from a place 
that did not have the best current understanding, we need to 
work on fixing that. But there is no question, I think, that 
everybody who pays attention to the intersection of science and 
public policy wants that communication between science and 
policy to be communicating the best understandings that we 
have.
    Senator Isakson. Well, I appreciate that answer, which is 
very much similar to the answer that Dr. Lubchenco gave me 
yesterday. And I look forward to working with you and with NOAA 
when we deal with these issues that affect my State or really 
our region, because most all these are interstate issues not 
intrastate issues, to make sure we are always getting the best 
scientific evidence we can to dictate the right policy that 
affects the people we represent.
    But I wish you the best and I look forward to our scuba 
diving trip, Dr. Lubchenco.
    Dr. Lubchenco. Thank you, Senator.
    Senator Isakson. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Isakson.
    Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Picking up on the Ranking Member's 
questions--and by the way, Mr. Chairman, I am really excited to 
be the chairman of the Science and Space Subcommittee. I am 
going to try to do you a good job.
    I am really very excited about the quality of nominees that 
we have in front of us, and I am very heartened by their 
answers.
    Now, just following up on Senator Hutchison's comments 
about changing weather, we might not be able to change weather, 
but we can sure try to track weather and more accurately 
measure it.
    Dr. Lubchenco, you and I have talked about the need for 
enhanced cooperation between NASA and NOAA, the earth-observing 
satellites, NPOES and GOES-R. And that is a big order because 
those two agencies have not necessarily cooperated in the past. 
Do you want to comment for the record on that?
    Dr. Lubchenco. Senator, I believe that both NOAA and NASA 
intend to have the best possible relationships. I think we can 
always improve on relationships. As you are aware, there is a 
third entity involved in these satellites, and that is the 
Department of Defense. It is my opinion that some of the 
difficulties that we have gotten into, in terms of the two 
satellite programs you mentioned, are partly a reflection of 
the tripartite arrangement among those three agencies that has 
not worked to the extent that it needs to. I think that is an 
embarrassment. I think it needs to be fixed, and one of my 
highest priorities is to work with my colleagues, if I am 
confirmed, in those agencies, and with the Office of Science 
and Technology Policy, and with you to fix this problem and put 
it behind us.
    Senator Nelson. I have the privilege of chairing that 
Subcommittee in the Armed Services Committee as well, and I 
want to work with you on that to see if we can smooth this out.
    Now, Dr. Holdren, I was really very heartened to hear your 
response to Senator Hutchison about the National Space Council. 
Just for the record, I want it established that then-candidate 
Obama clearly came out and stated that he wanted to reactivate 
the National Space Council within the White House. Do you want 
to say any more for the record here about that in addition to 
what you have said to Senator Hutchison?
    Dr. Holdren. Well, I am certainly happy to reiterate that 
the President remains committed to that pledge. And as I 
mentioned before, we are in discussion about the best way to do 
it, but I have no doubt that it is going to happen.
    Senator Nelson. Well, that is great because one of the 
failings in the past--and not just with this immediate past 
Administration, but previous ones--is that NASA becomes the 
handmaiden of the Office of Management and Budget. And that is 
not the way to set policy by having some green eyeshade person 
over there determining what the policy is, whether we are 
talking about NASA or NOAA or whatever it is. But that is the 
way it has been in the past and, therefore, another reason at 
the high councils of high Government policymaking to have such 
a council right within the White House.
    You are going to have four associate directors. Do you want 
to tell us quickly what those are going to be?
    Dr. Holdren. Certainly, Senator. The four will be the same 
four Senate-confirmed associate director positions that existed 
in the Clinton administration. There will be an associate 
director for science, an associate director for technology, an 
associate director for environment, and an associate director 
for national security and international affairs.
    Senator Nelson. And how are you going to coordinate with 
others that get into energy and climate change policies, such 
as Carol Browner, Dr. Chu, Nancy Sutley, as well as the NOAA 
Administrator?
    Dr. Holdren. The first thing I would say about that is that 
the job of OSTP has always been about coordination. All of 
these issues are issues that get pursued in multiple agencies 
inside and outside the White House and are dealt with by 
multiple Congressional committees. So I regard one of the 
primary challenges and one of the primary functions of OSTP to 
be building the relationships that enable those interactions to 
work in a collaborative and efficient way. I think the people 
who have been named to the other positions you have mentioned 
in the energy domain are people of very high caliber. They are 
also people that I happen to have known and worked with for a 
long time. I have known and worked with Dr. Lubchenco for a 
long time. And I think as a result, in part, of the long-
standing collegial relationships which we have in this set of 
people, we are actually going to be able to work this very 
well.
    Senator Nelson. By the way, Dr. Lubchenco, also in 
accurately measuring the weather: that also directly affects 
NOAA in having the assets that it needs in space to measure the 
weather and preventing a potential problem of the increased 
accuracy. This is a problem that we now have on the paths of 
hurricanes on that single-point failure: if the G-4 airplane is 
down for maintenance or because of an accident, there is an 
issue of having some backup there.
    I want to ask you. You said at the end of your statement, 
Dr. Lubchenco, that you want to create a National Climate 
Service within NOAA. How is that organization going to interact 
and affect NASA's earth science programs?
    Dr. Lubchenco. Senator, the vision for the National Climate 
Service would be a collaboration across a number of relevant 
agencies. NOAA currently has a wealth of climate data. It has 
deep experience in assembling those data and putting them into 
models that help us understand how the climate system works. 
And we are at a point now where we are able to do short-term 
forecasting of climate-related events like El Ninos, for 
example, that have huge consequences for weather patterns 
around the world. The concept is to build on the very 
successful model of the National Weather Service and to do the 
same for climate services, but it clearly is an operation that 
would interact, in a very collaborative, collegial fashion, 
with a number of other agencies that have information or need 
of those kinds of data.
    Senator Nelson. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson.
    Senator Martinez?

                STATEMENT OF HON. MEL MARTINEZ, 
                   U.S. SENATOR FROM FLORIDA

    Senator Martinez. Mr. Chairman, thank you very much, and 
let me tell you it is a real pleasure to join the Committee and 
I look forward to working with you and the other members of the 
Committee on issues that are vitally important to our Nation 
and the world.
    The Chairman. We are glad you are here.
    Senator Martinez. Thank you.
    I wanted to offer to Dr. Lubchenco and Senator Isakson the 
opportunity to do their scuba diving trip in the Florida Keys 
where I think you will find an incredible natural resource in 
our marine sanctuary, as well as at the Dry Tortugas where the 
NOAA people do a fantastic job of keeping an eye on that 
valuable resource as well. So anyway, come down to Florida. I 
will be glad to host you. I am sure Senator Nelson would join 
me in that.
    For the last two Congresses, I have been working with 
others in trying to advance legislation that would promote a 
national hurricane research initiative to improve the 
understanding of hurricanes, as well as the forecasting and 
preparedness. This came from a recommendation, a report by the 
National Science Board, which I would commend to your reading. 
It would marshal the resources of various Government agencies 
and research universities and private sector partners to 
improve knowledge of hurricane intensity, storm surges, and 
observation.
    The whole concept is that if we know better not only that 
it is coming next Tuesday but how strong it is going to be or 
what the surge with it is going to be, because oftentimes we 
find that much of the damage, as we know in my colleague, 
Senator Vitter's State in New Orleans, is the sea surge that 
sometimes does the greater damage, not the wind damage.
    Would you commit to improving, Dr. Lubchenco, our ability 
to do the research and perhaps to encourage this type of 
legislation that would give you the ability to do better 
forecasting on hurricanes?
    Dr. Lubchenco. Senator, first of all, thank you for 
mentioning the wonderful work that NOAA scientists and 
employees have been doing in the Florida Keys National Marine 
Sanctuary, and the Dry Tortugas, in particular. It is a 
remarkable accomplishment. And a real credit to everyone who 
has been involved. So thank you for recognizing their hard work 
and their wonderful accomplishments.
    I think that we have seen the benefits of research into 
hurricane forecasting, and I note the remarkable improvements 
that have been accomplished over the last couple of decades in 
terms of our ability to predict hurricanes and thereby save 
many thousands of lives, as well as avoided evacuations. We 
have seen the power of investment in fundamental research that 
has brought about those increases. I believe there is more 
benefit to come from that, and I would agree with you 
wholeheartedly that additional research into improved 
forecasting, not just for the path of hurricanes, but for storm 
surge and the other consequences that can be very damaging 
would be a smart investment.
    Senator Martinez. We need to work on mitigation efforts as 
it relates to hurricanes because I think the damage could be 
greatly reduced if we do the right preparation.
    And while passing accolades, I think the National Hurricane 
Center in Miami, by the way--those folks do a tremendous job. 
They are very dedicated people. There are certain times of the 
year when those of us who live in vulnerable areas like Florida 
stay pretty much glued to what they have to say. So it is very, 
very important work as well.
    We have had some issues in Florida relating to fishing 
quotas, and it is an area where sometimes a lot of controversy 
arises because sometimes the research does not match up with 
what the experience seems to be on the field, if you will. It 
is an area where I hope perhaps you will attempt to put some 
common sense into the science to ensure that we are doing what 
is really best.
    We want to protect our fisheries. We want to protect the 
resources. We want to protect the different species, but at the 
same time, a lot of people depend on fishing for a livelihood 
whether it is related to commercial fishing or simply tourism 
and enjoyment. And we have run into some conflict there over 
the recent days, and I wanted to highlight that to you and 
commend it for some analysis and study on your part.
    I do not know that I want to take sides on that because I 
am not a scientist, and I know I want the resources there for 
my grandchildren, but I also want to make sure that when I hear 
complaints that sometimes seem to be based on common sense that 
we are not putting the practical aspects of this ahead of what 
might be on a scientific notional basis wrong. So I am not so 
sure that is a question, more of a comment.
    With respect to the National Climate Service, having been 
in the Executive Branch, there is a certain reality, and I do 
not know how one frees themselves from the clutches of OMB. If 
you can pull it off in this Administration, you have my 
congratulations. I never could manage that at HUD during the 
time that I was there, but I wish you well in that to both of 
you.
    But the reality is that when you look at initiating 
something like a national climate service, what is going to 
suffer or what is going to be--in other words, how do we make 
that work? I can understand that, but I do not want it to be at 
the expense of the other work that is so very important that we 
are doing with weather today. So can you maybe comment on that 
and how you intend to approach it?
    Dr. Lubchenco. Senator, I have not yet had an opportunity 
to dig deeply into all of the thinking that has been done about 
the National Climate Service. I think that it is a very 
compelling concept. The information that I have seen is, I 
think, suggestive that there is real opportunity here. What the 
trade-offs would be and exactly how it would organized is yet 
to be defined. I would look forward to working with the other 
relevant agencies and with this committee in helping to outline 
what that looks like.
    Senator Martinez. And Dr. Holdren, in the moment I have 
remaining, I just wanted to tell you that I worked with a 
number of other colleagues here on the America COMPETES Act, 
and I think it is a terribly important initiative. I hope that 
you will give it the necessary passion and interest. I believe 
that our competitiveness vis-a-vis the world is one of our real 
upcoming challenges which goes beyond climate and other issues, 
but it really has to do with human capital.
    I have been involved also on the issues relating to 
immigration, and I think as we look forward to some sort of 
sensible immigration policy for the future of this country, 
that we also should look to human capital and how we can 
utilize the immigration laws--sensible immigration reform that 
our country so desperately needs--to ensure that we are not 
just utilizing it as a means of promoting family reunification, 
but we also view it as a way of improving our competitiveness 
in the world and as a natural resource in terms of human 
capital.
    Dr. Holdren. Well, I agree with all of that, Senator, and I 
would certainly, if confirmed by the Senate, be giving a lot of 
attention to making sure that the America COMPETES Act is 
appropriately pursued across the many agencies that it affects.
    Senator Martinez. Thank you very much, both of you, and 
thank you for serving and thank you to your families.
    The Chairman. Thank you, Senator Martinez.
    Senator Begich?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you, Mr. Chairman, and thank you for 
allowing me to shift up here. I appreciate it. I do not know 
if, because I had no microphones there, there was a purpose.
    [Laughter.]
    Senator Begich. After 8 weeks, they have figured it out 
that they do not want me to say too much. But no, Mr. Chairman, 
thank you. It is great to be on this committee.
    And we have two very good nominees here, based on the 
information I have read. I have some very parochial questions. 
Of course, from Alaska, we would. And then I have some general 
questions based on your testimony, which I want to follow up.
    Dr. Lubchenco, we had a great conversation. I think it was 
yesterday. I have lost track of time here. No day is the same 
anymore here. But I want to get specific on a couple things, 
and a couple of the issues are, again, very parochial.
    But in regards to fish farming, Alaska has banned fish 
farming. We now produce--about 62 percent of the landed seafood 
stock in this country comes from Alaska. And I think we have 
probably the best managed fisheries in this country just by the 
way we do it and it is solely--or I should say, probably 95 
percent based on science. Sometimes other issues get connected 
to it, and I think that is what has made us successful in how 
we have managed the efforts of Alaska's seafood that feeds this 
world in a lot of ways.
    Can you give me your thoughts and opinions in regards to 
support or, I would hope the next statement would be the more 
logical one, no support of aquaculture in Federal waters? 
Farming.
    Dr. Lubchenco. Senator, I understand that there are very 
real and legitimate questions that have been raised about 
offshore aquaculture. It is my view that aquaculture, wherever 
it is practiced, is a very key element of our food production 
systems and that certain types of aquaculture are much more 
benign in terms of their potential impact on the environment. I 
believe that there needs to be scientifically grounded 
information about how to achieve aquaculture that is 
sustainable, in other words, without adversely impacting the 
local or regional environment and without having negative 
consequences on wild-caught fisheries.
    I do not believe that we have identified the right 
conditions under which aquaculture is sustainable. I would make 
that a priority if I were confirmed. Those statements pertain 
to aquaculture in general, and as you are well aware, there are 
more than 220 species that are farmed by aquaculture and each 
one has different issues and where it happens is critically 
important.
    So I am not prepared to put offshore aquaculture off the 
table at this point. I do believe that we should not move ahead 
in doing that at scale until we are convinced that, in fact, it 
can be done in a way that is not damaging.
    Senator Begich. Let me do additional follow up to that with 
respect to specifically Alaska, where the Alaska community has 
made a position to ban it. With waters off the shores of 
Alaska, with respect and understanding to where Alaska is and 
the communities--and there is no question in my mind we have 
the most sustainable fisheries in this country. So how would 
you look at Alaska and their aspects of what they have done in 
making that determination or that decision?
    Dr. Lubchenco. Senator, I have great respect for the 
positions that Alaska has taken on this issue, and I believe 
that this is actually an opportunity to have a productive 
Federal-State dialogue about practices in either State waters 
that affect Federal waters or Federal waters that affect State 
waters and to come to an agreement about what actually is going 
to work for all of the species that, in fact, go back and forth 
across State and Federal waters. We need to think about this 
more holistically and this is a prime opportunity to do that.
    Senator Begich. Excellent.
    One other question. I think in the past you have been on 
record at least with previous administrations utilizing the 
Antiquities Act to close large areas in the Pacific area. And 
it is not required that there be a NEPA or that even 
stakeholders are part of the process.
    How do you see your role here now? Because when you are on 
this side of the equation, it is a little different. And how do 
you see ensuring that there is a process clearly with 
stakeholders and a NEPA-like or a NEPA process to ensure that 
there is a good scientific evidence that is on the table?
    Dr. Lubchenco. Thank you for that question, Senator. I have 
seen firsthand scientific information that suggests that marine 
protected areas and no-take marine reserves can, in fact, bring 
huge benefit both in terms of protecting natural resources and 
in some cases in helping to restore depleted fisheries.
    More to the point, though, is the process by which 
decisions are made to utilize this particular tool. It is my 
belief that the best processes and ones for which decisions 
will be respected and endure are processes that involve strong 
stakeholder input, public participation, and open and 
transparent decisionmaking, much as what is embodied in the 
National Marine Sanctuaries Act. So my commitment, should I be 
confirmed as Administrator of NOAA, would be to ensure that we 
do have an adequate public process that is open and 
transparent.
    Senator Begich. Thank you very much, Doctor.
    I have just a couple seconds. Dr. Holdren, I did not want 
to feel like you were left out. So I am going to give you some 
questions in writing. I do not know if there will be a second 
round or not, but I will do that.
    The Chairman. There will be a second round.
    Senator Begich. Then I will hold my question for you. Thank 
you.
    The Chairman. I should announce, incidentally, before I 
call on Senator Snowe, that both Senator Hutchison and I read 
the FBI checks on these two distinguished folks, and it is some 
of the easiest reading I have ever been through.
    [Laughter.]
    The Chairman. Senator Snowe?

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman. And I want to 
welcome our two distinguished witnesses, both of whom are 
steeped in peer-based, sound science which we certainly welcome 
because so much of the credible science is going to dictate 
some crucial policies in your respective fields and jointly 
when it comes to climate change. So the expertise and 
experience and background and qualifications that you both 
bring to that endeavor is certainly going to be helpful to 
those of us as policymakers and especially in some very 
contentious debates.
    Dr. Holdren, I have worked with you on the International 
Panel on Climate Change, which I co-chaired with the Honorable 
Stephen Byers, a member of Parliament in the United Kingdom, 
and you contributed so much and worked so hard on the 10 
recommendations that were provided back in 2005 that actually 
are more relevant than ever at a time when we are trying to 
establish, I think, some advisory guidelines for the developed 
and the developing countries, especially those countries like 
the United States and China and India outside the Kyoto 
Protocol.
    Obviously, in considering the debate on climate change and 
determining what is going to be our policy, what is going to 
dictate the level of emissions reductions in climate change 
legislation that will be debated before the Congress obviously 
is to avert the tipping point of raising the earth's 
temperature. And we are about what? 350 parts per million at 
this point. What are you going to be advising the President in 
this regard? Because, obviously, it can make a difference by 
2050 whether we are reducing carbon dioxide emissions by 50 
percent, 65 percent, 70 or 80 percent.
    Dr. Holdren. Well, thank you, Senator. We are at about 385 
parts per million of carbon dioxide today in the atmosphere. 
There is, as you know, a complicated relationship between what 
the emissions are and what the concentrations ultimately 
become.
    The President has taken the position--took the position 
very strongly in the campaign--that the United States should be 
aiming to reduce its emissions by something like 80 percent by 
2050. That would be compatible with a global strategy that 
would have a reasonable chance of confining the global average 
surface temperature increase to about 2 degrees Celsius, or 3.6 
degrees Fahrenheit. And that, in turn, I think would give us a 
reasonable chance of avoiding some of the worst possible 
outcomes from climate change. I believe the President remains 
committed to that goal.
    Obviously, it will be a great challenge to get there, but I 
will point out that there will also be tremendous opportunities 
associated with getting there in terms of the kinds of 
innovation in clean energy and increased energy efficiency that 
will create jobs and enable this country to maintain and 
improve its competitive position.
    The issue, of course, as you have mentioned, does involve 
other countries as well. It is not possible for the United 
States to address this question by itself. We will need to 
bring China and India and the other major developing countries, 
as well as the other industrialized countries, along in this 
process of reducing emissions. I am actually quite optimistic 
about that, and I know the President is, in part because the 
major developing country emitters like China and India have 
recognized that climate change is already harming them and it 
cannot be fixed without them. So I think we are going to see a 
process of engagement with those big emitters in the developing 
world, as well as with our industrial country partners.
    Senator Snowe. So you do not see any need at this point to 
make any adjustments on that recommendation.
    Dr. Holdren. The whole question of exactly how to construct 
our intersecting energy and climate policies going forward is, 
obviously, going to be a question intensely discussed and 
interacted about between the Administration and the Congress. 
You know, I think at this point the President has laid out his 
general aims, and he will be interested in pursuing those.
    But there is no question that this is a complicated domain 
in which there is going to be a lot of discussion. A lot of 
different provisions, a lot of different approaches will be 
discussed. The Congress is clearly going to have a tremendous 
role to play in this, and of course, we are looking forward to 
your leadership, among others, because you have been a leader 
in this domain in the Senate and in the world.
    But it is going be a long slog. I do not want to kid 
anybody. This is going to be tough to fashion the policies that 
will get us and the rest of the world to where we should want 
to be in order to minimize the risks of climate change of a 
magnitude that we would have difficulty dealing with.
    Senator Snowe. I appreciate that.
    Dr. Lubchenco, we talked in our office the other day on a 
number of issues and most notably as well on the fisheries. And 
I expressed to you at the time my deep concern about the 
tremendous divide and polarization that exists between our 
fishing communities and the men and women in the fishing 
industry in New England and certainly in the State of Maine and 
the administrators and regulators. I have never seen it more 
polarized in my 13 years that I have served in a leadership 
capacity on the Subcommittee on Oceans and Fisheries, both as 
Chair and as Ranking Member.
    And most recently with the groundfish industry and the 
interim rule that was just recently announced that essentially 
reduces the days at sea by 60 percent to 20 days, that is about 
3 weeks to make a living in the groundfishing industry. It is 
devastating, obviously, as I have indicated to you, 
particularly because the New England Fisheries Council in a 15 
to 1 decision favored an alternative, and it totally dismissed 
the decisions made by all 15, and the 1 was, of course, the 
Regional Administrator who dismissed the recommendation. So 
here we are with 20 days at sea.
    What bold steps will you take to repair this relationship? 
Because it clearly needs to be repaired. There is a lack of 
trust, rightfully so, given the arbitrariness of the regulatory 
process and regulators that have totally ignored and dismissed 
and overridden the concerns of the fishing community. They are 
going to be devastated. We need to preserve the fish and the 
fishing stock and we also need to preserve the communities.
    Dr. Lubchenco. Senator, I believe it is time to create a 
new climate of trust--to have trust in the data, to have trust 
in the process, and to have trust in the diverse points of 
view. I agree with you completely that the polarization has 
really permeated and poisoned all of the discussions. It 
appears to be a seriously dysfunctional relationship.
    I would pledge to make every attempt to try to begin to 
rebuild the trust. I have seen a number of programs where 
scientists and fishermen together are taking the data that they 
can both believe in and both rely upon to serve as a basis for 
having a reasonable discussion about making what are inevitably 
some very tough choices. There are not easy choices here. And 
it is often a choice between today and tomorrow.
    We have seen the strong benefit of rebuilding stocks. The 
12 stocks that have been rebuilt since 2001 now bring in over 
$2 billion into our economy. Yet jobs today are critically 
important, even more so than they might have been even just a 
few years ago.
    So there are, indeed, difficult decisions and difficult 
choices. Those choices will be no less difficult but more 
acceptable if there is a better climate of trust, and I would 
pledge to work with you to try to begin to build that and 
change the tenor of the discussion and the responses to the 
decisions.
    Senator Snowe. I very much appreciate that, and I thank you 
both. Thank you.
    The Chairman. Thank you, Senator Snowe.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman, and I 
look forward to working hard on the issues before this 
committee facing this Congress. I want to thank you for your 
leadership. I know there is a lot to do from the 
reauthorization of the FAA to the digital TV transition, to 
helping our captive shippers, something that I know you care a 
lot about. And I am very much looking forward to it.
    I want to thank you also for the Subcommittee Chairmanship. 
I look forward to chairing the Subcommittee on Competitiveness, 
Innovation, and Export Promotion. We are going to have a busy 
agenda.
    And I also welcome our two nominees here. I note, Dr. 
Lubchenco, that everyone keeps inviting you to go scuba diving 
off the coast of Florida and other places. I could only invite 
you to go scuba diving in Lake Superior, which would be 
slightly chilly.
    In fact, you may have heard I, for 2 years, served on the 
Oceans Subcommittee being the only non-ocean Senator on there, 
but Lake Superior is very important, and the Great Lakes, to 
that Subcommittee as well. And the economic and environmental 
challenges to our Great Lakes continue to mount on a daily 
basis, from the depletion of commercial fishing, something 
Senator Snowe mentioned off the coast of Maine, to health 
concerns posed by contaminated seafood, to the local effects of 
global climate change.
    We have issues with Lake Superior. We have had some 
decreasing water levels that many believe may be due to climate 
change. They got up slightly last year, but overall they have 
been at an all-time low and it is believed that is because the 
ice has melted more quickly. So the water levels have gone down 
and our barges are having trouble getting in and it is less 
economical for commerce.
    Up in Duluth, we have had many invasive species that are 
decimating the lake's ecosystems and damaging with both 
commercial and recreational activities. And the harbor and open 
water infrastructure that used to manage these problems 
continues to deteriorate with age, something I am sure you will 
hear about as well from Congressman Oberstar over on the House 
side.
    I believe the work of NOAA's Great Lakes Environmental 
Research Laboratory is essential to properly sustain the Great 
Lakes' ecosystems. And I wondered your views about addressing 
the ongoing environmental initiatives being handled by the 
Great Lakes laboratory.
    Dr. Lubchenco. Thank you, Senator. I embrace the challenge 
of coming up to speed on many of the issues in the Great Lakes 
because, of course, I am less familiar with those. Because I 
have not been at NOAA, I have not had an opportunity to be 
briefed on all of the work of that laboratory. I am aware of a 
number of colleagues who work in that laboratory and have great 
respect for the work that they do, but I do not pretend to know 
it in any great depth. I would, if confirmed, look forward to 
learning a lot more about it and working closely with you to 
make it be the best it can be.
    Senator Klobuchar. Well, thank you.
    And you also indicated your support for the creation of a 
National Climate Service within NOAA. And I also hope that you 
will consider the Great Lakes as part of that as well.
    Dr. Lubchenco. Absolutely, Senator.
    Senator Klobuchar. OK, very good. As I noted, we really 
have seen a lot of changes because of the climate change issue, 
and they are very different than the sea levels rising. We have 
seen the waters going down.
    The invasive species issue is something this Committee has 
grappled with, and we would really like to do more on that. And 
many of these species enter our waters through the ballast 
water discharged by ocean-faring vessels as they enter U.S. 
ports. Could you talk about that issue and if you have 
considered that? We have had some disputes about getting this 
done, and I really believe we need to be pragmatic and get 
something done on the ballast water issue.
    Dr. Lubchenco. Senator, we have seen huge increases in the 
number of invasive species around the United States and, 
indeed, globally. As you are well aware, there is strong 
evidence that many of those species are introduced through 
ballast water being transported from one country to another or 
one part of a country to another part.
    This is an area where I believe there are opportunities for 
research to help understand how to better treat ballast water. 
There are existing techniques that involve exchange of ballast 
water mid-ocean, so if a vessel is coming from, let us say, 
Europe over to the Great Lakes, to discharge its ballast in the 
middle of the Atlantic and take in oceanic water that is less 
likely to have invasive species for coastal areas, Great Lakes 
areas. Those techniques incur some cost and under bad weather 
conditions can, in fact, be a risk in terms of safety. So they 
are not perfect.
    I believe that there is ample opportunity to do a better 
job of recognizing the destabilizing impact of these invasive 
species and the economic consequences of them much more broadly 
than is currently appreciated and make better progress in 
figuring out how to prevent them from becoming established to 
begin with. This is partly an area of research and partly an 
area where it is a matter of policy--just deciding how 
important it is to actually have the kinds of regulations that 
would make a difference in this area.
    Senator Klobuchar. Very good. Thank you. And I know with 
Senator Cantwell's leadership with the work that she has done 
with oceans, and the Chairman's leadership here, I am hopeful 
we will be able to get something done. As you know, there has 
been some pending legislation about ballast waters that has 
been sitting around for a while. I have only been here 2 years, 
but it seems like 2 years too long. So we hope to get something 
done.
    Dr. Lubchenco. Thank you.
    Senator Klobuchar. Thank you to both of you. 
Congratulations, Dr. Holdren. I hope with our Subcommittee on 
Innovation and Competitiveness, we will be able to work with 
you in the future as well. Thank you.
    The Chairman. Thank you, Senator Klobuchar.
    Senator Vitter?

                STATEMENT OF HON. DAVID VITTER, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman. Thanks to both of 
you for being here.
    Dr. Holdren, one of the lines from the President's 
inaugural address, which I most appreciated, was his comment 
about science and honoring that and not having it overtaken by 
ideology. My concern is that as one of his top science 
advisors, many statements you have made in the past do not meet 
that test, and so I wanted to explore that.
    One is from a 1971 article with Paul Ehrlich titled 
``Global Ecology'' in which you predicted that ``some form of 
eco-catastrophe, if not thermonuclear war, seems almost certain 
to overtake us before the end of the century.'' Do you think 
that was a responsible prediction?
    Dr. Holdren. Well, thank you, Senator, for that question.
    First of all, I guess I would say that one of the things I 
have learned in the intervening nearly 4 decades is that 
predictions about the future are difficult. That was a 
statement which at least at the age of 26 I had the good sense 
to hedge by saying ``almost certain.''
    The trends at the time were not positive either with 
respect to the dangers of thermonuclear war or with respect to 
ecological dangers of a wide variety of sorts. A lot of things 
were getting worse.
    I would argue that the motivation for looking at the 
downside possibilities, the possibilities that can go wrong if 
things continue in a bad direction, is to motivate people to 
change direction. That was my intention at the time. In many 
respects, there were changes in direction which reduced both 
the probability of nuclear war, in part through arms control 
agreements, and there were changes in direction in national and 
international policy with respect to environmental problems, 
including a good many laws passed by this Congress.
    Senator Vitter. Given all of that context, do you think 
that was a responsible prediction at the time?
    Dr. Holdren. Senator, with respect, I would want to 
distinguish between predictions and description of 
possibilities which we would like to avert, and I think it is 
responsible to call attention to the dangers that society faces 
so we will make the investments and make the changes needed to 
reduce those dangers.
    Senator Vitter. Well, I would call ``seems almost certain'' 
a prediction, but that is just a difference of opinion.
    Specifically, what science was that prediction based on?
    Dr. Holdren. Well, it was based in the ecological domain on 
a lot of science, on the evidence of the accumulation of 
persistent toxic substances in the body fat of organisms all 
around the planet, on the rise of the atmospheric 
concentrations of carbon dioxide, of sulfur oxides, of 
particulate matter, on trace metals accumulating in various 
parts of the environment in large quantities, the destruction 
of tropical forests at a great rate----
    Senator Vitter. Has all of that dramatically reversed so 
that this almost certainty has, obviously, been averted?
    Dr. Holdren. Some of it has reversed, and I am grateful for 
that. Again, I think it has been reversed in part because of 
sensible laws passed by the U.S. Congress signed by various 
Presidents.
    Some of it has not reversed. We continue to be on a 
perilous path with respect to climate change, and I think we 
need to do more work to get that one reversed as well.
    Senator Vitter. OK.
    Another statement. In 1986, you predicted that global 
warming could cause the deaths of 1 billion people by 2020. 
Would you stick to that statement today?
    Dr. Holdren. Well, again, I would not have called it a 
prediction then and I would not call it a prediction now. I 
think it is unlikely to happen, but it is----
    Senator Vitter. Do you think it could happen?
    Dr. Holdren. I think it could happen, and the way it could 
happen is climate crosses a tipping point in which a 
catastrophic degree of climate change has severe impacts on 
global agriculture. A lot of people depend on that.
    Senator Vitter. So you would stick to that statement?
    Dr. Holdren. I do not think it is likely. I think we should 
invest effort, considerable effort, to reduce the likelihood 
further.
    Senator Vitter. But you would stick to the statement that 
it could happen----
    Dr. Holdren. It could happen.
    Senator Vitter. One billion by 2020. OK.
    Dr. Holdren. It could.
    Senator Vitter. In 1973, you encouraged a ``decline in 
fertility to well below replacement'' in the United States 
because ``280 million in 2040 is likely to be too many.'' What 
would your number for the right population in the U.S. be 
today?
    Dr. Holdren. I no longer think it is productive, Senator, 
to focus on the optimum population for the United States. I do 
not think any of us know what the right answer is. When I wrote 
those lines in 1973, I was preoccupied with the fact that many 
problems the United States faced appeared to be being made more 
difficult by the rate of population growth that then prevailed. 
I think everyone who studies these matters understands that 
population growth brings some benefits and some liabilities. It 
is a tough question to determine which will prevail in a given 
time period.
    But I think the key thing today is that we need to work to 
improve the conditions that all of our citizens face 
economically, environmentally, and in other respects, and we 
need to aim for something that I have for years been calling 
sustainable prosperity.
    Senator Vitter. Well, since we are at 304 million, I am 
certainly heartened that you are not sticking to the 280 
million figure.
    But much more recently, namely a couple weeks ago in 
response to my written questions, you did say on this matter 
``balancing costs and benefits of population growth is a 
complex business, of course, and reasonable people can disagree 
about where it comes out.'' I will be quite honest with you. I 
am not concerned about where you or I might come out. I am 
scared to death that you think this is a proper function of 
Government, which is what that sentence clearly implies. Do you 
think determining optimal population is a proper role of 
Government?
    Dr. Holdren. No, Senator, I do not and I certainly did not 
intend that to be the implication of that sentence. The 
sentence means only what it says, which is that people who have 
thought about these matters come out in different places.
    I think the proper role of Government is to develop and 
deploy the policies with respect to economy, environment, and 
security that will ensure the well-being of the citizens we 
have. I also believe that many of those policies will have the 
effect and have had the effect in the past of lowering birth 
rates, because when you provide health care for women, 
opportunities for women, and education, people tend to have 
smaller families on average. And it ends up being easier to 
solve some of our other problems when that occurs.
    Senator Vitter. Final question. In 2006, obviously pretty 
recently, in an article, The War on Hot Air, you suggested that 
global sea levels could rise by 13 feet by the end of this 
century. Now, in contrast to that, the IPCC's 2007 report put 
their estimate at between 7 and 25 inches. So their top line 
was 25 inches, about 2 feet. What explains the disparity? Why 
is the IPCC 600 percent off in their top level assessment?
    Dr. Holdren. The disparity, Senator, is that the IPCC chose 
not to include in that numerical estimate the mechanisms by 
which the great ice sheets on Antarctica and Greenland could 
disintegrate very rapidly in a warming world. What they 
considered is the effect of----
    Senator Vitter. Do you think it was a mistake?
    Dr. Holdren. No, I do not say it was a mistake. In the 
IPCC's report, it says we are not going to include those rapid 
mechanisms because our models are not yet good enough to 
represent them quantitatively in terms of how much they could 
do by a particular year.
    My statement was based on articles in the journals of 
Science and Nature--peer-reviewed publications by some of the 
world's leading specialists in studying ice, who had concluded 
that twice in the last 19,000 years in natural warming periods 
of similar pace to the warming period that we are experiencing 
now in large part because of human activities, sea level went 
up by as much as 2 to 5 meters per century.
    The 2006 quote was not from an article I wrote. It was from 
an interview in which I was quoted, where I had mentioned that 
research which had indicated that those high rates were 
possible. And the IPCC did not refute that. It simply said our 
models cannot represent the phenomena that produce these high 
rates in the past, so we have produced an estimate that only 
includes some of the----
    Senator Vitter. So bottom line, do you think the better 
worst case estimate is 25 inches or 13 feet?
    Dr. Holdren. The newer analyses that have been done since 
the IPCC report came out indicate that the upper limit for the 
year 2100 is probably between 1 and 2 meters, and those are the 
numbers that I now quote because they are the latest science.
    Senator Vitter. So you would no longer quote 13 feet.
    Dr. Holdren. I would no longer quote 13 feet because newer 
science indicates that the upper limit is only about 6.5 feet.
    Senator Vitter. But going back to my first question.
    The Chairman. The Senator is almost at 10 minutes.
    Senator Vitter. Just a final followup. You would still 
say--I think you did--that 1 billion people lost by 2020 is 
still a possibility?
    Dr. Holdren. It is a possibility and one we should work 
energetically to avoid.
    Senator Vitter. Thank you, Mr. Chairman.
    The Chairman. Senator Cantwell, followed by Senator Warner.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. I too look 
forward to working with you in your capacity as Chairman of 
this Committee and working with you on the Oceans, Atmosphere, 
and Coast Guard Committee.
    And thank you to both of the nominees before us today. We 
appreciate your willingness to serve.
    I am sure my questions may be seen as a little more 
specific to the Pacific Northwest region, but I hope you will 
indulge me because I have many. And I will start with you, Dr. 
Lubchenco.
    Obviously, the Columbia River salmon biological opinion has 
come a long way, but not without a lot of court intervention. 
So I guess I would like to start with: do you think that poor 
management within the Government led to those court 
interventions and decisions? And what would you do to avoid 
that same--what would you change under NOAA to make sure that 
we do not end up in the courts again?
    Dr. Lubchenco. Senator, I think this has been one of the 
most challenging issues for the Pacific Northwest. I think the 
situation that we are in now is a result of a long history of 
finger-pointing at other drivers of change, both on the land 
side and the ocean side, and that there was a significant 
amount of time lost to denial of a problem and trying to blame 
it on someone else instead of moving on with achieving 
solutions.
    I have not had the benefit of briefings from NOAA's staff 
about the current state of play and would pledge to you to come 
up to speed on that, if I am confirmed, as soon as possible and 
to work with you to try to identify the ways that we can 
resolve these issues. I simply do not have enough information.
    Senator Cantwell. How confident are you, though, that you 
can keep us out of the courts by having a strong management 
response, as opposed to punting and then having the courts 
decide?
    Dr. Lubchenco. Obviously, it would be much better not to 
have to have it go to the courts, and I would make every effort 
to do that. I do not have enough information right now to know 
how possible that is.
    Senator Cantwell. I think what we will do is follow up with 
some specific questions on that then. So maybe it will give you 
a chance to become a little more familiar with it.
    A second issue which you and I have had a chance to talk 
about in my office is obviously the impact of hurricane-force 
winds off the coast of Washington, and we have had quite a bit 
of damage from this in the last couple of seasons. Obviously, 
we have a huge Doppler radar gap there. Do you agree that we 
need to solve this problem?
    Dr. Lubchenco. Absolutely, Senator, and it seems like it is 
one that is solvable.
    Senator Cantwell. So would you say that this would be 
solved under your tenure time?
    Dr. Lubchenco. I would anticipate working with you to solve 
that.
    Senator Cantwell. Do you think we can solve it within the 
next few years?
    Dr. Lubchenco. Senator, you are probably a better judge of 
that than I am, but I would----
    Senator Cantwell. I would hope your tenure time would be 
more than a few years.
    Dr. Lubchenco. I would like to solve this, and I would work 
with you to try to do that. I do not know how long it is going 
to take.
    Senator Cantwell. The Puget Sound Partnership is an 
innovative collaborative effort in the Northwest I think you 
are familiar with. It is an eco-based management approach to 
our fisheries and ecosystem and ocean governance. If confirmed, 
would you put resources toward this kind of effort in helping 
Puget Sound on its recovery plans?
    Dr. Lubchenco. Senator, I agree with you completely that 
this is a model partnership in part because it acknowledges the 
deep interactions between a variety of different sectors on the 
land side and how those activities affect the health and well-
being of Puget Sound and, therefore, the people in the Puget 
Sound area. I think it is a model that is eminently worthy of 
supporting and of emulating. I think it is a really nice 
partnership.
    The extent to which I would have resources available to 
contribute significantly I cannot judge at this time. Part of 
my challenge is that because I have only been a nominee, I have 
not been able to be at NOAA. I have not had briefings on issues 
in depth, including the budget. So I need to come up to speed 
on that before giving you a more definitive answer on that. But 
I do believe the partnership is extremely important and I would 
hope there would be opportunity to support it financially as 
well as verbally.
    Senator Cantwell. Let us try the southern resident orca 
population. Obviously, NOAA has already--basically it said that 
it believes that it can take this from an endangered species to 
a delisting of the species back to levels, they think, from 
maybe 28 years ago. So if confirmed, under your leadership, 
what kind of resources do you see dedicated to delisting that 
population?
    Dr. Lubchenco. Senator, I cannot answer the resources 
question. I can tell you that I think that this is something 
that is extremely important and I would make it a priority.
    Senator Cantwell. Do you think 28 years is a reasonable 
recovery time?
    Dr. Lubchenco. Senator, I assume that those numbers are 
partly a function of analyses based on the growth rates of the 
populations and the extent to which they are currently under 
stress. I have not looked at those analyses in depth but I 
would anticipate doing so and would be eager to do so.
    Senator Cantwell. I do not want to ignore Dr. Holdren. 
Maybe we can get him in on this question.
    Last year the Coast Guard Commandant testified before our 
Subcommittee that as far as resources, he thought that we had 
inadequate resources to respond to oil spills in the Arctic. 
And I want to know if either of you believe that our Government 
has the capability to effectively respond in the Arctic Ocean 
and what the Administration can promise us that we will be 
doing to better protect that area.
    Dr. Holdren. Well, Senator, I do think that we have been 
devoting inadequate resources to our ability to operate in the 
Arctic. I think we are down to two heavy icebreakers in the 
Coast Guard, both near the end of their operational life. That 
is a particularly serious problem for our capacity to operate 
in the Arctic in an era when other countries are expanding 
their activities there. The capacity to respond to oil spills 
is, in my judgment, also not adequate, and I think we are going 
to have to take a careful look at how to increase the resources 
available to the Coast Guard and the other relevant agencies so 
that we can do a better job in that important region. That is, 
again, something else that, if confirmed, I would certainly 
expect to be working with members of this Committee about.
    Senator Cantwell. Thank you very much. I see my time has 
expired, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    Senator Warner?

                STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here and welcome the nominees.
    One of the things I am still mastering--Dr. Holdren, maybe 
you can help me on a technology piece here--is as a freshman 
Senator how you appear at three different hearings that are 
scheduled simultaneously. I have not mastered that yet. So my 
apologies about missing the front part of the hearing.
    I do want to start with you, Dr. Holdren, though. One of 
the areas that I am very interested in that the President has 
proposed is the creation of a chief technology officer that I 
believe will be reporting to you. This is something we have 
done in the Commonwealth of Virginia. We elevated technology to 
a cabinet level position. We created a CIO. I think it was one 
of the things that led us to being named the best-managed State 
in the country.
    As you look at the CTO position, do you see it more as an 
internal function working with the CIO at OMB to bring about 
greater technology and efficiency inside the Federal 
Government, or do you see this as another kind of outreach 
officer to spur innovation across the broader technology 
community?
    Dr. Holdren. Well, thank you for that question. Because no 
CTO has been announced yet and certainly is not on board yet, 
it is a little difficult to talk in detail about the division 
of responsibilities. But I think the concept has been that the 
CIO in the Office of Management and Budget is basically a 
position focused on the use of information technology within 
the Government to improve the operations of the Government, to 
improve transparency, openness, efficiency, and so on, and the 
CTO position has been seen primarily as an outward-reaching 
position whose primary responsibilities are to see that we do a 
better job of exploiting not only information technology but 
opportunities in other domains of technology to feed into the 
economic recovery that we so badly need and to address the 
other major challenges that the country faces. I think the 
reason the President committed so early to creating a new CTO 
position, which the Government has never had, was to be able to 
better bring technology to bear on these big challenges for the 
whole society.
    Senator Warner. So you would envision this individual's 
scope being broader than IT and outward-looking.
    Dr. Holdren. Yes, absolutely.
    Senator Warner. How about, though, the role--I understand 
the CIO role, the CIO role mostly focusing on the IT space, but 
as you think beyond IT, how you bring technology functionality 
to internal workings of Government, would that be CTO or CIO?
    Dr. Holdren. Again, it is a little difficult to speculate 
in great detail because some of what these positions will be 
will depend on the characteristics of the people who occupy 
them, and that is, obviously, not yet settled. But I think 
across the domain of technology--information technology, 
communications technology, biotechnology, nanotechnology--
obviously there are opportunities both inside and outside the 
Government. There are opportunities to bring additional 
insights about technology to bear on questions of national 
security, for example, inside the Government.
    But again, I believe that the President's primary intention 
and primary aim with the CTO position, which has been on his 
policy agenda since early in the campaign, is to address more 
effectively the opportunities for advanced technology to be 
brought to bear in society as a whole, not just in the 
Government. That does not exclude doing so in the Government.
    Senator Warner. I would hope as this role is fleshed out--
and recognizing it is a new position and it could have quite a 
large brief--I would hope that you would look at those States 
who have maybe gone before. And we have made mistakes. I think 
actually Senator Cantwell's State, Washington State, has been 
active in this area, but there may be lessons learned.
    Dr. Holdren. We will certainly be doing that.
    Senator Warner. Dr. Lubchenco, let me welcome you as well. 
I may be somewhat following Senator Cantwell on a more region-
specific item and recognize that you may not be fully briefed 
up on this. But what is critically important to Virginia and 
the surrounding States is the health of the Chesapeake Bay, and 
NOAA has played an important role in that. It seems like over 
the last 25 years, we have been partners with NOAA and we 
oftentimes have not even met the thresholds that we would have 
hoped to have met. I would argue that at least in recent years, 
the District, Virginia, Maryland, and States in the bay 
watershed have actually stepped up with financial resources in 
fairly substantial amounts.
    I guess what I would ask is, recognizing you are not even 
confirmed yet, but do you have a sense of what additional 
authorities beyond just funding that NOAA might need to be a 
better partner with the States on restoration of the Chesapeake 
Bay? For example, I know there is a bay monitoring program 
involving a series of buoys out throughout the bay that seems a 
little undermanned at this point. But if you could just speak 
to that specifically, if you have any knowledge, and then 
generally about the bay.
    Dr. Lubchenco. Senator, I do not know the answer to your 
question about relevant authority, and I would pledge to find 
out about that at the earliest possible moment.
    What I do think the Chesapeake Bay situation brings to the 
fore, though, are the challenges inherent in managing 
activities that cross not only the land and in this case the 
estuary, the bay, but also that cross multiple jurisdictions, 
local, State, multiple States, as well as different State and 
Federal agencies. And that has been a challenge. I think the 
model of working across those and setting up a multistate 
process is a good model. I think we have seen that some parts 
of that worked better than others, and having adequate funding 
was certainly one of the challenges.
    But Chesapeake Bay really is a microcosm of a lot of the 
larger ocean issues, coastal issues in particular, where there 
are activities on land that impact the quality, the health of 
the ecosystems and therefore the resources and the jobs that 
are available, and figuring out the right mechanisms to do that 
integration is a huge challenge.
    One of my goals at NOAA is to bring a more holistic 
understanding of these interactions across different sectors 
and to think about marine spatial planning in a comprehensive 
sense with all appropriate parties and to do a better job of 
resolving issues before they get to be so incredibly 
challenging that it is very, very difficult to do something 
about them.
    Senator Warner. Well, thank you. I would simply add that as 
the Nation's largest estuary and one that still remains in 
great jeopardy, I do believe the States in the state compact 
have stepped up their game over the last 4 or 5 years, both in 
terms of water standards, in terms of runoff, in terms of 
funding. But we have not had a collaborative partner at the 
Federal level, and we look forward to having that kind of 
collaboration going forward. So thank you.
    Dr. Lubchenco. Great. I look forward to that, Senator.
    Senator Warner. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Warner.
    I will just conclude my part. Senator Begich then has a 
follow-up question, and then I will have a statement to make 
before we conclude.
    This is not part of your responsibility, Dr. Holdren, but I 
judge you to be of such a high caliber that I know that you 
will accept this responsibility.
    I think one of the greatest embarrassments in the United 
States of America is the fact that we have an air traffic 
control system which is analog. We are the only country in the 
western world. In fact, Mongolia is ahead of us. They are 
building a digital GPS air traffic control system. The 
consequences of this are overwhelming because if it were to be 
solved, it might clear up delays by 30 percent or more.
    What I am saying to you is that we have a President now who 
seems to be enormously interested in technology and efficiency 
and doing things in the right way. You will have the 
opportunity, because of your position, of being face to face 
with him. We have tried in our committee to do this, and we can 
never get the money because of various reasons. I do not know 
if the President is aware of this or not because I have not 
talked with him about it, but I just hope very much that you 
will. I think it is a supremely important national requirement. 
It does fit into science and technology. The science and the 
technology are all solved and they are available. It is the 
fact that we will not put them to work. And I hope that you 
will agree to do that.
    Dr. Holdren. Well, Senator, you were generous saying it is 
not my responsibility because, in fact, it is my responsibility 
anyplace that science and technology are not being put to the 
appropriate and needed uses across all the domains of the 
Federal agencies. I am supposed to look for the gaps and help 
see that the holes are filled. And this is a gap. It is an 
important one. The President actually has recognized it. It is 
certainly, if you will forgive this particular metaphor, on the 
radar screen of the administration, and I am determined to fix 
it and I know the President is determined to fix it.
    The Chairman. My day is brighter.
    [Laughter.]
    The Chairman. Thank you, sir.
    Dr. Lubchenco, I would like you to do something for me, 
when confirmed. The National Weather Service provides the 
Federal Aviation Administration with weather forecasting 
services, and there is this rather large controversy that is 
going on right now because the suggestion is because--as you 
know, if you take off from Dulles, you get passed on from what 
they call TRACON to TRACON. And there are now 21 of them across 
the country, and there is a suggestion that it be reduced to 
two. That would be highly efficient. That is met with some 
resistance, obviously, from some of the employees. And then 
there are some who say that it could involve safety issues.
    But I think it is one of those things that--because it does 
involve weather, the National Weather Service, I think it is 
something that you could help in trying to resolve. It is not 
so much a study or a commission I am looking for. It is a 
bringing together of the parties so that we can quickly proceed 
one way or another.
    Would you put your attention to that?
    Dr. Lubchenco. I certainly would, Mr. Chairman. I do not 
know the details of this issue. I appreciate that it is an 
important one, and I would look into it.
    The Chairman. Thank you.
    Senator Begich?
    Senator Begich. Thank you, Mr. Chairman.
    Dr. Holdren, I am going to kind of read the question here. 
I have a question then, for both of you I just have a request.
    First off, I appreciate both of you talking about the 
Arctic policy and how important that is, and I think that is a 
huge, evolving issue that the administration and the Congress 
will continue to deal with.
    The Arctic Research and Policy Act of 1984 created the U.S. 
Arctic Research Commission as an independent agency that 
provides goals for Arctic research, and created the interagency 
Arctic Research and Policy Committee which implements these 
goals. The Commission, the Committee, your office, and the 
Office of Management and Budget have specific responsibilities 
outlined in the act. Yet, to be very frank with you, these 
entities have never really worked together, never presented a 
combined budget for this effort.
    Will you use your office to lead this effort, once and for 
all, to get a combined effort from a budgetary standpoint and 
from reaching the policy goals?
    Dr. Holdren. Yes, Senator. That is an easy one. The OMB and 
the OSTP are supposed to work together on discharging those 
kinds of responsibilities, making sure that interdisciplinary 
cross-agency efforts and new initiatives of this sort are 
included in the science and technology funding priorities going 
forward. I am not familiar with all the details of this case 
and how it has been handled in the past, but I can certainly 
promise you----
    Senator Begich. We will provide you with some material.
    Dr. Holdren. And I can certainly promise you that, if 
confirmed, I will take that up with the OMB Director as part of 
our mandate to get these science and technology priorities 
right in the budget going forward.
    Senator Begich. Excellent.
    And just one request for both of you, not for today. But as 
I sat here listening to all the questions, most of them 
relevant to your positions and the issues of what you are 
talking about, Arctic policy is going to be huge. And I would 
just be interested from your perspective--I am a very visual 
person, and I am afraid to ask this question because I am 
afraid of what the outcome will look like. But how you see and 
whom you see will be involved in the decisions of Arctic policy 
into the future by agency, so a very visual chart for me would 
be very helpful. I am afraid to ask for this because I am 
afraid that every Department division of the Federal Government 
now believes they have a role in it, which is great, except it 
will be probably the most disorganized effort. So I would be 
curious at some point if you could provide to me, whichever one 
of you that would be the most appropriate, a chart of how you 
see and what agencies you see--because I know there are 
jurisdiction issues. I know in Congress there are jurisdiction 
issues. But if we do not figure that out, we are never going to 
get to a comprehensive policy. So I will just leave that 
request with you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Cantwell?
    Senator Cantwell. Thank you, Mr. Chairman.
    This for Dr. Holdren or Dr. Lubchenco. How do you intend to 
make sure that agencies like NOAA have adequate say in our 
Government's policy choices, especially as it relates to 
offshore drilling? And the reason I bring this up--and I know 
my colleague from Alaska might be leaving. Maybe he will stay. 
Yes, have a seat.
    [Laughter.]
    Senator Cantwell. In a letter commenting on the EIS for the 
Chukchi Sea oil and gas drilling plan, the National Marine 
Fisheries Service wrote the Minerals Management Service 
analysis did not present a strong enough case to NMFS that the 
marine resources would be adequately protected. Yet, this 
advice, along with similar advice from EPA and Fish and 
Wildlife Service, was ignored by the Minerals Management 
Service. So what do you intend to do to make sure that these 
agencies who are in charge of protecting these resources are 
heard on these important issues as it relates to offshore 
drilling?
    Dr. Lubchenco. Senator, you have highlighted what I believe 
is one of the real challenges of different agencies, different 
jurisdictions having different kinds of responsibilities, all 
of which overlap in the same place. I believe that the sectoral 
management of different activities in oceans does not serve us 
well and needs to be converted into a more thoughtful mechanism 
for doing more holistic planning of which activities' and which 
sectors' uses are compatible with one another in a particular 
place. And this inevitably, as you have highlighted, entails 
interagency not only coordination and cooperation, but a 
mechanism for----
    Senator Cantwell. Well, I mean, to be blunt, it sounds like 
the Minerals Management agency blew off NMFS. So what are you 
going to do to make sure that that does not happen again?
    Dr. Lubchenco. I anticipate working directly through the 
Secretary of Commerce and with the other relevant Secretaries, 
for example, the Secretary of the Interior, but also utilizing 
the Council on Environmental Quality and the Office of Science 
and Technology Policy to help establish from the outset a 
mechanism for not letting that happen.
    Senator Cantwell. Dr. Holdren?
    Dr. Holdren. If I can add one thing to that. There is an 
entity called the National Science and Technology Council which 
has existed in the White House, organized by the Office of 
Science and Technology Policy, but bringing together all of the 
Executive Branch agencies typically at the deputy level that 
have roles in science and technology. And this is a place where 
in the past one has been able to address crosscutting and 
overlapping jurisdiction issues effectively. In the last 8 
years, it has languished. It was not really fully utilized in 
the last administration, but our intention--certainly my 
intention, if confirmed, would be to revive it and utilize it 
fully to try to reduce the sorts of problems that you point to 
here.
    The other thing I would mention again is I think we have in 
prospect a set of people across the relevant agencies who are 
uncommonly experienced at communicating with each other, and 
beyond the structural approaches to this through the NSTC, for 
example, I think we are going to have some success in avoiding 
these problems that come from crosscutting issues and 
overlapping jurisdictions just because we are going to talk to 
each other more.
    Senator Cantwell. Well, one area in which I think we need 
to better understand the response is on the Office of Response 
and Restoration for oil spills, and we certainly have not 
funded that program at the level of the President's request. 
What do you think the impact of that is on cutting back on our 
Nation's oil spill response capabilities?
    Dr. Lubchenco. I think it puts us at risk that is not 
really acceptable, Senator.
    Senator Cantwell. Dr. Holdren?
    Dr. Holdren. I agree. We need to fix it.
    Senator Cantwell. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    Dr. Holdren. Mr. Chairman, I realize I am in danger of 
failing to introduce my family and friends who have accompanied 
me here and have supported me in this hearing. I do want to 
mention that my wife of 43 years, Dr. Cheryl Holdren, is right 
behind me, and that some of our dearest friends from Woods 
Hole, Bill and Pi Smith, have come to lend their moral support 
as well. So I wanted to thank them for that before we go any 
further.
    The Chairman. Yes. I think thanking your wife for being 
here is probably pretty important.
    [Laughter.]
    The Chairman. I would like to conclude this with the 
following comments.
    Number one, this is what you hope for in Government. Dr. 
Holdren, you are happily ensconced exactly where you are. I can 
even give you your address. But it is a very good life that you 
are leading. The same with you, Dr. Lubchenco. And yet you are 
giving that up for the purpose of coming to serve your 
Government. And I think you do that, one, because you suspect 
that this is an administration which really cares about what 
you do. It is going to respond to what you do.
    But more importantly, I think that you are both very 
worried about the future of the planet and the oceans and the 
earth and the people thereon and the wildlife thereon and the 
fish life therein. So it is a noble service that you do, and I 
do not think it should be left unthanked, even before you are 
confirmed, for your willingness to do this. They talk about a 
new generation of concern about Americans, but mostly at that 
level they are talking about the younger people who came up 
through various campaigns, et cetera. And you are both very 
young, and I understand that. It is a magnificent service that 
you do our country and we are very, very lucky that you are 
doing it.
    With that in mind, before Senator Hutchison left, we agreed 
that we would try to move your nominations by unanimous consent 
on the floor of the Senate. Now, that means that we do not do 
it within the Committee. But speed is very important here, for 
you to get on the job as quickly as possible. So we are going 
to try and do that, and I want you to know that.
    This hearing is adjourned.
    [Whereupon, at 12:25 p.m., the hearing was adjourned.]
                            A P P E N D I X

               Prepared Statement of Hon. John F. Kerry, 
                    U.S. Senator from Massachusetts
    I am pleased to welcome Jane Lubchenco and my good friend John 
Holdren, two of the most powerful voices in the scientific community on 
the issue of global climate change. The only downside that I can think 
of with respect to John's nomination is that I won't get to visit him 
in Falmouth anymore. John has been an incredible resource to the Woods 
Hole Institute and to the Kennedy School at Harvard University. More 
importantly, he has been a tremendous voice on the critical challenge 
of global climate change, and we are very fortunate that he will bring 
that voice to this Administration.
    We are facing a true crisis, and we need leaders who understand the 
scope and urgency of the problem and are committed to taking action to 
both reduce our domestic greenhouse gas emissions and actively reengage 
with the international process. The reality is that today, the most 
critical trends and facts all point in the wrong direction. 
CO<INF>2</INF> emissions grew four times faster during the last 8 years 
than they did in the 1990s. Two years ago the Intergovernmental Panel 
on Climate Change issued a series of projections for global emissions, 
based on likely energy and land use patterns. Well, today emissions 
have actually moved beyond the worst case scenarios predicted by all of 
the IPCC's models! Our oceans and forests are losing their natural 
ability soak up and store greenhouse gases. This is a stronger climate 
forcing signal than expected, arriving sooner than expected.
    NOAA has a particularly important role in designing our Nation's 
climate change research, assessment and response program, which frankly 
has been shamefully neglected over the past 8 years. Dr. Lubchenco, I 
am encouraged by the work that has already been done to design a 
National Climate Service, a concept that Senator Snowe and I first 
advanced last year in the Global Change Research Improvement Act. I 
look forward to working together to ensure that the National Climate 
Service serves an important function in providing key climate 
information to mayors, Governors, natural resource managers, and other 
experts working on the ground to respond to the ongoing impacts of 
global climate change.
    Dr. Holdren, as Director of the Office of Science and Technology 
Policy, you will serve as a trusted voice at the center of the 
President's approach to climate policy. I look forward to working with 
you to guide an agenda that focuses on clean energy and climate 
technology. As the President continues to build his budget request, I 
also trust that you will serve as a forceful voice within the 
Administration for full funding of the America COMPETES Act. In 2004, 
China graduated six-hundred thousand engineers. The United States 
graduated just seventy-thousand. We cannot continue to ignore the fact 
that our fiercest competitors on the global stage are out performing us 
in the classroom and in the laboratory.
    Finally, yesterday the House of Representatives passed H.R. 554, 
the National Nanotechnology Initiative Amendments Act of 2009. In the 
coming weeks, I'll be reintroducing companion legislation in the 
Senate, and I look forward to working with you to ensure that the U.S. 
is in position to drive innovation in the field of Nanotechnology while 
also taking the necessary steps to ensure that nanotechnology is safe 
for consumers, for workers, and for the environment.
                                 ______
                                 
 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California
    Mr. Chairman: I am pleased today to express my support for the 
confirmation of Dr. John Holdren as the Director of the Office of 
Science and Technology Policy and Dr. Jane Lubchenco as the 
Administrator of the National Oceanic and Atmospheric Administration. 
Both of these individuals are renowned scientists with a deep 
understanding of the environmental challenges we currently face--
particularly with respect to climate change. These nominations reflect 
the Obama Administration's strong commitment to restoring the 
prominence of science to our Nation and truly represent the change we 
have all been anticipating.
    I am confident that Dr. Holdren's experience both as a scientist as 
well as a longtime advisor on science and technology policy will 
provide a strong foundation for his work leading and coordinating our 
Nation's many research and development priorities.
    Dr. Holdren's work on the causes and consequences of global 
environmental change and analysis of energy technologies and policies 
is well known. As Chair of the Environment and Public Works Committee, 
developing a comprehensive policy to mitigate and respond to climate 
change is one of my greatest priorities. As Congress moves forward with 
a climate change bill this year, I look forward to working with Dr. 
Holdren to address the many environmental problems that our 
communities, our Nation and our planet are facing.
    I am also pleased that Dr. Holdren is committed to help 
coordinating a comprehensive Federal effort to bolster America's 
competitiveness in science and technology, and meeting the goals set in 
the America COMPETES Act passed in 2007.
    Dr. Lubchenco's broad expertise as a marine scientist and 
experience formulating recommendations on ocean policymake her 
exceptionally well qualified to lead the National Oceanic and 
Atmospheric Administration, the agency responsible for coordinating our 
Nation's ocean research and policy programs.
    Dr. Lubchenco is a well-known research scientist whose expertise 
bridges a wide range of issues under NOAA's jurisdiction, including the 
impacts of climate change on ocean ecosystems.
    Dr. Lubchenco's work to promote the communication of science to 
policymakers makes her a particularly ideal choice for this position. 
As Founder of the Aldo Leopold Leadership Program and a Founding 
Principal of the Communication Partnership for Science and the Sea, she 
has shown a strong commitment to improving the integration of science 
and policy.
    I am confident that Dr. Lubchenco has a deep understanding of the 
myriad threats facing our oceans and effective strategies for 
addressing them. As a Commissioner for the Pew Oceans Commission and 
Joint Oceans Commission Initiative, Dr. Lubchenco worked to identify 
priorities for improving management of our oceans. My National Oceans 
Protection Act, which I introduced in the 109th and 110th Congresses 
and plan to reintroduce again soon, would implement the recommendations 
of these Commissions as well as the U.S. Commission on Ocean Policy. I 
look forward to working with Dr. Lubchenco to advance these priorities 
in this Congress.
    I am truly inspired by the nomination of these two distinguished 
individuals and look forward to working with them to promote the 
scientific innovation that will foster our economy and provide us with 
the tools necessary to protect our communities from environmental 
degradation.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Dr. Jane Lubchenco
    Question 1. As Administrator, your Federal fishery management 
responsibility will be substantial. Our fisheries are not only in need 
of strong conservation management, but also are a central component to 
our economy. How do you intend to make our fisheries sustainable and 
profitable, while meeting the requirements of the recently reauthorized 
Magnuson-Stevens Fishery Conservation and Management Act?
    Answer. I support the goal of ending overfishing but also recognize 
this will be a difficult task, one that will require the cooperation 
and commitment of the fishing industry to rebuild these resources. The 
Act is clear that annual catch limits must be in place by 2010 that 
prevent overfishing. I understand that the regional fishery management 
councils are working hard with NOAA to meet this goal. The health of 
our marine fish stocks is directly linked to the health of many coastal 
communities. I will work with the councils and all stakeholders to 
ensure that overfishing is ended by the statutory deadline of 2010, 
based on the best science available, while carefully considering the 
economic consequences of our actions.

    Question 1a. Are there any new approaches you intend to consider 
for improving the performance of fishery management, particularly 
regarding strengthening our Nation's regulatory enforcement 
capabilities?
    Answer. Providing the funding needed to fully implement the 
Magnuson-Stevens Act is not only critical to an industry that 
contributes over $30 billion to the U.S. Gross National Product, but 
also to ensuring recreational fishing opportunities and a nutritious 
source of food for Americans. I understand NOAA has carefully reviewed 
the requirements associated with the new Magnuson-Stevens Act, and has 
requested some significant increases to meet the statutory requirements 
in the last 2 years. I believe it is time to fully fund implementation 
of the Magnuson Act and to provide sufficient funding for enforcement. 
I also believe we need to look at what has worked in some fisheries, 
such as a system of catch-shares as opposed to stringent ``command and 
control'' type regulation, and see if we have sufficient data to make 
that system work in other fisheries.
    I also understand that NOAA just provided Congress a list of the 
worst offending countries with respect to IUU fishing--and that it 
included such countries as China and Italy. It is not fair to our 
fishermen to hold them to a higher standard than we are willing to 
require of the rest of world's fish products that are sold in the 
United States. It is imperative that we work internationally to end the 
overfishing crisis and soon. If confirmed, I will take hard look at the 
problem of how to stop illegal fish from coming into the U.S.

    Question 2. Dr. Lubchenco, many of the issues within the National 
Oceanic and Atmospheric Administration are new to me and I am looking 
forward to learning more about ocean and coastal management. Two topics 
that you have written extensively about are ecosystem-based management 
and marine protected areas. Could you tell me a bit more about your 
philosophy on using these two approaches as management tools for our 
oceans?
    As Administrator, what steps would you take to move toward a more 
ecosystem view of ocean conservation and management, including 
improving resilience of coastal communities and marine ecosystems and 
resources given the expected impacts of global warming and ocean 
acidification?
    Answer. Ecosystem-based management is far superior to managing 
ocean resources on a sector-by-sector basis and I would like to see 
states and local governments working toward using this approach. NOAA 
should lead by example--NOAA should look at its own management 
decisions on a more ecosystem basis rather than by sector or statute. I 
hope to implement greater regional governance within NOAA across its 
programs. My predecessor, Admiral Lautenbacher, began the difficult 
process of breaking down the ``silos'' within NOAA. If confirmed, I 
would like to continue and increase those efforts.
    Marine protected areas are one tool that can be used to rebuild 
fisheries, safeguard ocean resources before they become depleted, and 
help ensure healthy oceans. Marine Protected Areas can be used in 
combination with other tools. However, each area in the ocean is 
unique, and regulatory options should be evaluated on a case-by-case 
basis to determine which combination of tools is most appropriate to 
meet the stated goals and objectives of the region. When declaring 
sanctuaries or marine protected areas, I believe we must ensure an open 
and inclusive process that provides all stakeholders an opportunity to 
participate as described in both the National Marine Sanctuaries Act 
and the Magnuson-Stevens Act.

    Question 3. Given that piecemeal efforts to advance offshore 
aquaculture are occurring, what is your position on the need for or 
your support of creating a national framework for aquaculture in the 
United States? What environmental controls are needed to support the 
industry without impacting wild fish stocks and their ecosystems? What 
do you see as the largest barriers to a healthy U.S. aquaculture 
industry?
    Answer. Offshore aquaculture may be an important part of our future 
food supply. We need to put our best scientists to work to figure out 
if it is possible to raise fish in the open ocean in a manner that 
produces safe seafood and does not cause lasting harm to the marine 
environment. We are not there yet. Moreover, there are no permits yet 
available for open ocean aquaculture in Federal waters. NOAA does not 
have a fully implemented national aquaculture program, or even 
authority to issue these permits--it is still in the research and 
development phase. I will take a hard look at what is being considered 
in the Gulf of Mexico to determine if it is within the Department's 
authority to allow aquaculture there. Regardless, we must begin to 
develop the technology and the permitting process to be prepared. I 
will work with Congress to do just that.

    Question 4. Dr. Lubchenco, in December of last year, the Government 
Accountability Office released a report on the National Marine 
Fisheries Service and marine mammal protection. The report concluded 
that the National Marine Fisheries Service relies on incomplete, 
outdated, or imprecise information about human-caused mortality for 
many marine mammals stocks. Are you aware of this issue within the 
National Marine Fisheries Service?
    Answer. I was not aware of this issue. Thank you for bringing it to 
my attention.

    Question 4a. What steps do you plan on taking to address this 
issue?
    Answer. I will re-double the agency's effort to conserve marine 
mammals in the face of increasing threats from humans, including 
requesting additional funding if it is needed to meet the agency's 
statutory obligations under the Marine Mammal Protection Act and 
Endangered Species Act.

    Question 4b. I know there are a multitude of issues that need your 
immediate attention once you are confirmed as the next Administrator of 
NOAA, will marine mammals be one of the issues on your radar screen?
    Answer. Absolutely, yes.

    Question 5. Dr. Lubchenco, I am concerned with the status of the 
International Whaling Commission. If confirmed for Administrator of the 
National Oceanic and Atmospheric Administration what steps do you plan 
to take to try and strengthen the International Whaling Commission and 
reduce the number of whales that are still killed each year?
    Answer. Unfortunately, despite the International Whaling Commission 
(IWC) moratorium on commercial whaling, there are thousands of whales 
killed each year and their meat ends up being sold in markets in Japan, 
Iceland and Norway. I will work to see that the scientific whaling 
loophole, and others like it that allow commercial whaling to continue, 
are closed.

    Question 5a. Do you believe an essential role for the United States 
is to ensure whale conservation becomes and remains the IWC's focus?
    Answer. Yes. I believe that the IWC must re-focus itself on 
conservation and dealing with the many threats to whales that exist 
today--including climate change, marine pollution, and ocean noise.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                           Dr. Jane Lubchenco
    Question 1. Some 62 percent of the Nation's seafood is landed in 
Alaska, none of its fish stocks are considered overfished and wide 
areas of ocean have been proactively closed to fishing to protect 
subsea habitat. As managed by the North Pacific Fishery Management 
Council, Alaska is generally considered to have one of the best managed 
fisheries in the world yet some have proposed changes in the regional 
fishery management council structure to address overfishing and other 
issues apparent elsewhere in the Nation. What changes do you propose in 
the regional council process and how might that affect the regulatory 
process in Alaska?
    Answer. I wish to commend the North Pacific Fishery Management 
Council for its recent decision to study fishing in the Arctic before 
beginning to permit fishing at industrial levels. I applaud their 
taking the long-term view. I do not currently envision changing the 
council process.

    Question 2. Catch share systems have been proposed as a way to 
advance conservation, safety and market-focused fishery management 
goals. Many Alaska fisheries--pollock, halibut and crab--already 
operate under such systems. Critics have criticized privatizing a 
public resource. Do you support implementation of catch-share programs?
    Answer. Yes. Recent scientific studies--and the performance of many 
of Alaska's fisheries--show that those fisheries operated with catch 
share management have better environmental and economic records than 
other fisheries managed without them. On the topic of privatization, 
fisheries are a public trust resource, meaning they belong to all 
Americans. The law and court decisions make it clear that catch shares 
are a privilege not a right. They do not change the fact that fisheries 
are a public trust resource. Most management without catch shares has 
been proven to be inadequate to meet NOAA's public trust 
responsibilities. One of the best ways to ensure the public will 
benefit from healthy, profitable fisheries into the future is to add 
catch shares to our management tool box.

    Question 2a. If so, would you support initial quota allocations 
that respect the historical participation of crewmembers, as well as 
skippers and owners?
    Answer. Yes. Catch share systems are flexible and can accommodate 
share allocations to skippers, crew, communities, sectors, and others. 
I look forward to working with the Fishery Management Councils on a 
wide variety of catch share designs that will ensure we have healthy 
marine ecosystems and healthy fishing economies.

    Question 2b. Given the variability in fisheries, do you see a need 
for national standards for such programs?
    Answer. The Magnuson-Stevens Act has standards and guidelines to 
assist in the implementation of catch shares. I believe we need more 
expertise on these programs but one thing emerging from the research is 
that there is no one type of catch share program that works for every 
fishery. Catch shares designs need to be tailored to the individual 
fishery and marine ecosystem.

    Question 3. Will you have a deputy in your office that focuses 
solely on oceans and fisheries issues?
    Answer. Yes, I intend to appoint an Assistant Secretary for Oceans.

    Question 4. Alaska coastal communities that depend on ocean 
resources for subsistence, commercial and recreational uses are often 
faced with critical resource related issues. The Sea Grant program, 
funded in part by NOAA, works to bridge science and technological 
information with coastal residents to help them make informed 
decisions. In Alaska there are 10 extension agents spread throughout 
the state. Nationally Sea Grant is affiliated with 32 top universities 
across the Atlantic, Pacific and Gulf coasts and the Great Lakes 
conducting scientific research, education, training, and extension 
projects designed to foster science-based decisions about the use and 
conservation of our aquatic resources. Regrettably, Sea Grant's funding 
has stagnated over the last 6 years.
    As NOAA Administrator, will you support the Sea Grant program and 
help it to grow so that, as these big issues come before us--notably 
climate change and its impact on our marine resources, our coastal 
residents can adapt at the most local of levels?
    Answer. Yes. I am a strong supporter of the Sea Grant program.

    Question 5. Scientists and Alaska coastal communities are becoming 
more and more concerned about the effects of ocean acidification on our 
marine life. It is predicted that the average acidity of the oceans 
could triple by the end of this century, which could have a devastating 
effect on marine life. How should the Nation best approach the issue of 
ocean acidification?
    Answer. The problem of ocean acidification is quite alarming. The 
most obvious way we can address it is by reducing our carbon emissions.

    Question 6. NOAA currently conducts significant research in Alaska. 
Unfortunately, most of the research vessels doing Alaska research are 
home-ported outside of the state, either in Oregon, Washington or 
California. Will you work with the Alaska delegation so more research 
vessels conducting Alaska research are based in Alaska?
    Answer. I am not yet deeply familiar with the specific issues 
regarding home porting of NOAA research vessels. But if confirmed, I 
will study these issues and look forward to working with the Alaska 
delegation on this issue.

    Question 7. Icebreakers are a critical need in Arctic research and 
our Nation's two polar-class icebreakers, operated by the Coast Guard, 
are more than 30 years old, far beyond their service lives. A recent 
National Academy of Sciences report concluded that ``U.S. icebreaking 
capability is at risk of being unable to support national interests in 
the north and the south.'' Will you commit to supporting re-investment 
in such infrastructure, critical to the conduct of scientific research?
    Answer. Yes. I believe these are critically important for our 
Nation.

    Question 8. NOAA is responsible for mapping and surveying our 
coasts, which is critical data for marine transportation, resource 
development, environmental protection and recreation but some critical 
shortfalls are apparent across the Nation and in Alaska, especially due 
to Arctic warming and erosion. How will you address this survey 
shortfall and will you continue to use private contractors to assist in 
this effort?
    Answer. I will work to obtain the funding necessary for survey 
work, particularly in Alaska, where I understand there have been 
minimal surveys. This survey work is critical to navigation safety 
there, particularly as shipping traffic is expected to increase in the 
Arctic.

    Question 9. NOAA listed beluga whales as an endangered species last 
October. The listing means any Federal agency that funds or authorizes 
activities that may affect the whales in the area must first consult 
with the National Marine Fisheries Service to determine the potential 
effects on the whales. This ruling could affect fishing and oil and gas 
development in Cook Inlet, expansion of the Port of Anchorage, a vital 
lifeline for most Alaskans and the U.S. military presence there, and 
could necessitate expensive modifications to Anchorage's wastewater 
treatment facility, which the EPA has determined does not affect 
belugas. I am not aware of any scientific information showing that 
either of these activities have any effect on beluga populations. As 
NOAA Administrator, how will you deal with agencies regulating these 
industries and activities as it relates to the beluga listing? Will you 
assure Alaskans that all decisions will be based on the best available 
science?
    Answer. I will always work to ensure that the agency's decisions 
are based on the best available scientific information. I pledge to 
look into this situation, recognizing that the listing decision is 
already made. I will review implementation of the decision, 
particularly what mitigation measures are required to try to ensure 
that Beluga whales can be protected without causing unnecessary 
economic impacts on Anchorage and the surrounding areas.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                           Dr. Jane Lubchenco
    Question 1. As a Commissioner for the Pew Oceans Commission and 
Joint Oceans Commission Initiative, you worked to identify priority 
actions for addressing the challenges facing our oceans. Some of the 
recommendations highlighted by these Commissions included the need for 
a national ocean policy and national and regional ocean governance 
reform. What role do you see for NOAA in implementing these reforms, 
and what challenges does the agency face in doing so?
    Answer. I support a NOAA organic act. As a member of the Pew and 
the Joint Ocean Commissions, I have studied this issue. This is another 
good idea whose time has come. Ocean issues will not get the attention 
and focus they deserve in the government without a NOAA organic act. 
Currently NOAA's organization and authorities are a patchwork quilt of 
overlapping jurisdictions with other agencies, that can hinder 
efficient decision-making on issues concerning the ocean and its 
resources.

    Question 2. As you know, the oceans play a tremendous role in 
controlling Earth's climate and are being severely impacted by climate 
change. As the NOAA Administrator, how will you work with other 
agencies such as NASA and the EPA to provide the tools necessary for 
understanding and responding to climate change? What do you see as some 
of the top priorities for NOAA, both in terms of research and 
management, on this issue?
    Answer. I believe we need a National Climate Service to meet the 
needs of our Nation to better understand climate impacts and deliver 
information critical to adaptation, mitigation, and management 
planning. Climate change is and will continue to be one of the most 
important challenges facing our Nation. Working with many other 
agencies, including the EPA, Department of Interior, Department of 
Energy and Department of Agriculture, the White House, NOAA should lead 
a National Climate Service based on its existing statutory mandates to 
provide climate information and services and experience managing end to 
end climate operations. NOAA can build upon its strong climate 
monitoring, research, and assessment capabilities, and translate 
climate data and research into information and services that address 
the needs of stakeholders at the local, state, regional, and national 
level.

    Question 3. The number of commercial and industrial uses in Federal 
waters has been growing and will likely continue to grow in the future. 
Proposals for new offshore activities such as oil, gas, and renewable 
energy production, aquaculture, or military exercises have often been 
controversial due to their potential impacts on marine ecosystem health 
and existing uses of marine resources. For some of these activities, 
NOAA is not the lead Federal agency of jurisdiction. As Administrator, 
how will you work to promote NOAA's coordination with other agencies in 
evaluating and managing these activities? Will you involve states in 
decisions about the use of Federal waters off their coasts?
    Answer. NOAA should lead the Federal Government's efforts to 
coordinate the development of our offshore resources. Our nation needs 
an integrated ocean plan so that we can ensure the most efficient and 
environmentally sound development and use of these important ocean 
resources. I believe states must be our partners in this endeavor. I 
will use NOAA's existing authorities to accomplish this planning and 
where appropriate permitting.

    Question 4. When the Magnuson-Stevens Fishery Conservation and 
Management Act was reauthorized in 2006, Congress reaffirmed its 
commitment to rebuild stocks in as short a time as possible, not to 
exceed 10 years in most cases. The reauthorization strengthened 
existing mandates to prevent and end overfishing through a system of 
science-based catch limits and accountability measures. The National 
Marine Fisheries Service published a final rule on January 16, 2009 
containing the guidelines necessary to implement these requirements. 
Would you be willing to provide some additional technical guidance and 
policy directives to avoid the misinterpretation of some potentially 
unclear provisions in the rule? Also, more broadly, how will you ensure 
that the proper guidance and tools are in place to end overfishing by 
2011 and rebuild depleted stocks in as short a time-frame as possible?
    Answer. I understand the concern about the guidelines but I have 
not reviewed them in detail yet. If confirmed, I will give them a hard 
look and look forward to working with you on implementation. It is 
important that this rule on setting catch limits be done right. If it 
is not, then we won't be able to end overfishing by 2011.

    Question 5. I am personally very interested in marine mammal 
conservation, particularly since over 1/3 of the world's whale and 
dolphin species, including 6 threatened or endangered whale species, 
spend part of the year in California's waters. Since many of these 
species are highly migratory, their protection hinges on our 
collaboration with other nations. Two issues that particularly concern 
me right now are the future of the United States' dolphin-safe tuna 
label, which I worked along with the current Vice President to 
establish, as well as the potential resumption of commercial whaling. 
What role do you see for NOAA in formulating a United States position 
on these issues and working with international governments and 
organizations to advance that position?
    Answer. I believe NOAA should take the lead in formulating U.S. 
positions on these important issues. I look forward to working with 
other governments and non-governmental organizations to ensure even 
greater protections for whales and other marine mammals and to promote 
seafood integrity and safety.

    Question 6. As a widely respected research scientist who has worked 
to promote greater communication of science to policymakers, you 
obviously understand the importance of scientific integrity and 
transparency. I appreciate your affirmation of this philosophy in your 
testimony. Under the Bush Administration, there were serious concerns 
about political suppression and manipulation of scientific work at 
agencies. As Administrator of NOAA, how will you work to promote 
scientific integrity at NOAA and elevate the role of science in policy 
decisions regarding our oceans and atmosphere?
    Answer. I believe that unbiased and authoritative science is the 
bedrock upon which sound environmental decisions are made. A resilient 
society and economy depend on informed decisions regarding 
environmental challenges and resource management issues. If confirmed, 
I will ensure that NOAA will provide the Nation with scientifically 
rigorous, unbiased assessments of the often difficult and controversial 
environmental challenges and opportunities facing us.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                           Dr. Jane Lubchenco
    Question 1. As you know, salmon recovery is a shared effort of 
numerous entities at many levels. For example, the Washington 
Department of Fish and Wildlife is responsible for a great deal of 
scientific monitoring of ESA-listed stocks in the Columbia River. While 
I'm sure that as a scientist you're dedicated to ensuring NOAA uses the 
best available science for managing these stocks, a major limiting 
factor is the availability of the data and monitoring we need to 
understand them. How do you plan to address current shortfalls in our 
data and monitoring of ESA-listed Columbia River stocks (such as lower 
Columbia Coho)? What is NOAA's role in ensuring that data collection 
and monitoring is increased and improved--particularly when many of 
NOAA's partners like state resource agencies are faced with enormous 
budget cuts? Does this mean NOAA will devote the resources needed to 
fill in those gaps?
    Answer. NOAA cannot do its job without sufficient funding. NOAA 
needs more funding and I will work with OMB and the Congress to get it. 
NOAA's FY 2009 budget request is $4.1 billion. NOAA's appropriation has 
been flat at $3.9 billion since FY 2005, while its mandates and the 
demand for its services have grown. With sufficient funding I believe 
we can improve the agency's data collection and monitoring. .

    Question 1a. What linkage do you see between harvest and 
hatcheries? Should salmon and steelhead stocks listed for protection 
under the Endangered Species Act--for which Northwest ratepayers are 
paying approximately $900 million a year--be subject to such robust 
harvest levels? How do you balance these two responsibilities to 
achieve recovery? Since NOAA is endorsing many of the proposed hatchery 
reforms, what is NOAA's role in helping to provide the resources needed 
to actually make those reforms happen?
    Answer. I am not familiar with the specific issues regarding 
harvest levels and hatchery reforms in Washington, but if confirmed I 
will study this issue closely and look forward to working with you on a 
balanced approach. In general, I believe that the science does not 
dictate policy decisions but should inform them.

    Question 2. Individual quota share programs have been implemented, 
or are in development, in a number of fisheries important to Washington 
state fishers and processors, including fisheries for Alaska pollock, 
Pacific whiting, Alaska flatfish and North Pacific crab. What is your 
view on Limited Access Privilege Programs (LAPPs)?
    In the 2006 Magnuson Act reauthorization process, many cited 
Federal fisheries management off Alaska as a model for management of 
U.S. fisheries and proposed amendments to incorporate Alaska groundfish 
management requirements, including catch limits and catch accounting, 
into the Act. Do you agree that the North Pacific Council has a good 
record in managing groundfish stocks and do you support the council 
process going forward?
    Answer. In general, I support catch share programs, but recognize 
the challenges of design and implementation. There is no one-size-fits-
all solution when it comes to fisheries management. In addition, I want 
to restate my support for the recent decision by the North Pacific 
Fishery Management Council to study fishing in the Arctic before 
beginning to permit fishing at industrial levels

    Question 2a. Some advocate shutting down commercial and 
recreational fisheries in some Federal waters using the Antiquities 
Act, the National Marine Sanctuaries Act, a new Marine Protected Areas 
regime, a national network of Ocean Heritage Areas, and other 
processes. What is your view on using these processes as opposed to 
continuing to use the regional fishery management council process for 
making policy decisions of this nature?
    Answer. I firmly believe that the designation and ongoing 
management of marine protected areas should involve a highly 
collaborative public process, as exemplified by the authority provided 
under NOAA's National Marine Sanctuaries Act and the Magnuson-Stevens 
Act. I feel strongly and will work to ensure that any marine national 
monument--or portion thereof--for which NOAA has been or will be 
delegated management responsibilities should have the same protections, 
management tools, and robust public involvement that are available for 
national marine sanctuaries.

    Question 3. Are you acquainted with NOAA's efforts--through a 
formal procurement process--to find a new homeport for its Marine 
Operations Center-Pacific, now in Seattle? Will you affirm that the 
final decisionmaker in the procurement process for relocating MOC-P 
will afford a full and fair opportunity to all who submit an offer for 
a new location for the MOC-P?
    Answer. Absolutely, yes.

    Question 3a. I understand that the competitive process for deciding 
the new location for the MOC-P will be decided on a ``best value'' 
basis. While that is a good basis on which to make a final decision, it 
is somewhat subjective. Will you commit to having the definition of 
``best value'' include a location's comprehensive total cost to the 
government (not only for the real estate lease, but for cost of ship 
operations and costs borne by the NOAA workforce subject to this 
relocation)?
    Answer. I am not familiar with the specific issues regarding what 
constitutes the best value in determining the home port of a fleet, but 
if confirmed I will study them and will work with you on this issue
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                           Dr. Jane Lubchenco
    Question 1. Dr. Lubchenco, you are a world-renowned scientist and 
have taken great strides toward integrating ecological systems and 
human health, the economy, social justice and national security issues. 
Given NOAA's responsibility to balance resource conservation with 
fisheries regulations, and a mandate to also ensure economic viability 
where possible, how will you seek to move forward with an integrated 
approach to the implementation of Magnuson-Stevens? For example how 
will you balance the multiple interests for an integrated approach to 
management in areas such as turtle protection, marine mammals, and 
depleted stocks? How will novel technology or non-traditional elements 
(such as local knowledge as observation, aquaculture technology 
advances, or on-the-ground partnerships with non-NOAA entities) 
contribute to your overall integrated management plan?
    Answer. Throughout my teaching, leadership of large organizations, 
and participation in public service, I have emphasized the important 
role of clear scientific input in decisionmaking. I have stressed my 
belief that science should inform, not dictate, decision-making. 
Decisions should be based on a range of factors including values, 
economics, politics, and science. In other words, scientific 
information alone should not drive decisions, but it should be 
available in an understandable, relevant, salient, and credible fashion 
so that it can be taken into consideration. Scientific information 
should clearly articulate what is known and what is not known about a 
particular topic, and with what degree of certainty. It should describe 
what is known about how systems work, how they are changing and the 
likely consequences of different policy choices. Policy decisions on 
marine fisheries and endangered species are made by government leaders 
who attempt to balance various concerns, but these decisions should be 
informed by the best scientific information available, in consultation 
with all interested parties.

    Question 2. In recent years, NOAA has moved toward a regional 
approach for providing products and services to the public. One key 
element of a successful regional effort is the ability to provide 
national leadership and direction, regional priority setting, and the 
ability to address local issues of need. Will you plan to continue 
NOAA's efforts in regionalization? If so, how will the regional concept 
be integrated with other on-the-ground engagement efforts, including 
communications, education, extension and training? Given that Hawaii is 
unique in its geographic isolation and given that many local issues are 
in fact regional issues in Hawaii, how might Hawaii move forward with 
regionalization in a manner that serves as an example for the agency?
    Answer. I believe that ecosystem-based management is far superior 
to managing ocean resources on a sector-by-sector basis. This is 
particularly true because each geographic region is unique. I would 
like to see states and local governments working toward using this 
approach. NOAA should lead by example--NOAA should look at its own 
management decisions on a more ecosystem basis rather than by sector or 
statute. I hope to implement greater regional governance within NOAA 
across its programs. My predecessor, Admiral Lautenbacher, began the 
difficult process of breaking down the ``silos'' within NOAA. If 
confirmed, I would like to continue and increase those efforts. I would 
welcome the opportunity to work with you on this effort.

    Question 3. NOAA's portfolio covers a diverse spectrum of 
responsibilities and assets, ranging from individual on-the-ground 
researchers to large-scale satellite acquisition and operations. 
Arguably, NOAA's satellite program expenditure is on a dramatically 
different scale than most of NOAA's other programs. As you seek to 
ensure that NOAA's satellite program remains on track, how will you 
address the issue of scale? What is your plan going forward to ensure 
that NOAA's satellite program will be able to deliver the data required 
by researchers while still remaining cost-effective and efficient in 
its use of resources?
    Answer. The cost overruns and delays in the NOAA satellite program 
are a huge problem that impacts the entire agency. We must ensure that 
the cost overruns end so that other programs do not have to continue to 
shrink in order to pay for the satellite program at NOAA. I will make 
this a priority. Indeed I would like to convert a staff level political 
appointee position at NOAA into an Assistant Secretary position to 
oversee on a daily basis the weather and satellite programs. In 
addition, the continuity of climate data is critical to our 
understanding of the impacts of climate change in society, and will be 
a priority under my leadership given the policy efforts this data will 
support. NOAA must have an additional $74 million included in its FY09 
budget to develop and reinstall key climate sensors back onto the 
NPOESS program. The continuation of this funding will be crucial to 
continuing this effort to ensure the future of the climate record. I 
believe this funding may have been included in the stimulus legislation 
recently passed by Congress. If not, I will work with the 
Appropriations Committee to see that this funding is included in the 
2009 final spending bill.

    Question 4. My constituency and that of my colleagues in the House 
are small island arcs in the Pacific. Fish and sustainable fishing are 
an intimate part of the culture of my region and help define us as 
Pacific Islanders.
    Fishing methods have changed over the centuries but it is important 
that Pacific Island fishing cultures be sustained and that the economic 
development of the indigenous people includes greater participation in 
sustainable fisheries.
    The importance of fishing to the region as a whole is exemplified 
by the attention devoted to fisheries in the Pacific Islands Regional 
Organizations, The Pacific Community (22 independent Pacific Island 
Nations and Territories) and the Pacific Forum (14 independent Pacific 
Island Nations plus Australia and New Zealand).
    The Pacific Community's largest program is fisheries and fisheries 
development.
    The Pacific Forum established its own fishery management 
organization, the Forum Fisheries Agency to ensure that Pacific 
Islanders obtain the maximum benefit from the fishery resources in 
their EEZs.
    Will you be supportive of mechanisms in the MSA such as the Alaska-
Western Pacific Community Development Programs, which are intended to 
foster greater participation and benefits from fishing for native 
peoples?
    Answer. I am generally supportive of the rights of native peoples 
to fish. I am not familiar with the specific programs you describe, but 
I look forward to learning more about them if confirmed.

    Question 5. As a legislator I am aware of the many statutes with 
which fisheries managers must comply when developing fishery management 
measures.
    These include the Endangered Species Act, Marine Mammal Protection 
Act, National Environmental Policy Act and Small Business Regulatory 
Enforcement Fairness Act among many others, as well, of course, as the 
Magnuson-Stevens Act.
    U.S. fisheries are among some of the most stringently managed 
fisheries globally, and a major benefit of this management has been a 
steady decline in the number of stocks that are overfished and subject 
to overfishing.
    However, U.S. fishery management continues to be undermined by 
misinformation campaigns which distort the excellent science conducted 
by NOAA Fisheries. A recent publication, Ocean Conservation and the End 
of Overfishing, mistakenly reports Hawaii's bottomfish as being subject 
to overfishing, which is contrary to the 2008 NOAA stock assessment. 
Second, this publication reports that decline of monk seals in Hawaii 
is due to overfishing of their food species, which is contrary to the 
information contained in the NOAA monk seal recovery plan and at odds 
with the deliberations of the monk seal recovery team.
    Can you please outline how you will defend NOAA's fisheries science 
and the Regional Fishery Management Councils' management record from 
being undermined by such campaigns?
    Answer. I am not familiar with the situation surrounding Hawaii's 
groundfish or the monk seal recovery plan proposed by NOAA. If 
confirmed, I will look into this issue. In general, I support the goal 
of ending overfishing but I also recognize this will be a difficult 
task and will require the cooperation and commitment of the fishing 
industry to rebuild these resources. The health of our marine fish 
stocks is directly linked to the health of many coastal communities. I 
will work with the councils and all stakeholders to ensure that 
overfishing is ended by the statutory deadline of 2010, based on the 
best science available, while carefully considering the economic 
consequences of our actions.

    Question 6. As I've already noted, U.S. fisheries are among some of 
the most stringently managed fisheries globally. However, 80-90 percent 
of all seafood consumed in the U.S. is imported from other countries. 
Many of these countries have either little to no sustainable fishery 
management, or fail to comply by their own or even international 
fishery management regimes. In my own region, Spanish and Ecuadorian 
purse seiners have regularly made incursions into the U.S. EEZ in the 
Western Pacific to fish for tuna. Also, there are already signs that 
other parts of the Pacific are gearing up to supply the Hawaii market 
with bottomfish after the 2011 shutdown of the Northwestern Hawaiian 
Islands bottomfish fishery. Please explain how you will work to level 
the playing field for U.S. fishermen with respect to imports and import 
substitution?
    Answer. It is not fair to our fishermen to hold them to a higher 
standard than we are willing to require of the rest of world's fish 
products that are sold in the United States.
    It is imperative that we work internationally to end the 
overfishing crisis and soon. If confirmed, I will take hard look at the 
problem of how to stop illegal fish from coming into the U.S. The U.S. 
must be very tough at regional fisheries management organizations 
(RFMOs) and in other international fora on the nations that continue to 
break the rules and exploit loopholes in ocean governance systems.

    Question 7. In 2007 NOAA was provided $65 million for education and 
outreach. It is my understanding that very few if any dollars were 
devoted to fisheries. Of all the NOAA line offices, fisheries is the 
most complex because it affects not only marine ecosystems but also 
seafood safety, people's jobs and management at domestic and 
international levels. How do you plan to provide funding to NMFS and 
Regional Fishery Management Councils for fishery education and outreach 
to engage the public in supporting fishery management and understanding 
the diverse and complex nature of the fishery management process?
    Answer. NOAA cannot do its job without sufficient funding. NOAA 
needs more funding and I will work with OMB and Congress to get it. 
NOAA's FY 2009 budget request is $4.1 billion. NOAA's appropriation has 
been flat at $3.9 billion since FY 2005, while its mandates and the 
demand for its services have grown. With sufficient funding I believe 
we can improve our fishery management process.

    Question 8. Since the advent of the Magnuson-Stevens Act, in 1976, 
the Regional Fishery Management Council appropriation has experienced 
some increase for new mandates but not as rapidly as the National 
Marine Fisheries Service budget. For example, in the decade between 
1996 and 2006, the Council's budget increased by 50 percent from about 
$10 million to $15 million, while over the same time period the NMFS 
budget jumped from $300 million to $800 million, or a rise of nearly 
200 percent. Even funding for the National Marine Sanctuary Program 
(NMSP) has risen to a level more than double that of Regional Fishery 
Management Councils. However, Council responsibilities deal directly 
with issues such as jobs for fishermen and others in the seafood 
industry, the importance of sustainable food security and the need to 
minimize carbon footprints through fostering local fishing industries. 
The 2006 reauthorization the Magnuson-Stevens Act included several new 
mandates for the Regional Fishery Management Councils, including 
establishing annual catch limits and accountability measures. The NOAA 
Planning, Programming, Budgeting and Execution System (PBBES) supports 
a base budget of about $30 million for the Regional Fishery Management 
Councils. How will you ensure that the Regional Fishery Management 
Councils are adequately funded to meet all their responsibilities under 
the Magnuson-Stevens Act in 2009, 2010 and beyond?
    Answer. I will need the support of key Members of Congress to 
obtain additional funding for NOAA and look forward to working with you 
and your staff on this important challenge. NOAA cannot do its job 
without sufficient funding. NOAA needs more funding and I will work 
with OMB and Congress to get it. NOAA's FY 2009 budget request is $4.1 
billion. NOAA's appropriation has been flat at $3.9 billion since FY 
2005, while its mandates and the demand for its services have grown.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                           Dr. Jane Lubchenco
    Question 1. Last August, this Committee held a hearing on our 
Nation's failure to invest in next-generation climate modeling 
capability. As a result, we are falling behind in our ability to 
predict climate impacts at the regional and local scale. At that 
hearing, the witnesses discussed the need for an integrated, 
interagency effort to address the range of research, software, data 
storage and computing challenge associated with climate modeling. How 
should that be structured? What is the appropriate role for NOAA?
    Answer. I believe we need a National Climate Service to meet the 
needs of our Nation to better understand climate impacts and deliver 
information critical to adaptation, mitigation, and management 
planning. Working with many other agencies, including the EPA, the 
White House, Department of Interior, Department of Energy and 
Department of Agriculture, NOAA should lead a National Climate Service 
based on its existing mandates to provide climate information and 
services and experience managing end to end climate operations. NOAA 
can build upon its strong climate monitoring, research, and assessment 
capabilities, and translate climate data and research into information 
and services that address the needs of stakeholders at the local, 
state, regional, and national level.

    Question 2. The New England groundfishery is facing unprecedented 
challenges, as it looks to implement a sector-based management plan in 
2009. Do you believe that sector-based management will provide an 
effective mechanism to support the rebuilding goals of the Magnuson-
Stevens Act while providing a lifeline for the region's fishermen?
    Answer. I believe a sector-based approach is a useful idea to 
pursue, particularly since the measures that have been used in the past 
have not served our dual goals of supporting both fishermen and the 
resources.

    Question 2a. What role will you personally take in implementing 
sector-based management and ensuring the survival of the New England 
groundfishery?
    Answer. I will be personally engaged in this issue, along with a 
strong team I will recruit to NOAA.

    Question 3. Illegal, unreported and unregulated fishing poses a 
tremendous challenge for the sustainability of our ocean and fisheries 
resources. The absence of sanction measures within the Regional 
Fisheries Management Organizations (RFMOs) appears to be a significant 
challenge in enforcing any strong fisheries management measures within 
those organizations. Do you agree that this is a problem? Will the U.S. 
propose more stringent sanction measures within the RFMOs that it plays 
an active role in?
    Answer. Illegal, unreported and unregulated fishing is a terrible 
problem, as is the failure of IFMs to address it with real sanctions. 
The U.S. must be very tough at the International Commission for the 
Conservation of Atlantic Tunas (ICCAT) and in other international fora 
on the nations that continue to harvest species such as blue fin tuna 
at unsustainable levels. I believe that it is important to understand 
the science and use it to guide decision-making. Unfortunately, ICCAT 
has been ignoring the science and now the blue fin population is on the 
verge of collapse. I will work to change this if I am confirmed.

    Question 4. As you know, the International Whaling Commission (IWC) 
is the body charged with the conservation of the world's whales. The 
IWC is at a crossroads, and a new proposal regarding coastal whaling 
appears to support partial resumption of commercial whaling. As NOAA 
Administrator, will you seek to strengthen the existing commercial 
whaling moratorium? Do you plan to serve as the head of the U.S. 
delegation to the IWC?
    Answer. Unfortunately, despite the International Whaling Commission 
(IWC) moratorium on commercial whaling, there are thousands of whales 
killed each year and their meat ends up being sold in markets in Japan, 
Iceland and Norway. I will work to see that the scientific whaling 
loophole, and others like it that allow commercial whaling to continue, 
are closed. I have not made final decisions on the IWC after Dr. 
William Hogarth's term expires later this year.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                           Dr. Jane Lubchenco
    Question 1. Would you ever recommend using the Antiquities Act to 
designate a marine protected area?
    Answer. Antiquities Act decisions are made by the President. He 
ultimately has the discretion to use this authority regardless of my 
recommendation. However, I would advise the President that he consider 
all the tools at his disposal, including the NMSA and MSA. I would also 
strongly recommend that decision-making processes be open, transparent 
and informed by science as I have discussed in earlier questions. 
Further, I would advise where there are many constituencies and many 
concerns--for instance in an area that is highly utilized by 
recreational and commercial fishermen--the President should ensure that 
there is substantial consultation with user groups and accommodations 
of their concerns regardless of the authority used to make the 
designation.

    Question 2. Are you aware of any current proposals, either in the 
Administration or from environmental groups, to use the Antiquities Act 
to declare marine monuments in the Gulf of Mexico? If such a proposal 
would come before the President, would you support or oppose such 
action?
    Answer. I an not aware of any proposals being considered by this 
Administration to use the Antiquities Act to declare a marine monument. 
If such a proposal were to arise, I would advise the President as 
described above.

    Question 3. What role do you feel an adjacent coastal State should 
have in determining the location and potential restrictions of a marine 
protected area?
    Answer. As recognized in many statutes, states have a substantial 
stake in decision-making regarding management of coastal and marine 
resources. I believe that states and the Federal Government should be 
vital partners who work together to restore and protect our coastal and 
marine ecosystems and communities. If confirmed, I would look to 
existing partnerships as possible models, for example those in 
California, Rhode Island, and Massachusetts. These partnerships provide 
different approaches to improving ocean management, including 
establishing protected areas, in state waters. Among other things. I 
believe NOAA should provide them any requested technical assistance in 
that process.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                           Dr. Jane Lubchenco
    Question 1. To understand policies and priorities, one need look no 
further than the budget. I was pleased to see an increase in the 
previous administration's budget request for FY 2009 putting NOAA's 
overall request above $4 billion for the first time. But such increases 
have not been adequately represented across all of NOAA's functions. In 
fact, absent an increase in funding for satellite programs, the 2009 
request was a flatline, and the National Ocean Service (NOS) and 
National Marine Fisheries Service (NMFS) actually experienced a 
decrease of nearly $50 million each. It is in the process of allocating 
scarce funding resources that we truly reveal what programs we want to 
carry out and in what manner, and how we rank the importance of various 
programs. That is why, Dr. Lubchenco, I want to understand how you are 
preparing to provide leadership in NOAA's budget process.
    What is your opinion of the adequacy of NOAA funding under the 8 
years of the Bush Administration? While you have yet to put your mark 
on the FY10 budget request, what is your plan for working with the 
Office of Management and Budget to make sure that these other non-
satellite programs--fisheries, endangered species research, ocean 
science, marine mammals, and so on--receive the appropriate level of 
funding?
    Answer. Both Republicans and Democrats in Congress have told me, 
and I agree that NOAA needs more funding for FY10 and beyond if 
confirmed, I will work with OMB and the Congress to get it. The 
additional funding for NOAA in the stimulus package will help with 
funding satellites that have been eating away at resources for other 
programs within NOAA. As you noted, NOAA's appropriation has been flat 
at $3.9 billion since FY 2005, while its mandates and the demand for 
its services have grown. I will also work to ensure that going forward 
NOAA's budget process is robust, forward-looking. and adequately 
accounts for the Nation's needs for oceanic and atmospheric information 
and services.

    Question 2. As NOAA Administrator, you will be responsible for the 
Bush-established Climate Change Science Program Office--the CCSP--that 
has all but subsumed the U.S. Global Change Research Program--the 
GCRP--that Congress established under law in 1990. In reality, the 
research office has lacked any high level Agency attention for at least 
the last 4 years. Understanding the science of climate change is 
critical in developing a response to the massive problem as well as 
disseminating the data and information to develop momentum for major 
changes in energy and environmental policy as the U.S. Congress begins 
to debate climate change legislation this year and the U.S. negotiates 
an international climate change treaty.
    How do you believe NOAA should be updating or restructuring its 
policies for its Federal research program office for research and 
distribution of climate change data so it can be utilized by other 
Administration officials, Congress, and regional and local policymakers 
and stakeholders?
    Answer. I believe we need a National Climate Service to meet the 
needs of our Nation to better understand climate impacts and deliver 
information critical to adaptation, mitigation, and management 
planning. Working with many other agencies, including the EPA, 
Department of Interior, Department of Energy and Department of 
Agriculture, NOAA should lead a National Climate Service based on its 
existing statutory mandate to provide climate information and services. 
NOAA can build upon its strong climate monitoring, research, and 
assessment capabilities, and translate climate data and research into 
information and services that address the needs of stakeholders at the 
local, state, regional, and national level.

    Question 3. Dr. Lubchenco, as you and I discussed in depth at the 
hearing, we must find ways to improve the relationship between NMFS and 
New England's fishermen. As long as this contentious relationship 
continues, it will undermine any attempts to move forward with 
credibility and cooperation. I truly appreciate your commitment to 
improving the ``climate of trust'' in the region, and I hope to work 
with you closely to achieve this.
    Are you willing to commit to closely examining the culture and 
attitudes pervasive in the Northeast Regional Office and its 
leadership, and report back to me on the changes you make to improve 
the way it interacts with fishermen?
    Answer. To improve the relationship between the Agency and the 
fishing industry and fishing dependent communities, it would be 
beneficial for NMFS to increase its social science capabilities. This 
would enable the Agency to understand the impacts of regulations prior 
to their implementation and plan accordingly to mitigate the negative 
effects. In addition, this would go a long way in building more 
productive relationships between the Agency and communities. However, 
in order to increase social science capabilities, NMFS will need to 
hire many additional individuals with this type of expertise.

    Question 3a. Can you commit to putting a greater emphasis on NMFS 
socio-economic funding, research, and assessment, so that you have a 
greater understanding of the attitudes and behaviors of fishing 
community members that NMFS is trying to regulate?
    In your response to a pre-hearing question from one of my 
colleagues on the Committee, you answered that you believed being asked 
to choose between protecting the environment and expanding the economy 
was a ``false choice'' and that both could and should be accomplished 
simultaneously. I happen to agree with that assessment, so I would ask 
you:
    Do you believe that ``false choice'' also applies to the manner in 
which we manage our fisheries? Can we balance concerns for the long-
term health of the fish stocks with the short term health of our 
fishing communities?
    The Magnuson-Stevens Act mandates that NMFS minimize the 
socioeconomic ramifications of its fishery management plans on our 
communities while achieving optimum yield from the fishery. Do you feel 
that balance is being achieved today?
    Answer. Yes. I am fully committed to improving the relationship 
between NOAA and fishermen all over the country, including in New 
England. I will personally work to improve the trust between the agency 
and fishermen, and look forward to regularly reporting back to you on 
the changes we are making. In addition, I intend to hire a senior 
advisor, who will report directly to me, whose entire responsibility 
will be to conduct outreach to commercial and recreational fishermen 
and fishing communities. I will also commit to putting greater emphasis 
on understanding the perspectives of fishermen and fishing communities 
and the socio-economic dimensions of the regulations imposed by the 
agency. If confirmed, I look forward to working with you on this 
effort. We must work together to help solve these difficult problems. 
The viability of our fisheries depends upon healthy fish populations 
and healthy oceans. We must find a way to achieve long term 
sustainability for our fisheries in New England and elsewhere. Fishing 
is an important way of life and an integral part of our coastal 
heritage and culture.

    Question 4. As a world-class scientist, Dr. Lubchenco, you have 
been at the forefront of scientific advancement and you understand the 
importance of data collection, data management, and data 
interpretation--and the need to ensure objectivity and integrity 
throughout the scientific process. But so often in fisheries 
management, NMFS lacks the stock assessment funds and resources that 
are necessary to gather enough data to support quality and timely 
analyses. As a result, our Council members are forced to make 
management recommendations based on incomplete data, different 
conclusions from competing models, and--as a result--a significant 
range of scientific uncertainty. And now the stakes are higher, because 
the Magnuson-Stevens Reauthorization Act of 2006 mandates science-based 
catch limits.
    What is your philosophy about making policy and management 
decisions in the face of scientific uncertainty?
    Given the fact that there will always be some degree of scientific 
uncertainty in fisheries management, would you direct NMFS to follow a 
strict precautionary principle that sets stronger fishing limits until 
there is proof that stocks can withstand more fishing? If so, how do 
you know when you have enough evidence to serve as this proof, and who 
would shoulder the burden of proof?
    Are there alternatives to the precautionary principle that you 
would support, such as adaptive management, that would allow managers 
to strike a balance between harvesting and resource conservation?
    Answer. My philosophy as a policymaker is to make the best 
decisions possible in the face of scientific uncertainty. As a 
principle, it is better to he precautionary, but policymakers must also 
be practical. Ultimately, I will be guided by the law, and the Magnuson 
Act Amendments mandate an end to overfishing by 2011. If confirmed, I 
pledge to work with you and to never surprise you with a decision that 
negatively impacts fishermen in your state.

    Question 5. Not only does NMFS need to collect more data, but they 
need to help make this information accessible and credible in the eyes 
of fishermen. Dr. Lubchenco, you and I discussed how cooperative 
research can help to bridge this gap between the industry and 
scientists. But the fact is, various forms cooperative research has 
been around for at least a decade, and it has been occurring at the 
same time that trust between scientists and fishermen has evaporated. 
This may have something to do with a 45 percent decrease in funding 
from $18 million in 2007--already pitifully low given that national 
landings value in our fisheries is over $4 billion annually--to just 
over $10 million in 2008.
    Since traditional cooperative research has had limited and mixed 
success in improving the scientist-fisherman relationship, how would 
you propose improving the way cooperative research is done in the 
Northeast and throughout the Nation?
    What steps would you take to evaluate the effectiveness of 
cooperative research, and ensure that it is actually used in making and 
improving management decisions?
    Answer. In my own experience I have seen cooperative research 
programs work very effectively on the West Coast. I have not studied in 
depth the problems with them in the Northeast region, but if confirmed, 
I pledge to do so. I will use my experience to evaluate what has worked 
and what has not with these cooperative research programs, and report 
back to you.

    Question 6. As you become more familiar with the New England 
groundfishery, I'm sure you'll learn about its history with management 
based on allocating days-at-sea and the steps the Council is taking to 
shift to sector-based management--a management method allowing 
fishermen more control through self-selecting, cooperative 
organizations. Completing this transition may not be possible, however, 
if NMFS's proposed interim rules are allowed to proceed. By slashing 
days-atsea by sixty percent in many cases leaving fishermen with just 
20 days to go fishing, NMFS's rules would bankrupt the industry--
including infrastructure, shoreside support, and seafood industries--
and this change could be irreversible, especially in Maine where so 
many fishermen have already left.
    Dr. Lubchenco, I understand that NMFS's interim proposed rules are 
a product of the Bush Administration, so you cannot speak to their 
formation. But under your leadership, what direction would you give 
NMFS for guiding its work in developing the final groundfishing rule?
    Specifically, would you direct them to use direction, already in 
the Magnuson-Stevens Act and regulatory guidelines, for appropriately 
considering and weighing the social and economic impacts of these 
rules?
    Would you direct NMFS to use the flexibility it has under the MSA 
which specifically allows temporary interim rules to allow limited 
overfishing on a limited bases--in combination with accountability 
measures--so other management objectives could be achieved in future 
years?
    Can you commit to giving more consideration to approving the 
interim rules proposed--and overwhelmingly approved twice by the 
Council--that would allow more fishing but still mandate accountability 
measures for overfishing and meet other legal requirements?
    Answer. I understand that the New England groundfish rules have 
been an ongoing controversy, most recently in the courts and also in 
the New England Fishery Management Council. If confirmed, I will review 
the proposed interim final rule and ensure it fully complies with all 
the provisions of the Magnuson-Stevens Act, including the requirement 
to weigh the social and economic impacts of these rules.

    Question 7. The concept of ecosystem management has, as you know 
better than any of us, been around for decades. I agree that fisheries 
management should consider and incorporate diverse information inputs 
and explore new models to understand and explain ecosystem function. 
Beyond these basic ideas, however, the definition of ``ecosystem 
management'' is still unresolved in the academic community. Several 
groups, including your Pew Ocean Commission, have advocated for 
ecosystem management of fisheries, and I'm curious to learn where you 
stand on this as a pillar of fisheries policy.
    What is your definition of ``ecosystem management'' today and how 
would you apply this to marine fisheries?
    Do you think that there is consensus across the academic, industry, 
and environmental communities about what ecosystem management is and 
how it is carried out?
    Do you think that fisheries ecosystem management should be mandated 
by law, or do you think NOAA has sufficient authority to move in this 
direction now, as evolution of the field permits? If you do not think 
NOAA has the authority to incorporate more ecosystem information in 
management as it becomes available, exactly what is preventing this?
    Answer. I believe strongly in the use of ecosystem-based 
management, and there is growing consensus on its use. Ecosystem-based 
management is far superior to managing ocean resources on a sector-by-
sector basis and I would like to see states and local governments work 
toward using this approach. I believe NOAA should lead by example--NOAA 
should look at its own management decisions on a more ecosystem basis 
rather than by sector or statute. I hope to implement greater regional 
governance within NOAA across its programs. My predecessor, Admiral 
Lautenbacher, began the difficult process of breaking down the 
``silos'' within NOAA. If confirmed, I would like to continue and 
increase those efforts.

    Question 8. The economic impacts of endangered species listing can 
exacerbate an already fragile economy. Clearly, we must protect our 
endangered species and live up to the intent of the landmark Endangered 
Species Act, at the same time I think we can all agree that it is 
incumbent on Federal agencies that they provide the resources to 
implement the species recovery plans. In my home state of Maine, 
however, we have failed to receive even a modest amount of funding to 
restore our salmon fisheries, while massive amounts of resources are 
dedicated on the West Coast. Clearly, there needs to be a comprehensive 
plan to restore the salmon fisheries, and the State of Maine has worked 
tirelessly to coordinate with the Federal agencies. At the same time, 
bureaucracy has prevented the Federal Government from effectively and 
efficiently working with the State of Maine to develop a recovery 
strategy. One major cause of this failure on the part of the Federal 
Government is that both the Interior Department and NOAA jointly 
implement ESA issues involving Atlantic salmon, while on the Pacific 
coast, NOAA is the clear lead authority. While I strongly believe that 
the Interior Department should be a partner in recovery efforts, NOAA's 
expertise in both ocean and river ecosystems, should be the lead 
agency.
    Do you believe that NOAA should be the lead agency in implementing 
recovery of the Atlantic salmon? Do you believe that current Federal 
resources dedicated to species recovery are sufficient to develop 
sustainable populations?
    Answer. I am not yet familiar with the specific issues regarding 
recovery of Atlantic salmon in Maine, and the interagency 
jurisdictional issues involved. But if confirmed I will study these 
issues and will answer your questions regarding them. I will also work 
with you to obtain additional funding for recovery efforts because in 
my experience these are generally underfunded.

    Question 9. International Conservation and Trade Sanctions: 
Sections 609 and 610 of the High Seas Driftnet Fishing Moratorium 
Protection Act--which were added as part of our last Magnuson 
Reauthorization--provide your agency with an extraordinary new set of 
powerful tools to combat IUU fishing and to improve protected species 
conservation through bycatch reduction. In particular, as we have 
learned through the painful failures of ICCAT to conserve bluefin 
tuna--the use of trade sanctions to control the market for fish 
harvested illegally appears to be the only effective tool left to 
prevent the wholesale destruction of some international fisheries. 
Similarly, the blatant disregard for bycatch conservation in foreign 
fisheries such as the failure to use circle hooks and other proven 
techniques in their pelagic longline fisheries completely undermine 
very comprehensive U.S. efforts to protect bycatch species such as sea 
turtles developed in close cooperation with our own swordfish and tuna 
longline fisheries. Will you aggressively implement and enforce these 
provisions? What are the consequences if you don't?
    Answer. It is not fair to our fishermen to hold them to a higher 
standard than we are willing to require of the rest of world's fish 
products that are sold in the United States. At the same time the U.S. 
has an important leadership role to play by setting the best possible 
example for the rest of the world. It is imperative that we work 
internationally to end the overfishing crisis and soon. If confirmed, I 
will take hard look at the problem of how to stop illegal fish from 
coming into the U.S. The U.S. must be very tough at regional fisheries 
management organizations (RFMOs) and in other international fora on the 
nations that continue to break the rules and exploit loopholes in ocean 
governance systems. If confirmed, I will aggressively implement and 
enforce the relevant provisions of the Magnuson-Stevens Act and the 
High Seas Driftnet Fishing Moratorium Act.

    Question 10. A similar provision lies in the Marine Mammal 
Protection Act which requires other nations to achieve the same 
standards of marine mammal bycatch protection as are required in U.S. 
fisheries in order to enjoy the benefits of selling their fish on the 
U.S. market. (MMPA section 101(a)(2) 16 U.S.C. 1371(a)(2)). Although 
Congress clearly intended that the failure to achieve U.S. standards 
would result in a trade sanction, it appears your agency and others 
have never implemented this provision of law. The Center for Biological 
Diversity filed a petition almost a year ago (March 4, 2008) asking the 
Departments of Commerce, Treasury and Homeland Security to ban imports 
of swordfish from countries that have failed to submit proof that they 
have met the U.S. standards as required by law. Do you support 
aggressive implementation of this authority?
    I understand a proposed rule has been issued to seek comments on 
this petition, but given the extraordinary delay in responding so far--
what do you envision is the time-frame for implementing this law? Are 
there other fisheries than swordfish that should be addressed as well?
    Answer. I am not yet, familiar with the specific issues regarding 
trade sanctions in fisheries, and would look to my colleagues in the 
Administration for their expertise in these issues. In general. I 
support the use of all available tools to stop the unfair trade in 
illegal, unregulated and unreported fishing for swordfish, tunas and 
other pelagic species. If confirmed, I would move quickly to make 
progress on these issues.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Johnny Isakson to 
                           Dr. Jane Lubchenco
    Question 1. Describe your expectation of how sound science should 
inform marine and endangered species issues.
    Answer. Throughout my teaching, leadership of large organizations, 
and participation in public service, I have emphasized the important 
role of clear scientific input in decisionmaking. I have stressed my 
belief that science should inform, not dictate, decision-making. 
Decisions should be based on a range of factors including values, 
economics, politics, and science. In other words, scientific 
information alone should not drive decisions, but it should be 
available in an understandable, relevant, salient, and credible fashion 
so that it can be taken into consideration. Scientific information 
should clearly articulate what is known and what is not known about a 
particular topic, and with what degree of certainty. It should describe 
what is known about how systems work, how they are changing and the 
likely consequences of different policy choices.
    Policy decisions on marine fisheries and endangered species are 
made by government leaders, and should be informed by the best 
scientific information available, in consultation with all interested 
parties.

    Question 2. NOAA Marine Fisheries recently declared that flow 
reductions in the drought-stricken Savannah River would be adverse to 
the endangered Short Nose Sturgeon. Yet no science-based analysis was 
conducted to justify this adverse finding, and neither I nor my staff 
has been given any data by NOAA to support the decision. Given your 
view on the use of science in policymaking and regulation (see above), 
was the adverse finding appropriate?
    Answer. I am not familiar with the NOAA decision regarding the 
Short Nose Sturgeon. If confirmed, I will immediately look into this 
issue and provide an answer.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. David Vitter to 
                           Dr. Jane Lubchenco
    Question 1. Recreational fishermen and conservationists were 
pleased on September 26, 2008 when President Bush signed an amendment 
to Executive Order #13474. It stated that ``recreational fishing shall 
be managed as a sustainable activity in national wildlife refuges, 
national parks, national monuments, national marine sanctuaries, marine 
protected areas, or any other relevant conservation or management area 
or activities made under any Federal authority, consistent with 
applicable law.'' Do you plan to ask the new Administration to uphold 
this EO or will you move to repeal it?
    Answer. If confirmed, I do not intend to seek changes to this 
Executive Order.

    Question 2. In establishing any Marine Protected Area (MPA), the 
Magnuson Act requires: (1) an open, public process that is based on the 
best scientific information available; (2) criteria to assess the 
conservation benefits of the closed area; (3) establishment of a 
timetable for review of the closed area's performance that is 
consistent with the purposes of the closed area, and (4) that it be 
based on an assessment of the benefits and impacts of the closure. Do 
you plan to follow the statutes?
    Answer. Absolutely.

    Question 3. President-Elect Obama stated in the October 2008 
edition of Sport Fishing magazine that ``The decision to establish 
marine reserves should be made as a result of a transparent, science-
based process and be the least intrusive possible to get the job 
done.'' Given your advocacy in favor of No Fishing Zones, will you 
support the President-Elect's position as outlined in his interview?
    Answer. Yes.

    Question 4. What is the largest number of people you have ever 
actually been responsible for? What was that role and what kind/level 
of staff were you leading?
    Answer. I have led numerous large, complex projects and 
organizations and served on Boards of Directors for major foundations, 
governmental organizations and non-governmental organizations. These 
projects, organizations and boards and my roles include:

  <bullet> American Association for the Advancement of Science 
        (President and Chair of Board of Directors)

  <bullet> International Council for Science (President and Chair of 
        Board of Directors)

  <bullet> National Academy of Sciences (Board of Directors)

  <bullet> Partnership for Interdisciplinary Studies of Coastal Oceans 
        (Founding Principal Investigator and Chair of Steering 
        Committee)

  <bullet> National Science Board (Board of Directors for the National 
        Science Foundation)

  <bullet> David and Lucile Packard Foundation (Board of Trustees)

  <bullet> Communication Partnership for Science and the Sea (Chair of 
        Principals)

  <bullet> Aldo Leopold Leadership Program (Founding Chair)

  <bullet> Monterey Bay Aquarium (Board of Trustees)

  <bullet> Monterey Bay Aquarium Research Institute (Board of Trustees)

  <bullet> Ecological Society of America (President, Chair of Board of 
        Directors)

  <bullet> Environmental Defense Fund (Director and Vice Chair of Board 
        of Directors)

  <bullet> Climate Central (Founding Director and Vice Chair of Board 
        of Directors).

    The size of staff and budget of these organizations varies. The 
larger ones that I have led include:

  <bullet> American Association for the Advancement of Science

    <ctr-circle> Headquarters in Washington, D.C.

    <ctr-circle> Offices in North America, Europe, Asia

    <ctr-circle> 143,000 members

    <ctr-circle> 330 employees

    <ctr-circle> Budget $66.4 million

    <ctr-circle> As President and Chair of the Board of Directors, I 
            had direct responsibility for the senior staff, budget, 
            policy, and strategic direction of the organization.

  <bullet> International Council for Science

    <ctr-circle> 116 countries are the ``national members''

    <ctr-circle> 30 international disciplinary unions are ``union 
            members''

    <ctr-circle> Offices in Europe, Asia, Africa, Latin America

    <ctr-circle> Responsibility for 18 international organizations or 
            programs such as the International Polar Year, the 
            International Geo-Biosphere Program, the Scientific 
            Committee on Ocean Research, the Scientific Committee on 
            Atmospheric Research.

    <ctr-circle> As President, I had direct responsibility for the 
            senior staff, budget, strategic direction, policy and 
            management of the organization.

    In my more than thirty-year career as a scientist, simultaneously 
managing multiple ongoing research projects, and other scientific, 
academic, and policy endeavors, I have gained a wealth of experience in 
running an enterprise. I understand firsthand how to manage budgets, 
build a management team, maximize human resources, do strategic 
planning and solve problems to deliver tangible results.

    Question 5. I'd like to know if there are any efforts being made on 
finding ways to accurately predict fog and confirm its density/
duration/extent, particularly on shipping channels leading to major 
ports. Is there any infrared or other commercial vision technology 
available that can see through fog accurately and enable ships, 
aircraft and vehicles to move safely? This is one area where marine 
technology is lagging and causing long, unexpected delays for marine 
and other transportation services, especially in winter months.
    Answer. I do not know if NOAA is conducting research on fog 
prediction. If confirmed, I will look into your question immediately 
and provide you with an answer. Ensuring maritime safety is a very 
important part of NOAA's mission--it is a responsibility I take very 
seriously.

    Question 6. What is your opinion of Congressman Oberstar's `Clean 
Water Restoration Act' and making every stream, pond or puddle subject 
to Federal regulation under the Clean Water Act?
    Answer. I have not studied Congressman Oberstar's proposal. If 
confirmed, I will. But since NOAA does not have authority to act under 
the Clean Water Act, I will defer to my colleagues in other agencies 
for their interpretation of this legislation.

    Question 7. If you have a choice between protecting the environment 
and in turn shrinking the economy or expanding the economy and 
improving the environment as technologies advance, which would you 
choose as the appropriate policy decision?
    Answer. I do not believe that protecting the environment shrinks 
the economy--in my view this is a false choice. Our environment is 
better managed than it was in the early 1970s when the country first 
started passing modern environmental protection laws. Yet this 
environmental protection has not caused economic collapse. In fact, our 
economy has increased in size nearly 10 times over that period. In my 
years of research and study, I have found that the failure to protect 
the environment and our precious natural resources is far more 
expensive to society and the economy in the long run, than the 
immediate costs associated with environmental protection. Any short-run 
costs to protect the environment generally result in human health 
benefits as well as a sustainable economy that will provide jobs and 
profits not just today but for our children and their children. The key 
for the government is to create incentives to ensure that technology 
improvements keep pace with overall economic growth, and to invest in 
cutting edge science and technology.

    Question 8. The state of California has proven what a disaster cap-
and-trade can be for an economy. California moved forward, despite an 
economic downturn, on a cap-and-trade program that was justified by 
issuing what almost all experts agree was a rigged study on the 
economic impact of the cap-and-trade system. When the California Air 
Resources Board (CARB) asked five independent economists to do an 
analysis of the regulations and the study, Harvard's Robert Stavins, 
chairman of the Federal Environmental Protection Agency's economic 
advisory committee under Bill Clinton, stated that ``None of us knew 
who the other reviewers were, but we all came up with almost the same 
conclusion. The report was severely flawed and systematically 
underestimated costs.'' These ``underestimations'' have been a disaster 
for the state of California forcing the state to shed more jobs than 
any other since 2007. The fact is that climate change legislation will 
be expensive and energy intensive industries will move overseas. What 
can we do to prevent what has happened in California from happening to 
the rest of the country? In addition, what can we learn from the 
California debacle?
    Answer. I have not studied the California situation you describe. 
It is my understanding that California's cap-and-trade policies will 
not go into effect until 2012. However, because NOAA does not have 
authority for regulating greenhouse gas emissions or for setting energy 
policy, this is not an issue for which I would have responsibility. 
NOAA's role is to ensure that policymakers have the best possible 
scientific understanding of the extent and impacts of climate change so 
that regulation and policies can reflect this information. If l am 
confirmed, I would work hard to discharge this responsibility 
efficiently and effectively. Some of the impacts of climate change that 
are relevant to these discussions include sea level rise, changes in 
air and water temperature, changing patterns of drought and intense 
precipitation, and increasing acidity of oceans. NOAA should play the 
role of honest broker in climate discussions by providing credible 
scientific data and analysis to assist policymakers in Congress, state 
and local governments, and the private sector in developing appropriate 
policies.

    Question 9. How does an increase in the cost of energy affect low-
income families?
    Answer. NOAA's mission does not include energy policy matters. If 
confirmed I would look to Congress and my colleagues in the relevant 
agencies for this information. NOAA does have a key role to play here 
in helping Americans across the socio-economic spectrum make cost-
saving decisions about a wide variety of matters from weatherization to 
storm preparation by providing high quality weather and climate 
forecasting services

    Question 10. What kind of ``flexible mechanisms'' for industry and 
energy producers would you like to see available in future climate 
change legislation? In addition, serious concerns have been raised in 
regards to the loss of manufacturing jobs here in the United States to 
our international competitors over the last decade, in large part due 
to the cost of doing business (regulatory and energy) here in the 
United States. How do you think climate regulation, such as ``cap and 
trade'' or a carbon tax, help make manufacturers more competitive so we 
can retain industry and jobs?
    Answer. There is no doubt that our planet is warming, and the 
impacts of that warming are profound and must be dealt with. If I am 
confirmed as NOAA Administrator, my primary concern will be to ensure 
that businesses as well as Federal, state and local governments have 
the information they need to deal with the impacts of climate change. I 
also hope that NOAA can play the role of honest broker in the climate 
debate by providing uninhibited scientific data and analysis that can 
assist policymakers and Congress in developing regulatory mechanisms 
for dealing with greenhouse gas emissions.

    Question 11. It has been noted by a number of industry 
representatives that some of the climate change proposals over recent 
years would result in the most expensive regulatory scheme in U.S. 
history. In light of the incoming Administration's efforts to pass a 
`stimulus' package that may well exceed $1 trillion, would the cost to 
industry of complying with climate change regulation be 
counterproductive?
    Answer. I understand that regulations impose costs on the 
businesses that must comply with them. However, it has been pointed out 
that the costs of NOT dealing with climate change are immense and 
potentially devastating to our economy and society. l note that there 
are also strong arguments that controlling greenhouse gas emissions 
will spawn a new wave of technologies and business opportunities that 
will both expand our economy and improve our competitiveness. Market 
based mechanisms to reduce greenhouse gas emissions will create 
incentives for the development of new technologies that are more energy 
efficient and less harmful to the environment, and eventually will 
result in more jobs and revenue for the economy than our current 
dependence on fossil fuels. Regardless of these considerations, NOAA is 
not directly responsible for setting these policies. Its role is to 
assisting policymakers by providing information about ongoing changes 
in the climate and likely impacts of future climate changes.

    Question 12. Do you support the use of the National Marine 
Sanctuaries Act, including all the critical public and transparent 
processes under the Act, to establish future marine protected areas or 
other marine restricted areas?
    Answer. Yes.

    Question 13. Aerial photography is a commercial activity. It is 
recognized as such in OMB Circular A-76 and by virtue that other 
agencies (USGS, FEMA, TVA, USDA, Corps of Engineers) contract such work 
to the private sector in Louisiana and other states. Yet NOAA is still 
in the business of owning and operating their own aerial photo planes, 
and recently buying new ones, and owning cameras, including new digital 
aerial cameras, and collecting their own aerial photography when this 
capability already exists in a superior capacity in more than 100 
private firms. Do you believe it is appropriate for NOAA to be 
competing with and duplicating the private sector in Louisiana and 
other states, and operating a commercial activity within the Commerce 
Department?
    Answer. I am not yet familiar with the specific issues regarding 
NOAA's aerial photo planes and equipment or OMB Circular A-76. If 
confirmed, I assure you that I will study this issue carefully and 
ensure that NOAA resources are used wisely and efficiently.

    Question 14. Since 1998 U.S. Department of Commerce Inspector 
General Reports and GAO reports recommended that NOAA's aircraft fleet 
and hydrographic ships be privatized, not expanded. In 2000, a NOAA-
financed report was conducted by an organization called ``Mitretek'' 
found that NOAA's aircraft used for aerial photography, is twice as 
expensive to operate as the equipment used by the private sector in 
Louisiana and other states. Will you look at NOAA eliminating these 
activities, and help our private sector, and our small business in 
Louisiana and other states, by potentially privatizing these 
activities, particularly when the GAO, Commerce IG and NOAA's own study 
show the taxpayer can be better served by contracting these services to 
the more efficient private sector?
    Answer. I understand the need to save costs and minimize 
duplication with the private sector. If confirmed. I assure you that 1 
will study this issue carefully and ensure that NOAA resources are used 
wisely and efficiently.

    Question 15. For over a decade, Congress has been encouraging and 
indeed mandating that NOAA transition from in house performance to 
contractor performance of its surveying and mapping related 
requirements, including charting and hydrographic surveying. This has 
been a bipartisan push as not only Congress, but it was also a Clinton 
Administration's National Performance Review (also known as Reinventing 
Government) championed by then-Vice President Gore. What steps will you 
take to follow this bipartisan initiative?
    Answer. If confirmed, I pledge to review the studies you 
mentioned--the GAO Report, Commerce IG report, and other relevant 
information--and review the merits and cost effectiveness of targeted 
contractor performance.

    Question 16. Over the past decade, there has been a tendency to 
seek advice from the National Academy of Sciences to help resolve 
uncertainties and internal disputes. This tendency reflects the hard 
reality that science is not always easy and that people can differ and 
still be responsible and well-meaning. Do you support the continued 
role of the NAS to address science issues? Given the delay this often 
causes, do you have an idea of an alternative dispute resolution forum 
that could assist?
    Answer. I value the important role that the National Academy of 
Sciences plays in providing external assessments of the state of 
scientific knowledge about key issues or reviews of important existing 
or proposed programs. I also respect the scientific expertise within 
NOAA. Each has its place. As a scientist, if I am confirmed. I intend 
to pay close attention to ensuring that NOAA bases its decisions on the 
best possible scientific information regardless of the source.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                          to Dr. John Holdren
    Question 1. What do you foresee as your greatest challenge as 
Director of OSTP (Office of Science and Technology Policy)?
    Answer. In a way, the biggest challenging facing OSTP is and always 
has been how to meet its very diverse and substantial responsibilities 
with the small staff and budget at its disposal. This challenge 
translates into the need to recruit extremely talented, organized, and 
dedicated staff members--starting with the Associate Directors but 
extending right down through the secretaries--who will be both 
ingenious and hard-working in order to get it all done.
    Another (and related) challenge is to develop the needed working 
relationships--with the President and Vice President, with the OMB and 
NSC and NEC, with the other S&T-rich Executive Branch departments and 
agencies, and with the Congress--without which there is no hope of OSTP 
doing the job that is needed from it. Meeting this challenge is a 
matter of investing the effort to create and nurture those 
relationships (an effort that must start with but cannot be limited to 
the OSTP Director), which means a lot of listening, not just talking.
    These challenges of process are large, but not larger than the 
challenges of substance faced by OSTP in formulating advice--augmenting 
that of the other relevant departments, agencies and offices and 
recognizing the prerogatives of the Congress about S&T and the economy, 
S&T and national and homeland security, S&T for national and global 
public health, the role of S&T in addressing the energy/climate-change/
oil-dependence challenge, and more. The challenge facing OSTP and all 
other organs of government that deal with science and technology is to 
help figure out how government, business, academia, and foundations and 
other NGO's can more effectively collaborate in developing and applying 
science and technology in ways that address all these dimensions of the 
well-being of our citizens.

    Question 2. Dr Holdren, it has been said that climate change is an 
issue that we need to innovate our way out of, not regulate our way out 
of. As the Director of OSTP, what role do you see yourself playing in 
technology innovation to address climate change?
    Answer. Science, technology, and innovation are all going to be 
crucial in mastering the climate-change challenge. We need to work 
harder on the science of climate change in order to better understand 
the ways in which the climate is changing and is likely to change going 
forward and to better understand all of the leverage points and 
possibilities for mitigation and adaptation. We need to make more 
extensive use of technologies already in hand for more efficient energy 
conversion and end-use, lower-carbon electricity generation and liquid-
fuel production, and soil and forest management to minimize greenhouse-
gas emissions. And we need innovation--research, development, 
demonstration, and accelerated deployment--of improved and new options 
for doing all of these things more efficiently, less expensively, and 
with smaller unwanted side effects.
    With respect to the science dimension, it is in the nature of the 
problem that much of the relevant work will need to be funded and 
coordinated by the Federal Government, and this means that OSTP should 
play a role. While most of the funding in this domain will come through 
the budgets of NOAA, NASA, NSF, DOE, Department of Interior, Department 
of Agriculture, EPA, and more, OSTP has a responsibility to work with 
OMB and the Congress to see that the needed budgets materialize and 
that the tasks are appropriately allocated and coordinated across 
agencies. This obligation will entail, among other things, working to 
ensure that the provisions of the Global Change Research Act (GCRA), 
including modifications to it likely to be enacted in the new Congress, 
are properly carried out, and that the Climate Change Science Program 
(CCSP) that operates under that act fulfills its responsibilities and 
reaches its full potential. OSTP also has a responsibility to ensure 
that the findings of these scientific efforts are made known to the 
decisionmakers in both the Executive Branch and the Congress who need 
this information in order to craft appropriate policies for meeting the 
climate challenge.
    With respect to the technology and innovation dimensions, the role 
of the private sector will be larger and that of the government small 
in comparison to that, but nonetheless critical in relation to 
augmenting the incentives for firms and individuals to choose climate-
friendly technologies and for firms to invest in the R&D needed to 
develop better ones, as well as in contributing funding for early-stage 
and high-risk R&D where the private sector on its own would do less 
than society needs. The government's role in the technology and 
innovation aspects of the response to the climate challenge must also 
include fostering public-private partnerships in innovation where the 
comparative advantages of both sectors are brought to bear, as well as 
helping with the financing of costly demonstration projects (such as 
for CO<INF>2</INF> capture and sequestration) where the scale and risk 
of the needed efforts would inhibit solely private approaches. While, 
again, many Executive Branch departments and agencies as well as the 
Congress must be and are involved in shaping and implementing these 
functions, a number of which are carried out under the auspices of the 
Climate Change Technology Program (CCTP) created under the GCRA, the 
OSTP has an important facilitating and coordinating role.
    Two further roles of OSTP in relation to the climate-change 
challenge should be mentioned, and both have to do with the ``P'' in 
OSTP. The existing technologies germane to addressing the challenge 
will not be deployed, nor will improved and new ones be developed and 
deployed, with the pace and in the magnitude that the challenge 
requires unless and until there are national policies in place that 
either require increased use of such technologies or reward their use 
by penalizing emissions of greenhouse gases. In this respect, meeting 
the challenge is not a matter of innovation or regulation but rather of 
innovation and regulation. And OSTP has a role in helping to ensure 
that the people crafting the policies have the information they need--
about the science of climate change and its impacts and about the 
technologies available to respond to it--in order to make those 
policies both adequately responsive and technically and economically 
realistic.
    The other relevant role of OSTP in the policy domain relates to 
policy for the strengthening of science, technology, engineering, and 
mathematics (STEM) education our country will need if we are to have 
the workforce required, going forward, to expand and sustain research 
and innovation addressing the climate challenge, and if we are to have 
the degree of public understanding of that challenge, and the role of 
science and technology in addressing it, required to gain and sustain 
the public's support for the needed efforts.

    Question 2a. Can you outline a strategy to make coal compatible 
with a safe climate?
    Answer. The key here is to finish developing and demonstrating, and 
then to widely deploy, technologies that can capture and sequester away 
from the atmosphere the carbon dioxide (CO<INF>2</INF>) that burning 
coal ordinarily releases to the atmosphere. I'm on record in the 
reports of the independent, bipartisan, foundation-funded National 
Commission on Energy Policy (in which I have served as Co-Chair), and 
elsewhere, as favoring increased public and private investment in--and 
public-private partnerships for--research, development, and 
demonstration of such technologies. President Obama is also on record 
favoring this approach, and funding for pursuing it will be part of the 
$150 billion he has committed to spend over a ten-year period on clean 
energy technologies.
    Demonstration and pilot-scale facilities have established or are in 
the process of establishing the feasibility of all of the major 
components needed for CO<INF>2</INF> capture and sequestration (CCS) by 
a number of different routes, and CCS is being practiced on a near-
commercial scale using CO<INF>2</INF> sources other than coal-burning 
in several locations around the world. It is time to put all of the 
ingredients together in some integrated demonstrations of CCS in large 
coal-burning power plants, using coals of different types, technologies 
that would be suitable for retrofit of existing plants as well as 
others that would only attractive in plants built from scratch, and 
different geologic formations for the sequestration stage.
    Such projects will help to determine which approaches to capture 
are going to be most versatile and economical and to better 
characterize the sequestration performance of a variety of candidate 
geologic environments. In parallel, work will be needed to determine 
how best to address legal and regulatory issues that would arise with 
large-scale use of these technologies.
    CCS will not be inexpensive. Given the cost, CCS technologies for 
coal-fired power plants will not be deployed on a large scale unless 
this is required by regulations or motivated with incentives in the 
form of significant financial rewards for reducing CO<INF>2</INF> 
emissions (achievable, for example, with tradable emissions permits or 
a carbon tax). In other words, getting CCS implemented will require 
significant policy initiatives aimed at that result.

    Question 2b. Dr Holdren, you have said that a market signal is 
necessary for the development and deployment of carbon capture and 
storage technologies with ongoing coal use. What role can OSTP (Office 
of Science and Technology Policy) play as Congress and the Federal 
agencies determine what that market may look like?
    Answer. The national climate policy that the country will need in 
order to get on a path of reductions in greenhouse-gas emissions 
corresponding to the President's announced goals in this domain will 
emerge from collaboration and interaction between the Executive Branch 
and the Congress. Within the executive branch, many different 
departments and agencies will be involved, and in recognition of the 
size of the associated coordination challenge a new position of Energy-
Climate Policy Coordinator has been created in the Executive Office of 
the President and filled by former EPA Administrator Carol Browner. The 
role of OSTP in this process will be to ensure that all of the relevant 
science and technology information needed as input to the crafting of 
sensible climate-policy proposals is available to the President and 
Vice President, to Ms. Browner, to the inter-agency process they will 
lead, and to see that this science and technology information is shared 
as well with the Congress.

    Question 3. Dr. Holdren, coordinating climate science research 
across the Federal Government is challenging given the number of 
Federal agencies involved and different agency priorities. As the 
Director of OSTP (Office of Science and Technology Policy), how do you 
propose prioritizing climate science research efforts and strengthening 
U.S. research efforts on climate change?
    Answer. If confirmed, I will see that OSTP works with NOAA, NASA, 
NSF, DOE, EPA and the other relevant executive-branch departments and 
offices, as well as with the Congress, to ensure . . .

        1. that the Nation has a strong, integrated climate-science 
        program to observe, understand, predict, and respond to climate 
        change;

        2. that OSTP and OMB lead an interagency process of budget 
        coordination, identification of areas in need of augmentation, 
        and justification of the budgets proposed to Congress;

        3. that currently missing and much needed capacity is added in 
        adaptation research as well as in assessment, outreach, 
        communication, and climate services;

        4. that the requisite 10-year plan, annual report, and National 
        Assessments are produced regularly and provide Congress with 
        useful, policy-relevant information; and

        5. that the USA is a strong partner in international 
        assessments and global monitoring.

    I would expect to give early priority, in these efforts, to: (a) 
bolstering our capacity to monitor climate change and its impacts, 
including not only expanding our monitoring networks on land and on the 
oceans but also strengthening our faltering system of Earth-observation 
satellites; (b) substantially boosting efforts in adaptation research; 
and (c) producing the sorts of integrated assessment of the pace, 
patterns, and regional impacts of climate change that will be needed by 
the Obama Administration and the Congress as input to their 
deliberations on the goals and measures to be embraced for both 
mitigation and adaptation.

    Question 4. Do you believe that the current level of Federal 
funding for research and development is adequate? Are there any areas 
you feel need immediate attention?
    Answer. I believe we are substantially under-investing in research 
and development. Both President Obama and Congress have recognized this 
funding shortfall and have committed to doubling Federal R&D 
investments in coming years. As one recent report concluded, ``Unless 
substantial investments are made to the engine of innovation--basic 
scientific research and development--the current generation may be the 
first in our country's history to leave their children and 
grandchildren a lower sustained standard of living.'' \1\
---------------------------------------------------------------------------
    \1\ Norman Augustine, former CEO of Lockheed Martin, in a follow-up 
to ``The Gathering Storm'' report entitled, ``Is America Falling Off 
the Flat Earth?''
---------------------------------------------------------------------------
    Federal support for the physical sciences and engineering has been 
declining as a fraction of GDP for decades, and, after a period of 
growth of the life sciences, the National Institutes of Health (NIH) 
budget has been steadily losing buying power for the past 5 years. As a 
result, our science agencies are often able to support no more than one 
in five of the proposals that they receive, arresting the careers of 
our young scientists and blocking our ability to pursue many remarkable 
recent advances.
    There is now a growing recognition that new investments in 
federally sponsored research can be a direct investment in America's 
future economic prosperity. It is now well understood that since World 
War II, more than half of overall economic growth is attributable to 
innovation.
    One key area where we are under funding research is in the area of 
stem-cell research. Human embryonic stem cells have great potential for 
treating a wide variety of diseases and health conditions and for 
providing new insights into human development and disease. The Obama 
Administration will reverse the Bush Administration's ban on Federal 
funding for embryonic stem cell research on cell lines created after 
August 9, 2001 by Executive Order and will allow all scientists to 
participate in this important new field, in accord with the rigorous 
ethical guidelines proposed by the National Research Council.

    Question 4a. Do you believe that the current balance of Federal 
funding for research and development across science and engineering 
disciplines is appropriate? If not, how do you believe the portfolio of 
funding should be rebalanced?
    Answer. One of the important roles of OSTP and its director is 
helping to achieve balance in our Federal R&D portfolio. I am not yet 
familiar enough with all of the portfolio's pieces to offer any 
specific thoughts at this time on what rebalancing might be needed. If 
confirmed, I will certainly work closely with the relevant cabinet 
departments and agencies, the OMB, and the Congress to arrive at a 
coordinated and balanced R&D funding portfolio for contemporary 
conditions and challenges.

    Question 4b. Do you believe that interdisciplinary research is 
sufficiently supported? If not, what actions would you take to increase 
the funding to support such research?
    Answer. Many of the most exciting opportunities in research lie at 
the boundaries between disciplines. Multidisciplinary research is 
important for achieving many critical national goals, moreover, because 
the challenges we face--whether in innovation for economic growth, or 
developing a climate-friendly energy system, or making our society more 
secure against terrorists--can only be successfully addressed by 
combining tools, techniques, and insights from researchers in different 
fields.
    Funding interdisciplinary work can be challenging, in part because 
of the added complexity of peer review in interdisciplinary domains and 
in part because such work can be seen as competing with established 
fields of research in a ``zero-sum game.'' This problem can be greatly 
reduced if total Federal investments in research are expanding in the 
manner that President Obama and the Congress have envisioned, so that 
interdisciplinary efforts can be expanded without reducing support for 
more traditional areas of research.

    Question 5. Dr. Holdren, do you see a role for the Office of 
Science and Technology Policy to help the Federal Government improve 
acquisition, management and oversight of civilian satellite programs?
    Answer. OSTP can play an important role in coordinating interagency 
satellite policy. I believe we must increase government oversight and 
improve the interagency partnerships central to the management of 
civilian satellite programs, which among other things are critical to 
the Nation's climate and weather forecasting.
    We need to proactively manage our programs to avert future cost and 
schedule overruns. Agencies must work together to manage the 
contractors building these satellites and demand cost and schedule 
accountability.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                            Dr. John Holdren
    Question 1. There are many areas where the jurisdictions of 
scientific agencies overlap, particularly with respect to environmental 
issues such as climate change. Federal agencies have been criticized in 
the past for a lack of coordination on these areas of overlap, leading 
to duplicative efforts or incomplete information. As the Director of 
the Office of Science and Technology Policy, part of your 
responsibilities will entail leading interagency efforts to develop 
sound science policies and budgets. How will you promote coordination 
among agencies on long-term climate change data collection and 
analysis, as well as research on the environmental and health impacts 
of nanotechnology?
    Answer. We face enormous challenges in energy and climate and need 
to act both quickly and carefully. An effective strategy will affect 
many parts of our economy, and many different Executive Branch 
agencies, as well as the Congress, will have roles in developing and 
implementing it. Fortunately the President has assembled a team of 
leaders in the energy and climate domain who are not only experienced 
but who have nearly all worked with each other previously; this will 
make coordination easier. As Director of OSTP (if confirmed), I'd also 
plan to harness the interagency National Science and Technology Council 
(NSTC), which has traditionally been coordinated by OSTP, to the task 
of helping ensure effective, coherent preparation of plans, budgeting, 
and execution of multi-agency efforts. (On this issue, please see also 
my answers to Senator Rockefeller's questions 3 and 4, above.)
    Nanotechnology has the potential to lead to major economic and 
other societal benefits, such as low-cost solar cells, smart anti-
cancer therapeutics, sensors for environmental monitoring, and 
breakthroughs in our ability to store and process information. It is 
clear, however, that we need to increase our understanding of the 
environment, health and safety (EHS) risks associated with 
nanotechnology. I am committed to using the NSTC to identify gaps in 
our current nano-EHS research portfolio and to increase the exchange of 
information among science agencies, regulatory agencies, and external 
stakeholders. Our strategy will build on the existing work of the 
Nanotechnology Environmental and Health Implications (NEHI) Working 
Group, and will incorporate information from a recent National Research 
Council review along with inputs from stakeholders in industry, 
academia, and non-governmental organizations.

    Question 2. As you know, the economic stimulus bill includes 
funding for basic scientific research and development across several 
agencies and missions. How do you plan to help coordinate these 
investments and ensure that this money is allocated effectively, 
efficiently and responsibly across the many agencies with science and 
technology related missions?
    Answer. The stimulus investments in basic R&D in various agencies 
are not only crucial for creating new jobs and opportunities for today, 
they are essential for creating the new industries and long-term 
opportunities that we will need for tomorrow. If confirmed, I will work 
closely with these agencies to ensure that these investments produce 
results. In addition, I intend to work closely with the Nation's Chief 
Technology Officer and a new Open Government Initiative to transform 
government through transparency, participation, and collaboration. At 
the heart of this effort is a new website called recovery.gov which is 
an unprecedented effort focused on ensuring that stimulus dollars are 
used effectively, efficiently, and responsibly.

    Question 3. I appreciate the commitment you expressed in your 
statement to elevating the role of science in formulating policy 
decisions and revitalizing our economy. I would just like you to 
elaborate more on one aspect of science that you only touched on 
briefly--ocean science. How will you work to ensure that adequate 
funding and technical resources are devoted to achieving the Ocean 
Research Priorities Plan and Implementation Strategy, including 
reevaluating and revising the strategy as necessary?
    Answer. Oceans are crucial to our well-being because they play a 
central role in global weather and climate, are a major source of 
protein for much of the world's population, provide employment in 
fisheries and recreation, serve as home to much of the planet's 
biodiversity, and more. If confirmed, I will work with NOAA and other 
relevant agencies, as well as with the Congress, to complete and 
implement the strong, integrated, well-managed program of ocean 
research and stewardship that is essential to sustain a healthy and 
productive marine environment and the communities that depend upon it. 
The Ocean Research Priorities Plan and Implementation Strategy 
developed by the NSTC's Joint Subcommittee on Ocean Science and 
Technology in the last administration appears to provide a useful 
framework for analyzing needs and moving ahead with meeting them, but I 
would want to study it more closely and seek input from the relevant 
Executive Branch agencies and committees of Congress before reaching 
any conclusions about what revisions in it might be warranted.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            Dr. John Holdren
    Question 1. Costs for the National Polar-orbiting Operational 
Environmental Satellite System have spiraled out of control from $6.5 
billion to at least $92.5 billion. Isn't one of the challenges facing 
this program the fact that it's a tri-agency acquisition involving 
NOAA, NASA and DOD?
    Answer. Yes. The management of the NPOESS program and ensuring 
continuity of weather and climate data need to be important priorities 
for the administration's leadership team. The tri-agency leadership in 
NOAA, NASA, and DOD needs to be better coordinated and more clearly 
focused on oversight of and accountability from the program 
contractors, and if confirmed as Director of OSTP I would expect to 
help with that.

    Question 1a. I'm going to be holding Dr. Lubchenco's feet to the 
fire on this, but wouldn't you agree that because this troubled program 
involves three agencies, she can't do this alone?
    Answer. I have known and worked with Dr. Lubchenco for more than 20 
years, and I have immense confidence in her abilities. But certainly in 
the multi-agency activity in question there is a role for both OMB and 
OSTP in helping with management and coordination.

    Question 1b. Wouldn't you agree that she is going to need help from 
higher-up in the Administration to make this work?
    Answer. I am confident that whatever help she needs will be 
provided.

    Question 1c. Can you promise me that you and others in the White 
House will help apply the pressure needed to fix this program and make 
this tri-agency acquisition work?
    Answer. Yes.

    Question 2. If nominated, will you work with me and Committee to 
pass climate change adaptation legislation that will help ensure our 
government takes climate change into account when investing taxpayer 
dollars in various infrastructure projects and in managing our Nation's 
public lands?
    Answer. Absolutely.

    Question 3. I recall you were a member of the Presidential 
Committee of Advisors on Science and Technology (PCAST) Energy Research 
and Development Panel that issued the November 1997 report entitled 
`Federal Energy Research and Development for the Challenges of the 
Twenty-First Century'. Among other things, that report proposed funding 
levels for a variety of clean energy technologies that to its credit 
has sewed as the basis for these types of investments for over the past 
decade. Looking back at the report, where do you believe that the PCAST 
panel hit the mark, where do you believe that its aim was a little off, 
and looking forward, do you see a need for a major recalibration of 
priorities within our Nation's clean energy portfolio?
    Answer. I appreciate these kind comments about the 1997 PCAST 
report on Federal energy R&D that I chaired. In the intervening decade 
and more it has become clear that the climate-change driver of energy 
R&D requirements--which is far from the only driver but was recognized 
by our Committee already in 1997 as the most demanding one--is even 
more demanding than we thought in terms of the kinds and degree of 
energy-technology improvements that will be required if the climate-
change challenge is to be adequately and affordably addressed.
    And, although we recognized at the time that the Federal Government 
needs to play a role, in concert with the private sector, in 
commercial-scale demonstration as well as in R&D of some of the needed 
advanced technologies, it is now clearer how large and costly that role 
needs to be. That is why the Obama campaign talked about $15 billion 
per year for clean energy research, development, and demonstration 
(RD&D) for the next 10 years. One place we certainly missed the mark in 
1997 was in seriously understating what should be spent on research and 
development of CO<INF>2</INF> capture and sequestration.
    Several substantial efforts at designing a suitable portfolio of 
clean-energy RD&D going forward have been underway over the past couple 
of years in the National Research Council, in a set of university and 
NGO efforts funded by the Doris Duke Charitable Foundation, and 
elsewhere, and some of these are expected to release their findings 
over the next few months. I know that Secretary Chu and his staff at 
DOE will be reviewing the existing portfolio there, and the plans for 
the next few years, in light of all these findings as well as their own 
internal analyses. The Obama Administration's energy-climate 
principals' group being convened by Carol Browner will be looking at 
this question in the context of all of the relevant Executive Branch 
agencies. As I am part of that process and will continue to be if 
confirmed by the Senate as Director of OSTP, I don't want to pre-empt 
it here with too many of my personal views. I can certainly assure you 
that this question of the clean-energy RD&D portfolio is one I and 
others in the Administration are giving the closest scrutiny and will, 
obviously, be in close touch with the Congress about.

    Question 4. Should we as a Nation be concerned with the increasing 
globalization of R&D and innovation? What are some of the things you 
plan to do as the President's science advisor to ensure continued U.S. 
competitiveness in the global marketplace of R&D and innovation?
    Answer. Ensuring that the U.S. continues to lead the world in 
science and technology will be a central priority for me if I am 
confirmed as Director of OSTP. Our talent for innovation is still the 
envy of the world, but we face unprecedented challenges that demand new 
approaches. I am especially concerned that we have been reducing 
support for science at a time when many other nations are increasing 
it, a situation that already threatens our leadership in many critical 
areas of science. This competitive situation may only worsen over time 
because the number of U.S. students pursuing technical careers is 
declining. The U.S. ranks 17th among developed nations in the 
proportion of college students receiving degrees in science or 
engineering; we were in third place thirty years ago.
    That is why I believe we must increase funding for basic research 
in physical and life sciences, mathematics, and engineering at a rate 
that would double basic research budgets over the next decade. We need 
to increase research grants for early-career researchers to keep young 
scientists entering these fields. We need to increase support for high-
risk, high-payoff research portfolios at our science agencies. And we 
need to invest in the breakthrough research we need to meet our energy 
challenges and to transform our defense programs.

    Question 5. What do we need to do as a Nation to convince more 
women and underrepresented minorities to pursue career paths in 
Science, Technology, Engineering, and Mathematical fields? And if they 
do choose to pursue careers in STEM fields, what, if any, policies can 
be put in place to make it easier for them to remain in these career 
paths.
    Answer. I would be especially proud, if confirmed, to serve a 
President who understands the importance of women and minorities in 
science. For example in the U.S. Senate, Senator Obama passed three 
amendments to the America COMPETES Act to increase participation of 
women and underrepresented minorities in the professions of science, 
technology, engineering, and mathematics; to offer competitive state 
grants to support summer term education programs to help students 
develop skills in math and problem solving; and to establish a 
mentoring program for women and minorities as they advance in those 
fields.
    All Americans will need strong STEM backgrounds to participate 
effectively in a competitive global economy. President Obama has made 
it clear to me that this will be one of my most important 
responsibilities if confirmed.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                            Dr. John Holdren
    Question 1. Last August, this Committee held a hearing on our 
Nation's failure to invest in next-generation climate modeling 
capability. As a result, we are falling behind in our ability to 
predict climate impacts at the regional and local scale. At that 
hearing, the witnesses discussed the need for an integrated, 
interagency effort to address the range of research, software, data 
storage and computing challenge associated with climate modeling. How 
should that be structured? What is the appropriate role for NOAA?
    Answer. I understand the American Recovery and Reinvestment Act 
includes $170 million for NOAA to address critical gaps in climate 
modeling and establish climate data records for continuing research 
into the cause, effects and ways to mitigate climate change. NOAA will 
clearly have an instrumental role. But we can do more across agencies 
as well to build on our climate modeling capabilities. This new funding 
is another important piece of the interagency efforts to be coordinated 
with other climate science efforts as needed to ensure an integrated 
research effort. Improving our climate modeling capability is critical 
to furthering our understanding of the impacts of climate change in 
society, and will be a priority under my leadership at OSTP, if 
confirmed.

    Question 2. The underlying authorizing legislation for the National 
Nanotechnology Initiative allows the President to ``establish or 
designate'' an advisory board composed of members with expert knowledge 
of nanotechnology from academia, industry, and non-profit/advocacy 
organizations. President Bush opted to designate PCAST (President's 
Council of Advisors on Science and Technology) instead of appointing a 
new advisory board. However, many criticized this move, citing that 
PCAST did not have the specific expert knowledge to review the NNI. 
According to a National Academies of Science review on the NNI, they 
state that:
    Answer. While the designation of PCAST as the NNI advisory panel 
testifies to the importance of the initiative, it lacks an independent 
advisory group with specific expertise in nanoscience and 
nanotechnology. Such a dedicated panel could provide advice on setting 
priorities, balancing large-scale and individual investigator research, 
and the value of high-risk, high pay-off interdisciplinary research.
    As a result, the NAS recommended that ``The Federal Government 
should establish an independent advisory panel with appropriate 
experience to facilitate cutting-edge research on and responsible 
development of nanotechnology.''
    OSTP transition team members have indicated that they prefer not to 
establish a new board and will continue to rely on PCAST. They believe 
that the new PCAST would be a vastly improved advisory mechanism, but 
the concern still remains that given PCAST's wide mandate to advise on 
all aspects of science and technology, there is insufficient expertise 
in nanotechnology to provide proper oversight over the NNI.

    Question 2a. Do you believe that the President should appoint an 
independent advisory board to review the NNI, as mandated by law? If 
no, please explain why you feel that conducting oversight over the NNI 
through PCAST is sufficient? In my nanotechnology bill that I 
introduced last year, I make it very clear the need for an independent 
advisory board with specific nanotechnology expertise. Will you commit 
to working with me on this matter as we move forward on this 
legislation?
    Answer. My current view is that the President will be best served 
by having PCAST, with its diverse group of distinguished experts in 
science, technology, and innovation from industry and academia, 
function as the sole Presidential-level advisory committee on S&T. I 
believe that establishing multiple Presidential advisory committees 
will diminish the influence and effectiveness of any one of them. As a 
practical matter, given all of the competing demands on the President's 
schedule, he is unlikely to be able to have meaningful interaction with 
more than one such committee.
    On important topics such as nanotechnology, however, I will 
recommend that the President establish committees under the aegis of 
PCAST that will have the stature and in-depth expertise needed to 
provide the Administration with high-quality, independent advice on the 
important issues you raise. I look forward to working with you on this 
topic to meet our shared goals.

    Question 3. Nanoscale science, engineering and technology--commonly 
referred to collectively as nanotechnology--is believed by many to 
offer extraordinary economic and societal benefits. Congress has 
demonstrated continuing support for nanotechnology and has directed its 
attention primarily to three topics that may affect the realization of 
this hoped for potential: Federal research and development (R&D) in 
nanotechnology; U.S. competitiveness; and environment, health, and 
safety (ENS) concerns. In 2000, the United States launched the world's 
first national nanotechnology program. Since then, the Federal 
Government has invested nearly $10 billion in nanoscale science, 
engineering, and technology through the U.S. National Nanotechnology 
Initiative (NNI). U.S. companies and state governments have invested 
billions more. As a result of this focus and these investments, the 
United States has, in the view of many experts, emerged as a global 
leader in nanotechnology. However, the competition for global 
leadership in nanotechnology is intensifying as countries and companies 
around the world increase their investments. The Federal Government has 
invested, through FY2009, nearly $10 billion in nanotechnology R&D. 
What role can the Federal Government play in further helping industry 
commercialize this research?
    Answer. The NNI can expand its role in promoting nanotechnology 
transfer and commercialization for societal benefit by:

        a. Coordinating with regional, state, and local organizations 
        supporting nanotechnology development and commercialization;

        b. Working with industry through mechanisms such as the 
        Nanomanufacturing, Industry Liaison and Innovation Working 
        Group;

        c. Taking advantage of programs such as the Small Business 
        Innovation Research (SBIR) and Small Business Technology 
        Transfer (STIR);

        d. Supporting additional public-private partnerships using 
        mechanisms such as the Nanoelectronics Research Initiative and 
        other government-industry-university collaborations.

    Question 3a. Environmental, health, and safety issues have become a 
top concern about nanotechnology. How much additional funding should be 
provided to support EHS research? How should this money be allocated 
among agencies? Should a portion of these funds be used as a central 
funding source to respond to needs that agencies are not currently 
addressing? If so, how should such a funding source be structured and 
managed?
    Answer. I share the goal of promoting the responsible development 
of nanotechnology. OSTP is carefully evaluating proposals for targeted 
funding increases for nano-related EHS research. There are important 
knowledge gaps in the EHS dimensions of nano identified that we should 
address quickly as possible. I do not believe that there is a single 
agency that is in a position to sponsor or conduct all of the necessary 
research. This is because of the important roles played by a variety of 
different agencies on the environment, occupational safety, the 
oversight of drugs, medical devices, and consumer products, and the 
management of the National Toxicological Program.

    Question 3b. Do you believe that rapid advances in nanotechnology, 
biotechnology, and other emerging fields present any challenges to the 
U.S. and global regulatory systems? If so, how might you seek to 
address them?
    Answer. In many instances, emerging technologies have advanced more 
rapidly than our ability to establish a policy, legal, and regulatory 
framework that maximizes the economic and societal benefits while 
managing the risks. For example, it is clear that there are gaps in our 
understanding of the EHS dimensions of nanotechnology. It is likely 
that several key regulatory agencies will need to increase their 
capacity to promote the responsible development of nanotechnology. 
There are also important questions a out how to apply existing laws and 
regulations to nanotechnology-based products. If confirmed, I am 
committed to working closely with the relevant agencies to create a 
sound policy and regulatory framework.

    Question 4. Patients and researchers have been frustrated for 7 
years as they try to forge ahead in one of the most promising areas of 
biological research--embryonic stem cell research. The progress that 
has been made in just a decade is astounding and the expectations for 
therapeutic applications for the results of this research have never 
been higher for the millions of patients around living with disease for 
which this research holds out hope. But, researchers are grappling with 
Federal restrictions on funding the equivalent of tying one hand behind 
their back. Can we assume relief is forthcoming so we can get the 
Federal Government fully behind this research?
    Answer. Yes. Stem cell research holds the promise of improving our 
lives in at least three ways--by substituting normal cells for damaged 
cells to treat diabetes, Parkinson's disease, spinal cord injury, heart 
failure and other disorders; by providing scientists with safe and 
convenient models of disease; and by helping to understand fundamental 
aspects of normal development and cell dysfunction.
    For these reasons, I strongly support expanding research on stem 
cells. I believe that the restrictions that President Bush has placed 
on funding of human embryonic stem cell research have handcuffed our 
scientists and hindered our ability to compete with other nations. I 
expect President Obama to lift the current funding ban soon.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Mark Warner to 
                            Dr. John Holdren
    Question. In follow up to our previous exchange, I would appreciate 
a further elaboration of President Obama's and your vision concerning 
the role of the CTO. Virginia and other states that have created a 
cabinet-level Secretary of Technology can provide valuable insight 
regarding this position. I recognize that this individual has not yet 
been chosen, but can you elaborate on what you consider to be the most 
important qualities and characteristics for the position? Will this 
person look outward toward the private sector to identify innovative 
techniques and practices to be incorporated within the Federal 
Government? Also, how will this person interact with other agencies and 
what role will the CTO have in terms of policy execution in each realm?
    Answer. Indeed, Virginia has been a leader and provides an 
important model for the Federal CTO. As you know in the 21st century, 
our economic success will depend not only on our ability to invent new 
technologies but also in our ability to harness the power and potential 
of new technologies to address some of our most pressing problems.
    That is why President Obama has promised to appoint the Nation's 
first Chief Technology Officer (CTO)--to ensure that our government and 
all its agencies have the right infrastructure, policies and services 
for the 21st century. The CTO will have a specific focus on 
transparency, by ensuring that each arm of the Federal Government makes 
its records open and accessible as the E-Government Act requires. The 
CTO will also focus on using new technologies to solicit and receive 
information back from citizens to improve the functioning of democratic 
government.
    While a CIO may be more inward facing, the CTO may be more outward 
facing and can help ensure technological interoperability of key 
government functions. For example, the Chief Technology Officer will 
oversee the development of a national, interoperable wireless network 
for local, state and Federal first responders as the 9/11 Commission 
recommended. This will ensure that fire officials, police officers and 
EMTs from different jurisdictions have the ability to communicate with 
each other during a crisis and we do not have a repeat of the failure 
to deliver critical public services that occurred in the aftermath of 
Hurricane Katrina.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. David Vitter to 
                            Dr. John Holdren
    Question 1. In 1971, in an article with Paul Ehrlich titled Global 
Ecology, you predicted that ``some form of ecocatastrophe, if not 
thermonuclear war, seems almost certain to overtake us before the end 
of the century.'' Now that it is 2008, what is the reason neither of 
those things happened?
    Answer. One of the many things I have learned in the nearly four 
decades since I wrote those words is that, as Enrico Fermi famously 
said, ``Predictions are difficult, especially about the future.'' But 
even then, at the age of 26, I knew enough to hedge a little bit: I did 
say ``almost certain.''
    I do think that we were at least as lucky as we were smart in 
managing to get through the decades of the Cold War without a nuclear 
war--there were certainly a number of close calls. I think that most of 
the presidents, generals, and admirals who commanded our nuclear forces 
through those years would agree we were lucky. A number of them have 
told me as much.
    As for ecological catastrophe, there's no agreed definition on 
precisely what would qualify, but certainly there are reasonable people 
who would argue we are in the middle of a number of them: the 
staggering rate of species extinctions (for which the best estimates 
are in the range of 100 to 1000 times the extinction rate over most of 
pre-human time); the expanding dead zones in coastal seas; the decline 
in the global populations of sharks, billfish, and tuna to perhaps 10 
percent of their pre-human levels; and the continuing rapid 
deforestation of the tropics.
    To the extent that nothing that everybody would agree is a full-
blown catastrophe has yet materialized, I would say, as in the case of 
nuclear war, that we have been partly smart and partly lucky. On the 
smart side, since 1971 the world rate of population growth has fallen 
by almost half; we have developed and deployed technologies that have 
reduced the amount of energy and other physical resources needed to 
make a dollar of GDP and that have reduced the amount of pollution 
emitted in the course of providing a kilowatt-hour of electricity or a 
pound of steel; we have established Marine Protected Areas where fish 
stocks can recover from over-exploitation; and we have invested 
substantial resources in cleaning up inland waters and toxic waste 
dumps.
    Those are outcomes that those of us who were issuing warnings about 
environmental dangers in the 1960s and 1970s were recommending at the 
time as ways to reduce those dangers. Our aim in discussing the harm 
that was likely to occur if society did not take evasive action was to 
help bring that evasive action about. I am happy to say that 
environmental laws passed by the U.S. Congress--including NEPA, the 
Clean Air Act, the Clean Water Act, the Surface Mining Act, the 
Endangered Species Act, the Marine Mammal Protection Act, the Resource 
Conservation and Recovery Act, and CAFE standards--played a large part 
in this country's doing what was needed to reduce some of the biggest 
dangers.

    Question 2. In 1986, you predicted that global warming would cause 
the deaths of one billion people by 2020. Paul Ehrlich attributes this 
claim to you in his article The Machinery of Nature. Do you believe 
that number is still accurate? If not, can you give us a revised 
number?
    Answer. I believe what I wrote was that global climate change could 
cause the deaths of a billion people by 2020. This was not a prediction 
but a statement about what could happen if climate change crossed a 
tipping point in the intervening period, leading to large declines in 
food production. I think this is not likely, but I believe it is a 
``downside'' outcome that we should be investing significant effort to 
avoid.

    Question 3. In 1978 you stated in a University of Houston Law 
Review, that ``people are the bane of rational energy policy.'' Can you 
explain what you meant by that and who or what would be appropriate for 
drafting rational energy policy?
    Answer. The sentence as a whole said the following: ``However, if 
people are the bane of rational energy planning, they are also its 
goal.'' As explained in the surrounding text, what I meant was that the 
best-laid plans are often thwarted by human frailty and 
unpredictability (oil tankers running aground, actions of the OPEC 
cartel, etc) and also that people often want contradictory things from 
energy policy: they want their energy to be convenient, reliable, free 
of environmental impacts and political liabilities, and dirt cheap; and 
if there are going to be some environmental impacts, they want them to 
be in somebody else's back yard. The surrounding text also explained 
that saying people are the goal of energy planning means we should not 
be interested in expanding energy supply for its own sake, but rather 
in doing so in ways and for purposes that increase the sum of human 
well-being.
    One reason energy policy is so challenging, as I argued in that 
article, is that there is no ``free lunch'' in energy supply. The 
energy options that are the cheapest are often the dirtiest ones (as 
coal power plants without environmental controls demonstrate) or the 
most problematic from the political and security standpoint (as the 
cheap imported oil of the early 1970s demonstrated). And if nobody is 
willing to accept any environmental intrusion at all from energy 
systems--no coal mines or drilling rigs anywhere, no pipelines across 
the tundra, no transmission lines or windmills spoiling the view--
that's eventually going to mean not having the energy we need.
    Developing sensible energy policy would be easier if we who have 
studied the issue--scientists and Senators alike--did a better job of 
educating the public to understand that there are tradeoffs in getting 
the energy we need and that cheaper is not always better (particularly 
if the low monetary cost comes from not including in the price of 
energy the cost of limiting environmental damages and national-security 
liabilities that otherwise not just the users of the energy but the 
whole society will have to live with). I note that the thrust of my 
1978 article in the Houston Law Review, which was entitled ``Coal in 
Context: Its Role in the National Energy Future,'' was precisely that 
coal is so important to U.S. energy supply that we simply must make the 
effort to reduce its environmental impacts to the point that continued 
use of coal will be environmentally tolerable and acceptable to the 
public.
    I believe that the most appropriate people to be making energy 
policy are our elected representatives, meaning, at the national level, 
the Congress and the President and Vice President. Obviously, these 
elected leaders need to be informed by the best advice they can get 
from their appointed staffs and the agencies over which these 
appointees preside and, of course, by the views of business people, 
academics, NGO's of all varieties, and the wider public. Making sure 
that our elected leaders and all those who report to them or seek to 
influence them are well informed about the scientific and technological 
dimensions of the energy-policy choices (and other policy choices!) 
faced by our Nation will be important to getting the best possible 
results. The White House Office of Science and Technology Policy that I 
hope to have the privilege of directing has an important role to play 
in helping to ensure that this information flow works as it should.

    Question 4. In 1973 you encouraged a ``decline in fertility to well 
below replacement'' in the United States, because ``280 million in 2040 
is likely to be too many.'' This was in your article ``Population and 
the American Predicament.'' Currently the U.S. population is 304 
million. What are your thoughts at this juncture on the appropriate 
population level?
    Answer. Population growth brings both benefits and liabilities. In 
the 1973 article cited, I offered the personal judgment that the then 
U.S. population of 212 million was more than large enough to provide 
most of the benefits associated with high population and that further 
growth was likely to increase costs more than it increased benefits. 
Balancing costs and benefits of population growth is a complex 
business, of course, and reasonable people can disagree about where it 
comes out For my part, I don't pretend to know what the best eventual 
population for the United States would be. That is partly a matter of 
how good our technology and our management can be in the future, partly 
a matter of environmental and resource constraints that are still 
imperfectly understood, and partly a matter of social preferences that 
are well outside the domain of science and technology policy in which 
I'd be engaged if the Senate confirms me as Director of OSTP.

    Question 5. In 2006, in the article The War on Hot Air, you 
suggested that global sea levels could rise by 13 feet by the end of 
this century. However, in the IPCC's 2007 report the suggested 
potential is a rise of 13 inches. Can you explain the severe disparity, 
and if you still believe the rise will be 13 feet?
    Answer. The indicated article was not written by me, but it quoted 
a figure I had given in a speech as near the upper end of the 
uncertainty range for the amount of sea-level rise that could occur by 
2100.
    There is no disagreement in the Earth-science community about the 
amount of sea-level rise that would eventually result from 
disappearance of the great ice sheets on Greenland and Antarctica. The 
answer given by the IPCC and ice experts everywhere is 7 meters (23 
feet) if the Greenland ice sheet disappears, another 5 meters (16 feet) 
if the most vulnerable part of the Antarctic ice sheet disappears, and 
a total of about 70 meters (230 feet) if the world got so warm that all 
of the Antarctic ice sheet as well as that of Greenland, plus all of 
the mountain glaciers, melted entirely.
    What is much more uncertain is how rapidly the increase in sea 
level from ice loss could happen, given warming at rates projected to 
be possible in this century and beyond. The IPCC's 2007 report gave a 
range of 7 inches to 25 inches for the amount of sea-level rise 
projected for 2100, taking into account the thermal expansion of a 
warming ocean and gradual melting of mountain glaciers and the 
Greenland and Antarctic ice sheets. But the report also noted that 
phenomena known to have occurred in natural warming periods in the past 
are capable of causing much more rapid disintegration of the ice 
sheets--and correspondingly faster sea-level rise--which the IPCC did 
not put into its estimate because the dynamics of these processes are 
not yet well enough understood to include them in the quantitative 
models.
    Scientists who study the climate of prehistoric times (using a 
variety of kinds of evidence preserved in tree rings, ice sheets, 
corals, sediments, and the like) reported in 2005 that there were two 
natural warming periods in the last 19,000 years when these faster 
modes of ice-sheet disintegration raised the level of the oceans at a 
rate of as much as 2 to 5 meters (6.5 to 16 feet) per century. This was 
the basis of statements I made subsequently to the effect that 
increases in this range could not be ruled out under the similarly 
rapid warming forecast for the 21st century.
    Studies published since then have indicated that the upper limit of 
sea-level rise to be expected by 2100 is 1-2 meters. This remains a 
very active area of research, and the best estimate could change again, 
but since these latest reports came out I have been citing the 1-2 
meter (3.3 to 6.6 feet) estimate of the upper limit as the most up-to-
date that is available.

    Question 6. You have consistently held the position that 
environmental damage is directly proportional to economic growth. Are 
you of the position that we can no longer grow the economy without 
doing damage to the environment?
    Answer. What I have said is that environmental impact would grow in 
proportion to economic growth if ``technology'' stayed constant, where 
``technology'', as explained in my writings about this, is shorthand 
for the particular mixture of goods and services and technologies for 
providing them that generate the economic activity recorded in GDP and 
are also responsible for the impact of this activity on the 
environment. Of course, technology does not stay constant over time. 
The mix of goods and services changes and the technologies used to 
provide them changes. The technology factor can get better (smaller 
impact per dollar of GDP) if the economic mix becomes less impact-
intensive (e.g., less heavy manufacturing, more services) or if the 
particular technologies used become environmentally less disruptive per 
unit of good or service. It can also get worse. If we want to hold 
environmental impact constant or reduce it as our economy grows, the 
only way to do so is to make sure that the technology factor improves 
at a rate equal to or faster than the rate at which the economy is 
growing. This is one of the key reasons it's so important to invest in 
science and technology--so we will have the technologies available to 
achieve these improvements at the needed pace. President Obama is 
committed to seizing the opportunities presented by science, 
engineering, and innovation to protect the environment and grow the 
economy, and if confirmed by the Senate I will all I can to help in 
that effort.

    Question 7. What is your definition of ``fear mongering?''
    Answer. To fear-monger is to arouse concerns about dangers one 
knows are imaginary, or to arouse concerns out of proportion to the 
magnitude one believes the real dangers to have. It would be fear 
mongering to say, without evidence, that an asteroid is about to strike 
the Earth and wipe out life here. But it is not fear-mongering to tell 
a home-owner that his/her house could burn down, perhaps killing the 
occupants as well as destroying the investment, and that therefore it 
would be wise to dispose of the oily rags in the garage and buy some 
smoke alarms and some fire insurance. Nor should such warnings be 
characterized after the fact as fear mongering even if, in the whole 
tenure of the home-owner in the house, it does not burn down, or if it 
does but the smoke alarms save the occupants and the insurance recoups 
the financial loss.

    Question 8. Specifically list forms of energy that you find 
acceptable as a way of growing the economy. in addition, please list 
the forms of energy that cannot be used to grow the economy without 
destroying the environment.
    Answer. I have been saying and writing for forty years that we 
don't have the luxury of insisting on perfection in our energy sources, 
because all of them have liabilities of one sort or another and the 
fact is we need energy to meet basic human needs and to expand and 
sustain economic prosperity. I think the answer is to continue to 
invest in research and development to improve the energy sources we 
already have and to invent additional ones, in order to have the best 
portfolio of options possible at any given time, and then to let the 
marketplace, as modified by policy and other manifestations of the 
public's wishes, choose the mix that will be used.
    I wrote in 1971 that I thought we'd find the quickest, least 
expensive, least environmentally disruptive energy source for the 
decades ahead to be increased energy efficiency--using lights, 
appliances, building envelopes, cars, airplanes, and manufacturing 
processes that deliver more product or service for less energy--so that 
the energy saved could be used elsewhere in the economy. That proved to 
be true. From 1970 to 2005 the amount of primary energy needed to make 
a real dollar of GDP in the United States fell two-fold. This meant 
that more energy was made available to our economy in this period from 
these savings than was provided by the expansion of all other energy 
sources combined. I believe that this will continue to be true for at 
least the next few decades, as well.
    But efficiency improvements cannot do the whole job. Even compact 
fluorescent bulbs and LED lighting still use electricity, and the most 
fuel-efficient hybrids on the road still use hydrocarbon or alcohol 
fuels. We will continue to need a portfolio of ways to provide 
electricity, portable fuels, and heat. I think that, for the immediate 
future, the ingredients of that portfolio will need to continue to 
include:

  <bullet> petroleum-derived fuels for our motor vehicles and aircraft 
        especially, but with due attention to reducing the ecosystem 
        impacts of getting those fuels domestically, the foreign-policy 
        liabilities and economic vulnerabilities of getting them 
        abroad, and the emissions from burning them;

  <bullet> biofuels derived from currently practical as well as new 
        feedstocks in ways that reduce petroleum dependence and 
        greenhouse-gas emissions while minimizing competition with food 
        production and destruction of forests;

  <bullet> natural gas, which is the cleanest-burning and least 
        CO<INF>2</INF>-intensive of all of the fossil fuels, as well as 
        the one most conducive to electricity generation and combined 
        heat and power (CHP) at high efficiency and relatively low 
        capital cost;

  <bullet> coal, from which more than half of U.S. electricity 
        currently comes, but which is also our most environmentally 
        disruptive energy source and warrants efforts to move as 
        rapidly as practicable toward less damaging ways of mining it 
        and toward the capacity to capture and sequester away from the 
        atmosphere most of the CO<INF>2</INF> that would otherwise be 
        released from burning it;

  <bullet> nuclear energy, currently accounting for 20 percent of U.S. 
        electricity supply, a proportion that could be expanded with 
        the benefit of reduced emissions of CO<INF>2</INF> and criteria 
        air pollutants;

  <bullet> hydropower, for which the best sites for large installations 
        in the United States are mostly already in use, but which has 
        additional potential in small-hydro and run-of-river 
        installations with due attention to minimizing environmental 
        impacts;

  <bullet> wind power, which is currently the least expensive of the 
        ``new renewables'' for electricity generation and also has 
        arguably the lowest environmental impact of any of the 
        currently available electricity-generating technologies 
        (although still not zero, as objections on grounds of visual 
        intrusion and impacts on birds and bats demonstrate).

    Other energy sources of promise that we should be working to 
develop or improve in terms of their competitiveness include hot-dry-
rock geothermal energy, solar-thermal electricity generation, solar-
photovoltaic electricity generation, direct solar production of 
hydrogen, energy from ocean currents and waves, and fusion. I believe 
that President Obama's plan to invest $150 billion over 10 years in 
improving existing energy sources and developing new ones will be a 
great boost in getting us where we need to go.
    Energy sources I think would be problematic to increase 
significantly in connection with fueling U.S. economic growth, because 
of the environmental or security impacts of such expansion, include:

  <bullet> oil imports from politically unstable regions and from 
        countries that use their oil-import revenues for purposes 
        inimical to the interests of the United States;

  <bullet> new coal-burning power plants that do not capture and 
        sequester CO<INF>2</INF> and are not designed to be retrofitted 
        to do so;

  <bullet> coal-to-liquids and other synfuels technologies that do not 
        use CO<INF>2</INF> capture and sequestration to achieve at 
        least neutrality in ``well-to-wheels'' CO<INF>2</INF> emissions 
        compared to gasoline produced from crude petroleum;

  <bullet> biofuels technologies that compete directly with food 
        production and thus drive up food prices, or that result in 
        deforestation or other forms of land-use change that lead to 
        net increases in CO<INF>2</INF> emissions;

    Question 9. Do you believe California has been a good model for 
cap-and-trade, and how are low-income families affected by the cost of 
energy? In addition, what are your thoughts on the statement that 
``economic development is the key to human well-being?''
    Answer. California's cap-and-trade policies, which are part of a 
bill passed by the California legislature in 2006 (AB32), will not go 
into effect until 2012. The program is designed to return California to 
1990 emissions levels by 2020, which is the same figure as mentioned by 
President Obama during the campaign as a prospective intermediate goal 
for the country as a whole. The President has also made clear that he 
favors a cap-and-trade approach to emissions reductions, but the extent 
to which the details of the Federal approach do or do not resemble 
those of the California plan remains to be worked out by the 
administration in concert with the Congress.
    Of course, charging a price for emitting CO<INF>2</INF> will 
necessarily increase the cost of using fossil fuels. But this will not 
necessarily increase the overall cost of energy services, because 
higher fossil fuel prices will motivate increased private investments 
in energy-efficiency improvements that will save money at the higher 
energy prices by reducing the amount of energy needed to deliver a 
given service and because part of the revenues from auctioning the 
emission permits is likely to be invested by the government in 
additional energy-efficiency programs that will have similar effects.
    As a general matter, poor people are the most vulnerable segment of 
our society to increases in energy costs. That vulnerability can be 
reduced, however, with progressive rate structures ensuring that any 
overall price increases are born mainly by the larger users and by 
devoting a part of permit revenues to programs that provide insulation, 
energy-efficient windows, compact fluorescent bulbs, and the like to 
poor people.
    I certainly believe that economic development is one of the keys to 
improving human well-being. I have been emphatic in my writings and 
speeches over the years that human well-being rests on a foundation of 
three pillars--economic, environmental, and sociopolitical (where the 
last includes national and personal security, personal freedoms, access 
to a working system of justice, etc.). It is my position that all three 
pillars are indispensable, in the same sense that a three-legged stool 
falls down if any one leg fails. It is therefore important to be sure 
that, in seeking to strengthen any one of the legs, we do not do so in 
ways that seriously weaken either one of the others. That is a 
challenge to which science and technology have much to contribute.

    Question 10. In regards to malaria deaths, how many people have 
died of malaria globally since banning DDT for the use of malaria 
suppression?
    Answer. Malaria remains a terrible scourge across much of the 
world's tropical and subtropical area, killing 900,000 people per year. 
But I don't believe lack of use of DDT has been a significant 
contributor to our failure to better control this disease. Under the 
international agreement governing DDT use--the Stockholm Convention on 
Persistent Organic Pollutants--governments believing that they need DDT 
for malaria control can and do get exemptions to use it, and they are 
not expected to stop using it until they are satisfied that 
alternatives are workable for their specific needs.
    The World Health Organization's attempt in the 1950s and 1960s to 
eradicate malaria with a massive DDT-spraying program did help to 
control malaria for a time, but it ultimately failed mainly because 
many species of mosquito around the world evolved resistance to DDT. 
This plus growing evidence of harm to humans and other animals from DDT 
and its breakdown products led most countries to give up DDT use for 
malaria control in favor of integrated approaches combining elimination 
of mosquito breeding sites, biological controls, spraying of 
alternative chemicals, and early detection and prompt treatment of 
malaria cases. The plan that President Obama has announced to eliminate 
the scourge of malaria worldwide by 2015 entails working in partnership 
with developing countries, donor nations, and private and non-profit 
organizations to achieve universal access to these proven, integrated 
approaches to prevention and treatment

    Question 11. Do you still support government funded sterilization 
as a useful tool for de-development of industrialized economies?
    Answer. I have never supported government-funded sterilization. The 
term ``de-development'' was used by me and some of my co-authors for a 
few years in the 1970s but then abandoned as unhelpful. At the time, 
further development in the industrialized nations was seen as entailing 
large increases in emissions of toxic and climate-altering substances, 
habitat destruction, extinction of species, and unsustainable practices 
in agriculture, fisheries, and forestry. My co-authors and I explained 
that by ``de-development'' we meant scaling back these harmful 
practices by, for example, reducing per-capita energy use through 
improvements in energy end-use efficiency, doing the same with water 
use, and making products that last longer and are designed for easy 
recycle. The term I have lately been using in discussing what I think 
we should be aiming for in these and related respects is not ``de-
development'' but ``sustainable prosperity.''

    Question 12. One of the few guarantees of climate change 
legislation is that if will increase the cost of electricity to 
consumers and energy to industry. How does this create jobs and at what 
point is an increase in the cost of electricity on low-income families 
unacceptable?
    Answer. As discussed in my answer to question 9, above, measures to 
reduce the emissions of CO<INF>2</INF> will initially increase the unit 
costs of electricity and fuel, but responses to these increases are 
likely to include energy-efficiency improvements that reduce the amount 
of electricity or fuel needed to provide a given service, thus reducing 
the adverse economic impact on the consumer. Impacts on low-income 
families can be ameliorated through utility (electricity and natural 
gas) rate structures and through programs that use some of the revenues 
from the sale of emissions permits to help the poor with energy-saving 
investments.
    Creating economic incentives to reduce greenhouse-gas emissions by 
charging for emissions permits will stimulate investment in research, 
development, demonstration, and deployment of improved and new 
technologies both for using energy more efficiently in the production 
of the goods and services that people want and for providing 
electricity and fuel in ways that emit less greenhouse gases than 
today's energy-supply technologies do. These investments will lead to 
the creation of new jobs and the founding of new businesses, just as 
control of conventional air pollution and water pollution starting in 
the 1970s led ultimately to a set of environmental- protection 
businesses that today generate hundreds of billions of dollars of 
annual revenue in this country.

    Question 13. Dr. Holdren, you have made a number of astonishingly 
dire predictions over the past four decades of approaching 
environmental catastrophes that would lead to widespread human 
suffering and death. Have any of these predictions come true? Why do 
you think that is? Do you think that any of your predictions are still 
likely to come true in the future? Which ones? Do you think it would be 
advisable to base important public policies on any of these predictions 
or on similarly wild-eyed predictions that you may develop while 
serving as White House science, not science fiction, adviser?
    Answer. Statements I have made about dangers from nuclear weapons, 
pressures on supplies of food and water, pollution, and impacts of 
climate change have been intended not as predictions but as projections 
about where we were heading and, thus, why it would be a good idea to 
change course in ways that would reduce these dangers. To the extent 
that some of the potential harm identified in these projections has not 
yet happened or has not happened to the degree I said was possible, I 
believe this is at least partly because society did take construction 
actions to reduce the dangers. (I listed a number of those constructive 
actions, including a number of environmental laws passed by the U.S. 
Congress and signed into law by six U.S. presidents of both parties, in 
my answers to the pre-hearing questions.) I believe that identifying 
possible adverse outcomes of actions taken or not taken, as well as 
identifying and analyzing appropriate strategies for reducing the 
dangers, is as appropriate in the domain of science and technology 
policy as it is in the domain of economic policy, and if confirmed by 
the Senate as Director of the Office of Science and Technology Policy I 
would take this responsibility seriously.

    Question 14. Dr. Holdren, you have been a tireless advocate for 
drastic reductions in population. You have also advocated de-
development and reductions in the standard of living in the developed 
economies. Do you favor mandatory government-enforced reductions in 
population in this or any other country? Have you ever commended 
China's one-child policy? 1 assume you support abortion. Have you also 
commended Dutch-style euthanasia policies? Do you welcome the financial 
crisis and economic recession as a way to accomplish your goals of de-
development and lower living standards? Why not?
    Answer. Actually, I have written relatively little on population 
issues since the 1970s. I do not favor government-enforced reductions 
in population in the United States or elsewhere. I do not favor the 
harsh measures employed in China in favor of that country's one-child-
per-family policy. I do not favor euthanasia. I am appalled by the 
current financial crisis because of its adverse impacts on the well-
being of U.S. citizens and people around the world. My use of the term 
``de-development'' three decades ago was in the context of aspects of 
economic growth, as it was then being pursued, that were causing 
considerable harm. As indicated in my answers to pre-hearing questions, 
I concluded long ago that the term was poorly chosen, and I have ever 
since been using the terms ``sustainable development'' and 
``sustainable prosperity'' to convey what I think we should be trying 
to achieve. My interest in the interaction of science and technology 
with the human condition has always been to try to ensure that science 
and technology are used to increase the sum of human well-being, taking 
into account well-being's environmental and sociopolitical aspects as 
well as its economic aspect. I wish anyone who doubts this would read 
my 2007 Presidential address for the American Association for the 
Advancement of Science, ``Science and Technology for Sustainable Well-
Being", which was published in the 25 January 2008 edition of SCIENCE 
and is available online at http://www.sciencemag.org/cgi/content/full/
319/5862/424.

    Question 15. Dr. Holdren, you are a man of strong political 
convictions. It appears that you have often put your scientific 
position and expertise in the service of your political commitments. It 
appears that you have sometimes forced the science to fit your agenda. 
Don't you think this disqualifies you for the roles of WH science 
adviser and director of OSTP? The science adviser is charged with 
providing the President with objective and useful scientific 
information and analysis to inform policy choices. The OSTP serves as a 
conduit for the entire scientific community, not just one politically-
engaged part of it, to share its knowledge and views and concerns with 
the administration. The science adviser and OSTP director is not 
supposed to push a policy agenda or to fit or cherry pick the 
scientific facts and evidence to support a particular agenda. Do you 
think that a person of such strong political commitments as you have 
can check those commitments at the door? If so, do you think that some 
of the scientists you have attacked and criticized would be able to 
check their views at the door if they were nominated to serve as 
science adviser. For example, Professor Richard S. Lindzen of MIT has 
much more professional competence as a climate scientist than you do. 
In fact, I note that you are not a climate scientist. Professor Lindzen 
has published many highly regarded papers in atmospheric physics and 
has been a member of the National Academy of Sciences for approximately 
thirty years. He has also commented on the public policy debate on 
global warming, although he has never promoted a political agenda in 
the way you have. Do you think Professor Lindzen is qualified to be 
White House science adviser and director of OSTP? Would you support his 
confirmation if he were nominated at some point in the future?
    Answer. With respect, I disagree with the question's 
characterization of how I have conducted myself over my four-decade 
career working on issues of science and technology as they affect 
public policy. My policy preferences on issues where insights from 
science and technology are germane have been shaped by my understanding 
of the relevant science and technology, not the other way around. (That 
is not to say that insights from science and technology always tell us 
what policies to prefer; more often than not they do not suffice for 
that. But they do often tell us something about what policy needs to 
achieve or to avoid.)
    As to whether I am a climate scientist, the question appears to 
embody a rather narrow definition of what a climate scientist is. I do 
not have a degree in meteorology, but I do hold a tenured full 
professorship in one of the leading university departments of Earth 
Science in the world. I have two degrees in aeronautics and 
astronautics from MIT in which my major fields of study were fluid 
dynamics and aerospace engineering, and a PhD from Stanford that 
included further study of fluid dynamics and a doctoral thesis on 
theoretical plasma physics. Fluid dynamics is what governs the motions 
of the atmosphere. The mathematics of plasma physics is very similar to 
the mathematics used in modeling the Earth's climate. I have been 
teaching environmental science, including the science of climate 
change, for more than 35 years at Caltech, the University of 
California, Berkeley, and Harvard, and I have been publishing peer-
reviewed articles and reports about the causes and consequences of 
climate change, and the remedies for it, for even longer.
    While I am not willing to engage, in this venue, in a comparison of 
my qualifications to be Director of OSTP with those of others, I will 
note that I am a long-time member of both the National Academy of 
Sciences and the National Academy of Engineering, a Fellow of the 
American Physical Society and the American Academy of Arts and 
Sciences, and a former President and Chair of the Board of the American 
Association for the Advancement of Science (elected by the membership 
of this, the largest general science society in the world and the 
publisher of the journal SCIENCE). I believe I was nominated by 
President Obama to serve as his Assistant for Science and Technology 
and Director of the Office of Science and Technology Policy not only 
because of my knowledge of and contributions to the issue of climate 
change (although that is certainly one of the important science and 
technology issues facing this administration and this country) but also 
because of my experience with a variety of other environmental issues; 
with nuclear and nonnuclear energy technologies; with space science and 
technology; with nuclear weapons, nuclear arms control, and 
nonproliferation; with international cooperation in science and 
technology; and with the study and practice of how science and 
technology policy work in the White House.

    Question 16. Dr. Holdren, you have been dismissive and have 
sometimes sneered at the views of highly qualified professional climate 
scientists, who are often described in the media as climate skeptics, 
and even though you are not a climate scientist. People such as 
Professor Richard Lindzen of MIT, Professor John Christy of the 
University of Alabama at Huntsville, Dr. Roy Spencer of the University 
of Alabama at Huntsville, Professor Patrick Michaels of the University 
of Virginia, and Professor Emeritus and former director of the U S. 
Weather Service Fred Singer. Have you ever called any of these 
distinguished scientists (or any scientists I haven't named) 
``deniers'', thereby implying that they are somehow similar to 
Holocaust deniers, simply because they have expressed views you 
disagree with. If you are confirmed, what evidence can you offer that 
you would be able to consider fairly and to represent their expert 
views? Will you continue to denigrate expert scientific views you 
disagree with and the scientists who hold them while serving President 
Obama?
    Answer. I would not say I have ``sneered'' at the views of any of 
the individuals named in the question, although I have certainly 
disagreed publicly with a number of specific arguments that some of 
these individuals have advanced. Most of the individuals named do not 
deny that climate change is occurring or that human activities have 
something to do with it, but rather take the view that the 
uncertainties are larger and the most likely consequences smaller than 
what most climate scientists believe to be the case. In the rare 
instance that one finds a climate scientist of any sort who actually 
denies that human activities are changing the climate of the Earth, I 
would say that the term ``climate-change denier'' is accurate without 
imputing any similarity or relationship to those who deny the reality 
of the Holocaust. These are very different kinds of denial.

    Question 17. Dr. Holdren, you have made many strong claims about 
global warming and its impacts. Rather than listing those claims, can 
you provide evidence for some of them? You have stated that global 
warming is accelerating and happening faster than predicted. Can you 
show any satellite or surface global temperature data sets that support 
your claim? Are you aware of any data sets that do not support your 
claim? What criteria have you applied to prefer one temperature data 
set to another? You have stated that the impacts of global warming are 
already apparent and worse than predicted Can you comment on some of 
these? For example sea level rise. What is your view? Is it supported 
by the IPCC's Fourth Assessment Report? For example, you have claimed 
that droughts, Moods, and storms are also increasing as a result of 
global warming. What professional expertise has allowed you to pick out 
and prefer a few studies that support your claim out of the many 
studies that do not? Since you are not a climate scientist, you may not 
be aware of the scientific literature that does not support your 
alarmist views. Therefore, we would be happy to share some of those 
studies with you and invite your comments on them.
    Answer. The question mentions the IPCC's Fourth Assessment Report. 
It is a fine compilation of much of the evidence for the statements I 
have made about global climate change and its impacts.
    Where the question implies that the IPCC Fourth Assessment does not 
support what I have said (namely, about the potential extent of sea-
level rise in the 21st century), I have already explained in my written 
answers to pre-hearing questions, as well as in the oral Q&A portion of 
my hearing, that the IPCC report itself makes clear that the authors 
chose to present quantitative estimates only for those contributing 
phenomena that they felt could be modeled reasonably accurately at the 
time they wrote. This excluded the mechanisms for rapid ice sheet 
disintegration that paleoclimatological studies have indicated were 
responsible for rates of sea level rise of 2 to 5 meters (6.6 to 16 
feet) per century during natural warming periods in the past 20,000 
years (see R. B. Alley et al., Science, 310: 456-460, 2005; J. T. 
Overpeck et al., Science 311: 1747-50, 2006). The IPCC authors actually 
made clear that their lower figures, which included only thermal 
expansion of sea water and the gradual melting of land ice, were 
neither a ``best estimate'' nor an ``upper bound'' of sea-level to be 
expected by 2100 because of the exclusion of the faster mechanisms from 
their quantitative analysis. As I indicated in my earlier answers, a 
series of studies published since the IPCC report was finalized suggest 
that the best current estimate of the maximum sea-level rise to be 
expected by 2100 is 1-2 meters, i.e, 3.3 to 6.6 feet (see, e.g., S. 
Rahmstorf, Science 315: 368-370, 2007; W. T. Pfeffer et al., Science 
321: 1340-43, 2008, and references therein).
    In addition to the reports of the IPCC, accessible accounts of the 
evidence for the character and impacts of global climate change, with 
extensive references to the peer-reviewed scientific literature, can be 
found in the reports on the subject of the U.N. Scientific Expert Group 
on Climate Change and Sustainable Development, for which I was one of 
the coordinating lead authors (www.unfoundation.org/SEG/); the U.S. 
National Academy of Sciences (http://dels.nas.edulglobalchange); the 
U.S. National Center for Atmospheric Research (www.ucar.edu); and the 
U.K. Meteorological Office (www.met-office.gov.uk), as well as on a 
myriad of websites run by some of the most respected climatologists 
(e.g., www.columbia.edu/jeh1/, stephenschneider.stanford.edu, 
www.realclimate.org).
    Besides these relatively comprehensive accounts of the scientific 
evidence relating to climate change and its impacts, I offer the 
following as recent substantiation, in the peer-reviewed literature, of 
what I have characterized as the ``mainstream'' or ``center of 
gravity'' position on specific points to which the question calls 
attention:

  <bullet> For recent accounts of the evidence that climate change is 
        accelerating, please see, e.g., Canadell, J. G., et al. (2007) 
        Proceedings of the National Academy of Sciences, 104(47): 
        18866-18870; Raupach, M. R., et al. (2007) Proceedings of the 
        National Academy of Sciences, 104(24): 10288-10293; Rahmstorf, 
        S., et al. (2007) Science, 316: 709.

  <bullet> On the consistency of surface temperature records and 
        satellite measurements, showing global warming at a pace 
        unusual against the backdrop of recent natural variability, 
        please see, e.g., National Research Council, Board on 
        Atmospheric Sciences and Climate, Surface Temperature 
        Reconstructions for the Last 2,000 Years, 2006 (http://
        www.nap.edu/catalog/11676.html); Karl, T. R., et al., editors, 
        Temperature Trends in the Lower Atmosphere: Steps for 
        Understanding and Reconciling Differences. A Report by the 
        Climate Change Science Program and the Subcommittee on Global 
        Change Research, Washington, DC, 2006 (http://
        www.climatescience.gov/Library/sap/sap1-1/finalreport/
        default.htm); Mears, C.A. and F.J. Wentz, Science 309: 1548-51, 
        2005.

  <bullet> On increases in droughts, heat waves, and wildfires linked 
        to global climate change, please see, e.g., Barnett, T. P., et 
        al. (2008) Science 319: 1080-1083; Karl, T. R., et al. (2008) 
        Weather and Climate Extremes in a Changing Climate (http://
        www.climatescience.gov/Library/sap/sap3-3/final-report/
        default.htm); Westerling, A., et al. (2006) Science, 313: 940-
        943.

  <bullet> On the link between global climate change and powerful 
        tropical storms, please see, e.g., Elsner, J. B. et al., Nature 
        455: 92-95, 2008; Saunders, M. A. and A. S. Lea, Nature, 451: 
        557, 2008; Mann, M. E. and K. A. Emanuel, Eos, 87 (24), 233, 
        2006; Sriver, R. and M. Huber, Geophysical Research Letters, 
        33, L11705, 2006.

    I do not agree with the question's suggestion that only a few 
studies support my characterizations of current understandings in 
climate science while many do not. Indeed, I believe that the opposite 
is true, at least if one confines attention to the peer-reviewed 
scientific literature.
    Of course, one does not determine what is most likely to be correct 
only by counting up the numbers of scientific papers on each side of an 
issue; if one has the background needed to do so, one reads the 
analyses, examines the data and the arguments, and tries to reach a 
reasoned conclusion about which findings should be taken most 
seriously. In every scientific field, many things make it into the 
peer-reviewed literature that subsequently are shown to be incorrect. 
(This was the case with some of the early interpretations of satellite 
data on tropospheric temperatures, appearing to show a cooling rather 
than the expected warming.) That is why it is so important to stay up 
to date, and also why the reports of the National Research Council and 
the Intergovernmental Panel on Climate Change--in which leaders in the 
field devote great effort to sorting out the science that stands up to 
scrutiny from the science that does not--have such high credibility.

    Question 18. Dr. Holdren, on global warming and several other 
scientific issues with important public policy consequences, your views 
in my opinion are not well supported in the expert scientific 
literature and in fact have been described, perhaps uncharitably, as 
being on the kooky fringe. As scientific adviser, how will you put 
aside your own non-mainstream personal views and represent mainstream 
scientific views on global warming and other scientific topics that 
have serious ramifications for public policy?
    Answer. As indicated in the preceding answer, I do not agree with 
the question's premise that my views on climate-change science are not 
well supported in the expert scientific literature and that they differ 
from mainstream scientific views on the topic. I consider the 
mainstream views to be those presented in the reviews of climate 
science issued by the National Research Council and the 
Intergovernmental Panel on Climate Change and summarized periodically 
in statements issued by, e.g., the presidents of the national academies 
of science of most of the countries that have such academies, the 
leaderships of the principal professional societies dealing in the 
physical and Earth sciences, and so on. (A compilation of those 
statements is available at http://www.logicalscience.com/consensus/
consensusD1.htm.)
    I believe it would be my responsibility as Director of the Office 
of Science and Technology, if confirmed by the U.S. Senate, to 
communicate to the President and others the content of these mainstream 
views as well as the range of scientific opinion diverging from the 
mainstream, in both the more optimistic and more pessimistic 
directions, and my best judgment about the implications for policy of 
the ranges of disagreement and uncertainty that exist. As in other 
subject areas, in developing these formulations I would expect to draw 
upon the insights and judgments of experts on the OSTP staff, on the 
President's Council of Advisors on Science and Technology, in cabinet 
departments and other Federal agencies as appropriate, and across the 
wider science and technology communities.

    Question 19. Dr. Holdren, during your nomination hearing you 
mentioned that you still believe one billion people will die from 
global warming by 2020. You also mentioned that in your scientific 
predictions you have ``hedged your bets'' and ``were within the 
scientific feeling at that time.'' When you advise the President do you 
plan on ``hedging your bets'' and going with the ``feeling at the 
time?''
    Answer. With respect, I did not say I believe a billion people will 
die from the impacts of climate change by 2020; I said I believe such a 
terrible outcome remains possible, and I explained that the way this 
could come about would be if global climate crossed a tipping point 
into a climate regime that drastically reduced world food production. 
(On climate tipping points and their possible imminence, please see, 
e.g., Lenton, T. M., et al., Proceedings of the National Academy of 
Sciences 105(6): 1786-1793, 2008; on the vulnerability of world food 
production to climate change, please see, e.g., Lobell, D. L., et al., 
Science 319, 607-610, 2008, and D. S. Battisti and R. L. Naylor, 
Science 323: 240244, 2009.)
    More generally, the future being inherently uncertain, all 
statements about it should be ``hedged''; that is, the uncertainty 
should be acknowledged, and the assumptions on which particular 
projections or scenarios are based should be stated. I have always 
tried to do that, although this is not necessarily apparent when 
someone quotes a single sentence or part of a sentence out of context. 
I have also always tried to base my statements about trends and 
associated risks on the best scientific information and judgments 
available at the time. (If, in the press of oral Q&A at my hearing, I 
ended up saying ``scientific feeling'' rather than ``scientific 
understanding'' or ``scientific judgment'', I regret the imprecision.) 
Of course, scientific information gets better as time goes on, and I 
hope that my capacity to assess such information--and to draw upon 
others to help me assess it--has also improved over time.

                                  <all>

</pre></body></html>
